APPENDIX

1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
Nos. 18-2797 & 18-3124
CRYSTALLEX INTERNATIONAL
CORPORATION
v.
BOLIVARIAN REPUBLIC OF VENEZUELA;
PETROLEOS DE VENEZUELA, S.A.
No. 18-2889
In re: PETROLEOS DE VENEZUELA, S.A.,
[Filed: July 29, 2019]
Before: AMBRO, GREENAWAY, JR., and SCIRICA,
Circuit Judges
OPINION OF THE COURT
AMBRO, Circuit Judge
Crystallex International Corp., a Canadian gold
mining company, invested hundreds of millions of
dollars to develop gold deposits in the Bolivarian
Republic of Venezuela. In 2011, Venezuela
expropriated those deposits and transferred them to
its state-owned oil company, Petróleos de Venezuela,
S.A. (“PDVSA”). To seek redress, Crystallex invoked a
bilateral investment treaty between Canada and
Venezuela to file for arbitration before the
International Centre for Settlement of Investment
Disputes. The arbitration took place in Washington,
D.C., and Crystallex won; the arbitration panel
awarded it $1.2 billion plus interest for Venezuela’s
expropriation of its investment. The United States

2a
District Court for the District of Columbia confirmed
that award and issued a $1.4 billion federal
judgment. Now Crystallex is trying to collect.
Unable to identify Venezuelan-held commercial
assets in the United States that it can lawfully seize,
Crystallex went after U.S.-based assets of PDVSA.
Specifically, it sought to attach PDVSA’s shares in
Petróleos de Venezuela Holding, Inc. (“PDVH”), its
wholly owned U.S. subsidiary. PDVH is the holding
company for CITGO Holding, Inc., which in turn
owns CITGO Petroleum Corp. (“CITGO”), a Delaware
Corporation headquartered in Texas (though best
known for the CITGO sign outside Fenway Park in
Boston).
This attachment suit is governed by the Foreign
Sovereign Immunities Act of 1976, 28 U.S.C. §§
1602–1611 (the “Sovereign Immunities Act”). Under
federal common law first recognized by the Supreme
Court in First National City Bank v. Banco Para El
Comercio Exterior de Cuba (“Bancec”), 462 U.S. 611,
103 S.Ct. 2591, 77 L.Ed.2d 46 (1983), a judgment
creditor of a foreign sovereign may look to the
sovereign’s instrumentality for satisfaction when it is
“so extensively controlled by its owner that a
relationship of principal and agent is created.” Id. at
629, 103 S.Ct. 2591.
Interpreting Bancec, the District Court, per Chief
Judge Stark, concluded that Venezuela’s control over
PDVSA was sufficient to allow Crystallex to attach
PDVSA’s shares of PDVH in satisfaction of its
judgment against the country. PDVSA and
Venezuela, along with PDVSA’s third-party
bondholders as amici (the “Bondholders”), challenge
this ruling.

3a
Venezuela and the Bondholders do not
substantially contest the District Court’s finding that
it extensively controlled PDVSA. Rather, they raise
various jurisdictional and equitable objections to the
attachment. Likewise, PDVSA primarily contends
that its tangential role in the dispute precludes
execution against its assets under Bancec irrespective
of the control Venezuela exerts over it.
We affirm the District Court’s order granting the
writ of attachment and remand for further
proceedings consistent with this opinion. 1
I. Background
A. Factual background
In 2002, Crystallex contracted with Corporación
Venezolana de Guayanaan, an organ of the
Venezuelan government, for the right to develop and
extract exclusively for 20 years the gold deposits at
Las Cristinas, Venezuela. See Crystallex Int’l Corp. v.
Bolivarian Republic of Venezuela (“D.C. Crystallex I”),
244 F. Supp. 3d 100, 105–06 (D.D.C. 2017). The
deposits are among the world’s largest. Per the
contract, Crystallex spent hundreds of millions of
dollars developing the Las Cristinas site. Id. at 106.
It also performed various other obligations under the
contract. Id.
In 2011, Venezuela nationalized its gold mines
and seized the Las Cristinas works without providing
compensation. As Crystallex asserts and PDVSA does
not dispute, Venezuela then gave the mining rights at
Las Cristinas to PDVSA for no consideration, and
We also deny PDVSA’s petition for a writ of mandamus and
dismiss as moot its second appeal.

1

4a
PDVSA subsequently “sold to the Venezuelan Central
Bank 40% of its shares in the affiliate that was
created to exercise those mining rights.” J.A. 1194.
Later that year, Crystallex filed for arbitration
under a bilateral investment treaty between Canada
and Venezuela before the International Centre for
Settlement of Investment Disputes. As noted earlier,
the arbitration took place in Washington, D.C., and
Crystallex won an arbitration award of $1.2 billion
plus interest.
Crystallex had its award. Now it had to collect.
B. Crystallex’s collection efforts
1. Confirmation proceedings in the
District of Columbia
Crystallex filed an action to confirm its award in
the U.S. District Court for the District of Columbia. It
properly served Venezuela, who appeared to defend
it. The Court confirmed the award and entered a
federal judgment in favor of Crystallex. D.C.
Crystallex I, 244 F. Supp. 3d at 122–23. After
Venezuela failed to satisfy the judgment within 30
days, the Court ruled that Crystallex could execute
on it. Crystallex Int’l Corp. v. Bolivarian Republic of
Venezuela, No. CV 16-0661 (RC), 2017 WL 6349729,
at *1 (D.D.C. June 9, 2017). However, the Court
expressly declined to address whether Crystallex
could attach assets held by PDVSA and its
subsidiaries. Id. at *2. Venezuela appealed the ruling,
and the D.C. Circuit affirmed it. Crystallex Int’l Corp.
v. Bolivarian Republic of Venezuela, 760 Fed.Appx. 1,
2–3 (D.C. Cir. 2019).

5a
2. Delaware Uniform Fraudulent
Transfer Act proceedings
While arbitration was pending and then after the
award was announced, Crystallex brought suits
against CITGO, CITGO Holding, PDVH, and PDVSA
in the Delaware District Court. See Crystallex Int’l
Corp. v. PDV Holding, Inc. (1:15-CV-1082); Crystallex
Int’l Corp. v. PDV Holding, Inc. (1:16-CV-1007). It
claimed that Venezuela refused to pay its arbitration
award and “thwart[ed] enforcement” by transferring
its assets among several entities—PDVSA, PDVH,
and CITGO— allegedly in violation of the Delaware
Uniform Fraudulent Transfer Act, 6 Del. C. §§ 1301–
11. Crystallex Int’l Corp. v. Petróleos de Venezuela,
S.A., 879 F.3d 79, 82 (3d Cir. 2018). The Court denied
PDVH’s motion to dismiss, but we reversed and held
that a transfer from a non-debtor could not be a
“fraudulent transfer” under the Act. Id. at 81 (“While
we do not condone the debtor’s and the transferor’s
actions, we must conclude that Crystallex has failed
to state a claim under [the Act].”). That panel noted
explicitly but reserved judgment on the question now
before us—whether PDVSA could be liable for the
arbitration award as an “alter ego” of Venezuela. Id.
at 84 n.7.
3. Proceedings in this appeal
While the award-confirmation appeal was pending
in the D.C. Circuit, Crystallex followed up its
judgment by filing an attachment action against
Venezuela in the Delaware District Court. Under
Federal Rule of Civil Procedure 69(a), Crystallex
attempted to attach PDVH shares owned by PDVSA.
That rule provides: “A money judgment is enforced by
a writ of execution, unless the court directs

6a
otherwise. The procedure on execution—and in
proceedings supplementary to and in aid of judgment
or execution—must accord with the procedure of the
state where the court is located,” here Delaware, “but
a federal statute governs to the extent it applies.”
Delaware law permits a judgment creditor to obtain a
writ of attachment (known by its Latin name, fieri
facias, or simply fi. fa.) over various forms of property
belonging to the debtor, including its shares in a
Delaware corporation. See 10 Del. C. § 5031; 8 Del. C.
§ 324(a).
Though not named in the attachment proceeding,
PDVSA intervened in the District Court. It moved to
dismiss the proceeding on the ground of sovereign
immunity under the Sovereign Immunities Act.
After several rounds of briefing and hearings, the
District Court concluded that PDVSA was
Venezuela’s “alter ego” under Bancec. Crystallex Int’l
Corp. v. Bolivarian Republic of Venezuela (“Del.
Crystallex”), 333 F. Supp. 3d 380, 414 (D. Del. 2018).
The Court held (1) it had jurisdiction to order
attachment against PDVSA’s U.S.-based commercial
assets, and (2) Crystallex could attach PDVSA’s
shares of PDVH to satisfy the judgment against
Venezuela. A follow-up order, dated August 23, 2018,
directed the Clerk to issue the writ and have it served
in furtherance of an execution through a public sale
of PDVH stock. PDVSA appealed both of these orders
(docketed in our Court as Nos. 18-2797 & 18-3124),
and also filed a petition for a writ of mandamus (No.
18-2889) to prevent completion of the sale during this
appeal. We consolidated all three appeals for oral
argument and resolution.
While they were pending before us, Venezuela

7a
moved to intervene and to stay these appeals for 120
days so that it could further evaluate its legal
position. By order dated March 20, 2019, we granted
Venezuela’s motion to intervene and participate in
oral argument. We also permitted it to file
supplemental briefing. We did not rule on its motion
to stay but stated we would consider that motion at
oral argument. At that argument, Venezuela chose to
forgo further pursuit of a stay. Oral Arg. Tr. at 180:1–
7 (Apr. 15, 2019).
C. Relationship between Venezuela and
PDVSA
The District Court’s primary ruling was that
PDVSA is Venezuela’s “alter ego” under Bancec.
Numerous facts are relevant to that determination,
as discussed in more detail below. In general, it is
undisputed the relationship between PDVSA and
Venezuela has tightened significantly since 2002,
when then-President Hugo Chávez fired roughly 40%
of the PDVSA workforce for protesting increased
Venezuelan control over the company. Since then
PDVSA’s presidents have generally been senior
members of the Venezuelan president’s cabinet,
including members of the Venezuelan military.
Venezuela has also passed various laws that require
PDVSA to fund both government initiatives and
discretionary government funds. Venezuela controls
PDVSA’s domestic oil production, sales, and pricing.
It also requires that PDVSA supply Venezuela and its
strategic allies with oil at below-market rates.
D. The Bondholders’ interests
Also relevant to this appeal are the various bonds
that PDVSA has issued over the past decade or so.
Several holders of PDVSA bonds due to mature in

8a
2020 moved to intervene as amici in this appeal.
They include BlackRock Financial Management, Inc.
and Contrarian Capital Management, LLC. Their
bonds have an outstanding face value of
approximately $1.684 billion and are secured by a
50.1% collateral interest in PDVH’s shares of Citgo
Holding, Inc. as security for the bonds. According to
the Bondholders, PDVSA has also issued roughly $25
billion in bonds to U.S. and non-U.S. capital markets
investors.
E. U.S. policy towards Venezuela and
PDVSA
President Nicolas Maduro became the President of
Venezuela in 2013. This year Juan Guaidó,
Venezuelan’s opposition leader and president of the
National Assembly, has made efforts to oust Maduro
and take control of the Venezuelan government. The
United States Government recognized Guaidó as the
rightful leader of Venezuela on January 23, 2019. 2
Five days later, as part of a broader effort to
convince the Maduro regime to cede power, the Office
of Foreign Assets Control of the U.S. Department of
the Treasury (“OFAC”) imposed new sanctions
against PDVSA by adding it to the List of Specially
Designated Nationals and Blocked Persons. As
discussed further below, the U.S. Government has
As a practical matter, there is reason to believe that Guaidó’s
regime does not have meaningful control over Venezuela or its
principal instrumentalities such as PDVSA. Nonetheless, under
Guaranty Trust Co. v. United States, 304 U.S. 126, 138, 58 S.Ct.
785, 82 L.Ed. 1224 (1938), we recognize Guaidó’s regime as
authorized to speak and act on behalf of Venezuela in these
appeals.
2

9a
also promulgated several executive orders limiting
transfer of Venezuelan or PDVSA-controlled assets in
the United States.
II. Jurisdiction and standard of review
The parties dispute whether the District Court
had jurisdiction to attach PDVSA’s property to satisfy
the judgment against Venezuela. The Court held that
it had both ancillary jurisdiction to enforce the
judgment and an independent basis for jurisdiction
per 28 U.S.C. § 1330 and 28 U.S.C. § 1605(a)(6)
because PDVSA was Venezuela’s alter ego. Section
1330 grants federal-court jurisdiction over “any
nonjury civil action” against a foreign sovereign, so
long as the sovereign is properly served under 28
U.S.C. § 1608 and is not entitled to sovereign
immunity. See 28 U.S.C. § 1330(a)–(b). Under 28
U.S.C. § 1604, foreign sovereigns and their
instrumentalities are entitled to sovereign immunity
in U.S. courts except as provided in 28 U.S.C. §§
1605–1607. Section 1605(a)(6), the immunity
exception applied by the District Court in this case,
provides an exception to immunity for actions seeking
to compel arbitration pursuant to an agreement or to
enforce arbitration awards that meet certain criteria.
We have jurisdiction to review the District Court’s
denial of PDVSA’s motion to dismiss as an immune
sovereign and the grant of Crystallex’s motion for a
writ of attachment under Federal Rule of Civil
Procedure 69. We have jurisdiction to review the
former under the collateral order doctrine. See Fed.
Ins. Co. v. Richard I. Rubin & Co., 12 F.3d 1270,

10a
1279–82 (3d Cir. 1993). 3 Our jurisdiction exists for
the latter because it amounted to a final judgment
under 28 U.S.C. § 1291 by leaving the District Court
“nothing left to do but execute[.]” Bryan v. Erie Cnty.
Office of Children and Youth, 752 F.3d 316, 321 (3d
Cir. 2014).
We review questions of law de novo and findings
of fact for clear error, and we review de novo the
ultimate determination whether to treat PDVSA as
Venezuela’s alter ego. See Clientron Corp. v. Devon
IT, Inc., 894 F.3d 568, 575 (3d Cir. 2018).
III. Analysis
The parties raise a host of issues. We group them
into three core inquiries: (A) whether the Bancec
“alter ego” doctrine determines the District Court’s
jurisdiction to attach PDVSA’s assets (it does), (B) the
scope of the Bancec inquiry and whether its factors
are satisfied here (they are), and (C) whether
PDVSA’s shares of PDVH are immune from
attachment under the Sovereign Immunities Act
(they are not).

The collateral order doctrine allows us to exercise jurisdiction
over interlocutory appeals, such as this one, when the order
“conclusively determines the disputed question, resolves an
important issue completely separate from the merits of the
action, and is effectively unreviewable on appeal from a final
judgment.” Fed. Ins. Co., 12 F.3d at 1279–80 (brackets and
internal quotation marks omitted); see also Cohen v. Beneficial
Industrial Loan Corp., 337 U.S. 541, 545–47, 69 S.Ct. 1221, 93
L.Ed. 1528 (1949) (articulating the doctrine).
3

11a
A. Bancec controls the jurisdictional inquiry
here.
1. The District Court had jurisdiction
over Venezuela.
As noted, Crystallex confirmed its arbitration
award against Venezuela in the U.S. District Court
for the District of Columbia, which yielded a federal
judgment. It then registered that judgment for
enforcement in the Delaware District Court under 28
U.S.C. § 1963. That section provides that a judgment
so registered “shall have the same effect as a
judgment of the district court of the district where
registered and may be enforced in like manner.” Id.
After registering the judgment, Crystallex moved to
enforce it by attaching assets under Federal Rule of
Civil Procedure 69(a).
As a threshold question, we consider whether the
District Court in Delaware had jurisdiction over
Venezuela, the only party named as a defendant here.
It is undisputed that the D.C. District Court had
jurisdiction over Venezuela under the Sovereign
Immunity Act’s arbitration exception, 28 U.S.C. §
1605(a)(6). It is well established that federal courts
have ancillary jurisdiction to enforce their judgments.
See IFC Interconsult, AG v. Safeguard Int’l Partners,
LLC, 438 F.3d 298, 311 (3d Cir. 2006). That
jurisdiction applies to “a broad range of
supplementary proceedings involving third parties to
assist in the protection and enforcement of federal
judgments—including
attachment
...
[and]
garnishment.” Peacock v. Thomas, 516 U.S. 349, 356,
359 & n.7, 116 S.Ct. 862, 133 L.Ed.2d 817 (1996).
Furthermore, ancillary enforcement jurisdiction—or
its functional equivalent—has been routinely applied

12a
to post-judgment enforcement proceedings against a
foreign sovereign. See First City, Texas Houston, N.A.
v. Rafidain Bank, 281 F.3d 48, 53–54 (2d Cir. 2002);
Peterson v. Islamic Republic of Iran, 627 F.3d 1117,
1123 (9th Cir. 2010); Transaero, Inc. v. La Fuerza
Aerea Boliviana, 30 F.3d 148, 150 (D.C. Cir. 1994). In
other words, when a party establishes that an
exception to sovereign immunity applies in a merits
action that results in a federal judgment—here, the
exception for confirming arbitration awards, 28
U.S.C. § 1605(a)(6)—that party does not need to
establish yet another exception when it registers the
judgment in another district court under 28 U.S.C. §
1963 and seeks enforcement in that court. Rather,
the exception in the merits action “sustain[s] the
court’s jurisdiction through proceedings to aid
collection of a money judgment rendered in the case
....” First City, 281 F.3d at 53–54.
According to Venezuela, we should forbid
Crystallex from using the § 1963 procedure in this
case, as that procedure for registering a judgment
cannot be applied to a foreign sovereign at all because
it is “preempted by [the Sovereign Immunities Act].”
(Venezuela Br. at 9–16.)4 Venezuela presents this
position as a two-pronged jurisdictional argument.
First, it contends that § 1963 does not confer personal
jurisdiction over it because the only method for
establishing jurisdiction is by making proper service
under the Sovereign Immunities Act’s service
provisions, 28 U.S.C. § 1608. (Venezuela Br. at 9–12.)
We disagree: § 1608 applies only to the “summons
We note that, as a doctrinal matter, “preemption” generally
refers to the effect of a federal statute on state law rather than
on other federal statutes.

4

13a
and complaint,” id., whereas “[s]ervice of postjudgment motions is not required.” Peterson, 627 F.3d
at 1130.
Second, Venezuela asserts that § 1963 does not
create subject matter jurisdiction over foreign
sovereigns and cannot be used to “piggyback” on the
subject-matter jurisdiction of the court that rendered
the judgment being enforced. (Venezuela Br. at 12–
16.) Regardless whether § 1963 separately confers
subject-matter jurisdiction over foreign sovereigns, a
district court has jurisdiction to enforce a federal
judgment against a foreign sovereign when it is
registered under § 1963. This is so, as noted, because
the jurisdictional basis from the action resulting in
the judgment carries over to the post-judgment
enforcement proceeding in a manner akin to the
ordinary operation of a district court’s enforcement
jurisdiction over post-judgment proceedings. See First
City, 281 F.3d at 53–54; Peterson, 627 F.3d at 1123;
Transaero, 30 F.3d at 150.
A recent decision by the Supreme Court reinforces
our rejection of Venezuela’s novel § 1963 argument.
See Republic of Sudan v. Harrison, ––– U.S. ––––,
139 S. Ct. 1048, 1054, 203 L.Ed.2d 433 (2019). It
involved a § 1963 proceeding against the
instrumentalities of a foreign sovereign—the same
procedural posture we have here. The Court resolved
that case on a ground not relevant here, but, notably,
it expressed no concern about the use of a § 1963
proceeding against a foreign sovereign. If Venezuela’s
view of § 1963 were correct, Harrison would

14a
presumably have said so. 5
In short, before the Delaware District Court and
us is a continuation of the action in the D.C. District
Court. As the latter had jurisdiction over
Venezuela—by virtue of the Sovereign Immunities
Act’s arbitration exception, 28 U.S.C. § 1605(a)(6)—
both Courts that follow, the Delaware District Court
and our Court, also have jurisdiction.
2. The District Court properly used
Bancec to extend its jurisdiction to
assets held nominally by PDVSA.
Taking a different tack, PDVSA concedes the
District Court had jurisdiction over Venezuela but
believes that Bancec cannot be used to extend that
jurisdiction to reach the assets of PDVSA, a nonparty to the merits action. We part company again.
To reach this conclusion, we first consider our
decision in Federal Insurance, 12 F.3d at 1287. There
we joined other circuits in holding that, although the
Bancec doctrine came in a case involving the shifting
of substantive liability, it also applied to extend a
district court’s jurisdiction over a foreign sovereign to
reach an extensively controlled instrumentality. See
id. (collecting cases). On a straightforward
application of Federal Insurance, the District Court’s
jurisdiction over Venezuela would extend to PDVSA
so long as it is Venezuela’s alter ego under Bancec.
See De Letelier v. Republic of Chile, 748 F.2d 790, 795
(2d Cir. 1984) (applying Bancec in post-judgment
Indeed, Justice Thomas would have affirmed the Second
Circuit’s exercise of jurisdiction—implicitly concluding there
was no § 1963 jurisdictional problem. Id. at 1066 (Thomas, J.,
dissenting).

5

15a
enforcement proceeding); Alejandre v. Telefonica
Larga Distancia de Puerto Rico, Inc., 183 F.3d 1277,
1288 (11th Cir. 1999) (same).
That potential application of Federal Insurance
deserves a closer look. The decision was in the
context of a merits action—it did not address the
post-judgment enforcement setting we have here. 12
F.3d at 1287. According to PDVSA, that distinction
makes all the difference. It claims that a district
court cannot exercise post-judgment enforcement
jurisdiction over a party other than the judgment
debtor based on a theory of “alter ego” or “veil
piercing” 6 unless it has an “independent basis” for
jurisdiction over the third party. (PDVSA Br. at 24–
27.) For that proposition, PDVSA cites Peacock, 516
U.S. at 357, 116 S.Ct. 862, in which a plaintiff who
had obtained a federal judgment against his employer
under the Employee Retirement Income Security Act
of 1974 (“ERISA”) filed a new action in a federal court
against a shareholder of the employer seeking to hold
him liable by “piercing the corporate veil.” Id. at 353,
116 S.Ct. 862. The Court ruled that action was not
within the district court’s ancillary enforcement
jurisdiction because it does not extend to “a
subsequent lawsuit to impose an obligation to pay an
existing federal judgment on a person not already
liable for that judgment.” Id. at 357, 116 S.Ct. 862.
According to PDVSA, Peacock precludes the
District Court from exercising ancillary enforcement
These terms in legal context mean that if an entity’s separate
form (typically as a subsidiary corporation) is so disregarded by
the one who controls it (the “parent”), the “corporate veil” can be
“pierced,” that is, separateness is ignored.
6

16a
jurisdiction over this action because it seeks to “shift
liability for payment of an existing judgment to a
third party that is not otherwise liable on the
judgment.” (PDVSA Br. at 24 (citing Peacock).) That
reading of Peacock misfires. It was not a case
involving foreign sovereigns or the Sovereign
Immunities Act. The Act is a specialized
jurisdictional statute designed to address a specific
problem—the extent to which foreign sovereigns and
their instrumentalities are immune from suit and
attachment in our courts. And the Bancec doctrine—
the applicability of which is the core question here—
is a federal common-law outgrowth of that specialized
statute. It (the doctrine) exists specifically to enable
federal courts, in certain circumstances, to disregard
the corporate separateness of foreign sovereigns to
avoid the unfair results from a rote application of the
immunity provisions provided by the Sovereign
Immunities Act. Nothing in Peacock leads us to
believe the Supreme Court expected or intended its
decision in that case to restrain the application of
Bancec in post-judgment proceedings.
Moreover, in Rubin v. Islamic Republic of Iran, ––
U.S. –––, 138 S. Ct. 816, 823, ––– L.Ed.2d ––– (2018),
the Supreme Court all but confirmed that Bancec can
indeed be used to reach the assets of a foreign
sovereign’s extensively controlled instrumentality
through post-judgment attachment proceedings. The
Court examined 28 U.S.C. § 1610(g), a provision of
the Sovereign Immunities Act related to attachments
of assets held by agencies and instrumentalities of
states that have sponsored terrorism. Id. It observed
that § 1610(g)(1), which was added to the Sovereign
Immunities Act by congressional amendment in 2008,
“incorporate[s] almost verbatim the five Bancec

17a
factors [they are noted below], leaving no dispute
that, at a minimum, § 1610(g) serves to abrogate
Bancec with respect to the liability of agencies and
instrumentalities of a foreign state where a
[terrorism-related-judgment] holder seeks to satisfy a
judgment held against the foreign state.” Id. We take
from this the implication that in ordinary FSIA
attachment proceedings—i.e., those that do not
involve judgments based on state-sponsored
terrorism—the judgment holder may reach the assets
of the foreign judgment debtor by satisfying the
Bancec factors. See id. Indeed, the Court expressly
stated that, where 28 U.S.C. § 1610(g) does not apply,
a plaintiff with a judgment against the sovereign
would need to satisfy the Bancec factors if it sought,
for example, “to collect against assets located in the
United States of a state-owned telecommunications
company.” Id. at 23–24 (citing Alejandre, 183 F.3d
1277) (emphasis added).
These analyses confirm the relevance of Bancec
here: so long as PDVSA is Venezuela’s alter ego
under Bancec, the District Court had the power to
issue a writ of attachment on that entity’s nonimmune assets to satisfy the judgment against the
country. See Hercaire Int’l, Inc. v. Argentina, 821 F.2d
559, 563–65 (11th Cir. 1987) (looking to the Sovereign
Immunities Act and Bancec to determine “whether
the assets of a foreign state’s wholly-owned national
airline are subject to execution to satisfy a judgment
obtained against the foreign state, where the airline
was neither a party to the litigation nor was in any
way connected with the underlying transaction giving
rise to the suit”); Arriba Ltd. v. Petroleos Mexicanos,
962 F.2d 528, 532–38 (5th Cir. 1992) (doing the same
to determine whether the district court had

18a
jurisdiction to conduct a garnishment proceeding
against a foreign instrumentality, where the
purported basis for jurisdiction was solely the actions
of the instrumentality’s agents).
B. Whether Venezuela is PDVSA’s alter ego
under Bancec
“Due respect for the actions taken by foreign
sovereigns and for principles of comity between
nations” caused the Supreme Court to conclude in
Bancec
that
“government
instrumentalities
established as juridical entities distinct and
independent from their sovereign should normally be
treated as such.” 462 U.S. at 626–27, 103 S.Ct. 2591.
Recognizing the respect due to foreign sovereigns, the
Court adopted a “presumption of independent status”
for instrumentalities. Id. at 627, 103 S.Ct. 2591.
PDVSA, as an instrumentality of Venezuela
separately formed in 1976, is accorded that
presumption. It is not to be taken lightly, as the
District Court noted. Del. Crystallex, 333 F. Supp. 3d
at 396 (D. Del. 2018) (citing Arch Trading Corp. v.
Republic of Ecuador, 839 F.3d 193, 201 (2d Cir.
2016)); see also De Letelier, 748 F.2d at 795 (“[B]oth
Bancec and the [Sovereign Immunities Act’s]
legislative history caution against too easily
overcoming the presumption of separateness.”).
1. Extensive control standard under
Bancec
In Bancec the Supreme Court allowed a U.S. bank
to recover assets from a Cuban instrumentality to
satisfy a debt owed by the Republic of Cuba. Bancec,
462 U.S. at 613, 103 S.Ct. 2591. It held that while
there exists a strong presumption that government
instrumentalities have a separate legal identity

19a
(along with limited liability) from their “parent”
governments, this presumption can be overcome in
certain situations—for example, “where a corporate
entity is so extensively controlled by its owner that a
relationship of principal and agent is created, we
have held that one may be held liable for the actions
of the other.” Bancec, 462 U.S. at 629, 103 S.Ct. 2591
(citing NLRB v. Deena Artware, Inc., 361 U.S. 398,
402–404, 80 S.Ct. 441, 4 L.Ed.2d 400 (1960)). “In
addition,” it recognized “the broader equitable
principle that the doctrine of corporate entity,
recognized generally and for most purposes, will not
be regarded when to do so would work fraud or
injustice.” Id. (quoting Taylor v. Standard Gas Co.,
306 U.S. 307, 322, 306 U.S. 618, 322, 59 S.Ct. 543, 83
L.Ed. 669 (1939)). Thus we recognize Bancec
establishes a disjunctive test for when the separate
identities of sovereign and instrumentality should be
disregarded: when there is “extensive[ ] control,” and
when not disregarding separate identities would
work a “fraud or injustice.” Rubin, 138 S. Ct. at 823.
Bancec did not develop a “mechanical formula” for
determining when these exceptions should apply,
however, which left “lower courts with the task of
assessing the availability of exceptions on a case-bycase basis.” Rubin, 138 S. Ct. at 823. In ensuing
decades district and circuit courts applied the Bancec
extensive-control test in various contexts. Several
multi-factor tests emerged in that period—the Second
Circuit, for example, had a non-exhaustive five-factor
test, see EM Ltd. v. Banco Cent. De La Republica
Argentina, 800 F.3d 78, 91 (2d Cir. 2015), which the
District Court applied here. 7 By and large the multi7

These factors include:

20a
factor tests for extensive control percolating through
the federal courts covered similar ground, see, e.g.,
Walter Fuller Aircraft Sales, Inc. v. Republic of
Philippines, 965 F.2d 1375, 1380 n.7, 1381 (5th Cir.
1992) (identifying five extensive-control factors),
though at least one court has piled on the factors, see
Bridas S.A.P.I.C. v. Gov’t of Turkmenistan, 447 F.3d
411, 418 (5th Cir. 2006) (recognizing 21 factors
relevant to extensive control);
In Rubin, the Supreme Court recently provided a
further gloss on the Bancec factors, which we believe
clarifies the analysis of the extensive-control prong
here. The plaintiffs there held a § 1605A-judgment
against the Islamic Republic of Iran and attempted to
attach and execute against certain Iranian artifacts
on loan to the University of Chicago. Rubin, 138 S.
Ct. at 820. In the course of addressing whether that
attachment was proper (it was not), the Court
identified five “Bancec factors” to aid circuit courts in
their analysis:
(1) the level of economic control by the
government;
(2) whether the entity’s profits go to the
government;
whether the sovereign nation: (1) uses the instrumentality’s
property as its own; (2) ignores the instrumentality’s separate
status or ordinary corporate formalities; (3) deprives the
instrumentality of the independence from close political
control that is generally enjoyed by government agencies; (4)
requires the instrumentality to obtain approvals for ordinary
business decisions from a political actor; and (5) issues policies
or directives that cause the instrumentality to act directly on
behalf of the sovereign state.
EM Ltd., 800 F.3d at 91; Del. Crystallex, 333 F. Supp. 3d at 401.

21a
(3) the degree to which government
officials manage the entity or otherwise
have a hand in its daily affairs;
(4) whether the government is the real
beneficiary of the entity’s conduct; and
(5) whether adherence to separate
identities would entitle the foreign state
to benefits in United States courts while
avoiding its obligations.
Id. at 823 (quoting Walter Fuller Aircraft Sales, Inc.,
965 F.2d at 1380 n.7). We use these factors identified
in Rubin to structure our analysis here. At the same
time, we recognize that they, like the other extensive
control tests our sister circuits have adopted, 8 are
meant to aid case-by-case analysis rather than
establish a “mechanical formula” for identifying
extensive control. Bancec, 462 U.S. at 633, 103 S.Ct.
2591.
2. Bancec’s scope
PDVSA and the Bondholders raise together six
challenges to the District Court’s inquiry under
Bancec: that (i) a sovereign’s extensive control, alone,
cannot allow courts to ignore the separateness of a
corporation from the country it is in, (ii) Crystallex
We follow Crystallex’s suggestion to apply the Rubin factors,
and neither Venezuela nor PDVSA indicates a preference
between them and those the District Court applied. Either
inquiry compels the same result. See generally Del. Crystallex,
333 F. Supp. 3d at 406–14. But an unresolved point of ambiguity
remains: whether the Rubin factors apply only to the extensivecontrol inquiry (as in Walter Fuller) or to both disjunctive tests.
The parties do not address this issue, and so we leave it for a
future panel.
8

22a
must show PDVSA acted as Venezuela’s agent
against Crystallex, (iii) we must consider the thirdparty interests of PDVSA’s bondholders, (iv)
extensive control must be shown by clear and
convincing evidence, (v) the Bancec inquiry must be
examined in light of current circumstances,
particularly the limited control of the Guaidó regime
over PDVSA; and (vi) Bancec requires that courts
also balance equities when they consider whether to
discard an instrumentality’s presumption of
separateness. We address each argument in turn.
i. Bancec’s extensive control prong
does not require a nexus between
the plaintiff’s injury and the
instrumentality.
PDVSA contends that there must be some
connection between the sovereign’s abuse of its
instrumentality’s corporate form and the plaintiff’s
injury. Indeed PDVSA declined our numerous
invitations at oral argument to argue that any of the
extensive control factors cut against Crystallex’s
position. It reiterated its position that each is
irrelevant here because Crystallex also needed to
show that PDVSA did something to cause the
plaintiff’s injury. Oral Arg. Tr. at 97:22–104:12 (Apr.
15, 2019). We differ.
First, though Bancec involved the “fraud or
injustice” prong rather than the “extensive control”
prong, no nexus existed between the dominated
instrumentality and the plaintiff’s injury. Cuba had
established in 1960 Banco Para El Comercio Exterior
de Cuba (Bancec), “[a]n official autonomous credit
institution for foreign trade ... with full juridical
capacity ... of its own ....” Bancec, 462 U.S. at 613, 103

23a
S.Ct. 2591. Bancec was a creditor of Citibank and
sued the bank to collect on a letter of credit. Days
later, the Cuban government seized all of Citibank’s
Cuba-based assets. Id. It also dissolved Bancec after
that proceeding began, and the remainder of its case
was handled by the Cuban Ministry of Foreign Trade.
Id. at 615, 103 S.Ct. 2591. Despite no link between
Bancec and Cuba’s seizure of Citibank’s assets, the
Supreme Court held Citibank could offset its debt to
Bancec with the value of the expropriated assets.
“Giving effect to Bancec’s separate juridical status in
these circumstances” would cause an injustice. Id. at
632, 103 S.Ct. 2591. In recounting the case’s history,
the Court also expressly noted that the Second
Circuit, from where the case came, had applied a
nexus requirement and then did not adopt one itself.
See id. at 619, 103 S.Ct. 2591 (quoting the Second
Circuit as saying the presumption of separate
identities may be overcome only “when the subject
matter of the counterclaim assertible against the
state is state conduct in which the instrumentality
had a key role”).
Like Bancec, not a single factor recognized in
Rubin suggests any link between the dominated
instrumentality and the injury to the plaintiff. The
Rubin Court’s brief discussion of the hypothetical
plaintiff seeking to collect against “the assets located
in
the
United
States
of
a
state-owned
telecommunications company,” and citation to
Alejandre (which in turn involved no connection
between the telecommunications agency and the
plaintiff’s injury), likewise suggest no tying
requirement. Rubin, 138 S. Ct. at 824. Similarly, the
vast majority of circuits have required no link
between the abuse of the corporate form and the

24a
plaintiff’s injury under the first Bancec path for veilpiercing. See, e.g., EM Ltd. v. Republic of Argentina,
473 F.3d 463, 478 (2d Cir. 2007); Flatow v. Islamic
Republic of Iran, 308 F.3d 1065, 1071–73 (9th Cir.
2002); Transamerica Leasing, Inc. v. La Republica de
Venezuela, 200 F.3d 843, 848 (D.C. Cir. 2000);
Hercaire Int’l, Inc. v. Argentina, 821 F.2d 559, 565
(11th Cir. 1987). 9
Second, as Crystallex observes, requiring an
independent nexus requirement would likely read the
Bancec extensive-control test out of the doctrine.
When pressed at oral argument to identify the
circumstances where Bancec could be applied,
PDVSA offered two: under Bancec’s “fraud or
injustice” prong (i.e., where a sovereign uses its
instrumentality’s separate status to perpetuate a
fraud or injustice) or where the instrumentality was
itself “responsible on the arbitration award as a
participant in the events.” Oral Arg. Tr. at 91: 7–18.
But if the instrumentality were directly liable for the
award, there would be no need to invoke Bancec at
all. PDVSA thus tries to read the extensive control
prong out of Bancec. We cannot.
The District Court concluded correctly that Bancec
does not require a connection between a sovereign’s
extensive control of its instrumentality and the
plaintiff’s injury. Control alone, if sufficiently
One panel of the Fifth Circuit has suggested that Bancec’s
alter ego standards are the same as common state-law
requirements, many of which include a nexus requirement. See
Bridas S.A.P.I.C. v. Gov’t of Turkmenistan, 447 F.3d 411, 416
(5th Cir. 2006). But see First Inv. Corp. of Marshall Islands v.
Fujian Mawei Shipbuilding, Ltd., 703 F.3d 742, 752–53 (5th Cir.
2012), as revised (Jan. 17, 2013).
9

25a
extensive, is an adequate basis to disregard an
instrumentality’s separate status. 10
ii. Bancec does not require a principalagent relationship.
PDVSA also argues that the requirement in
Bancec of extensive control such “that a relationship
of principal and agent is created” requires the
instrumentality to act as the sovereign’s agent with
respect to the events in dispute. Bancec, 462 U.S. at
629, 103 S.Ct. 2591. Before Rubin, courts struggled
with how to give meaning to Bancec’s apparent
At oral argument, PDVSA stressed that Bancec clearly
assumed for “extensive control” a connection between the
abused form and the plaintiff’s injury when it cited to the 1974
edition of W.M. Fletcher, Cyclopedia of the Law of Private
Corporations. Oral Arg. Tr. at 77: 9–11 (“Fletcher says
domination and control [are] not enough. You need to have an
abuse of the form that results in an injury to the plaintiff.”). But
the excerpt Bancec quotes squarely contradicts such a narrow
view: “[A] corporation will be looked upon as a legal entity as a
general rule, and until sufficient reason to the contrary appears;
but, when the notion of legal entity is used to defeat public
convenience, justify wrong, protect fraud, or defend crime, the
law will regard the corporation as an association of persons.”
Bancec, 462 U.S. 611, 630 n.19, 103 S.Ct. 2591, 77 L.Ed.2d 46
(quoting 1 W.M. Fletcher, Cyclopedia of the Law of Private
Corporations § 41 (rev. perm. ed. 1974)). Further, Bancec does
not even cite to Fletcher to support the proposition that
extensive control can be sufficient to disregard corporate
formalities. For this, it cited to N.L.R.B. v. Deena Artware, Inc.,
361 U.S. 398, 402, 80 S.Ct. 441, 4 L.Ed.2d 400 (1960), where the
Court held that the National Labor Relations Board was entitled
to seek discovery on an alternative theory of liability—“that
these separate corporations are not what they appear to be, that
in truth they are but divisions or departments of a ‘single
enterprise.’ ” Id. at 402, 80 S.Ct. 441.
10

26a
reference to a principal–agent relationship. See, e.g.,
Doe v. Holy See, 557 F.3d 1066, 1080 (9th Cir. 2009).
The most persuasive interpretation of the various
approaches is by the D.C. Circuit, which recognized
that “[c]ontrol by the sovereign is relevant in two
distinct contexts[.]” Transamerica Leasing, 200 F.3d
at 848. “First, ... when it significantly exceeds the
normal supervisory control exercised by any
corporate parent over its subsidiary and, indeed,
amounts to complete domination of the subsidiary.”
Id. “Second, ... when the sovereign exercises its
control in such a way as to make the instrumentality
its agent; in that case control renders the sovereign
amenable to suit under ordinary agency principles.”
Id. at 849. These examples of control are disjunctive.
Only one method of domination needs to be shown,
and Crystallex opts to pursue the former. Thus
further discussion of a principal-agent relationship is
not necessary.
iii. Bancec does not require
consideration of the third-party
bondholders.
Amici bondholders of PDVSA contend Bancec’s
extensive-control analysis requires consideration of
the interests of other creditors of the judgment
debtor’s alleged alter ego, both as a matter of doctrine
and of equity. That argument, plausible on its face,
does not prevail here. As a doctrinal matter, the
overarching framework of the extensive-control test
tells us that third-party creditors’ interest is a reason
for—not a separate criterion of—the analysis. Bancec
explained that those creditors’ interests are part of
the reason the presumption of separate juridical
status is so difficult to overcome: “Freely ignoring the

27a
separate status of government instrumentalities
would result in a substantial uncertainty over
whether an instrumentality’s assets would be
diverted to satisfy a claim against the sovereign, and
might thereby cause third parties to hesitate before
extending credit to a government instrumentality
without the government’s guarantee.” 462 U.S. at
626, 103 S.Ct. 2591. For that reason (among others),
Bancec counsels courts not to ignore separate status.
See also De Letelier v. Republic of Chile, 748 F.2d 790,
795 n.1 (2d Cir. 1984) (noting that abuse of the
corporate form of the type identified in Bancec “must
be clearly demonstrated to justify holding the
‘subsidiary’ liable for the debts of its sovereign
‘parent,’ particularly where, as here, LAN apparently
has non-party private bank creditors”). To add to this
analysis an additional unspecific consideration of
third-party interests would double-count the
creditors’ concern in an arena of many competing
concerns.
The difficulty of overcoming the Bancec
presumption is also practical comfort: where there is
extensive control, we can expect reasonable third
parties to recognize the risks of extending credit.
Here, for example, Venezuela’s relationship to
PDVSA was clearly disclosed to any prospective
holder of the latter’s bonds in the offering circular for
that issuance: “We are controlled by the Venezuelan
government”; obligations imposed by the government
“may affect our ... commercial affairs”; and “we
cannot assure you that the Venezuelan government
will not, in the future, impose further material
commitments upon us or intervene in our commercial
affairs.” JA-608. Perhaps recognizing that risk, the
Bondholders protected their extension of credit to

28a
PDVSA by obtaining as collateral a 50.1% security
interest in PDVH’s shares of Citgo Holding, Inc.,
which, of course, will not be impaired by the District
Court’s writ of attachment.
iv. Timeframe: What is the appropriate
point of reference for the extensivecontrol analysis?
Venezuela argues that the relevant time for a
Bancec analysis of the relationship between a
sovereign and its instrumentality is the moment the
writ is issued. But it points to no authority for that
proposition, and it does not explain why our review of
the District Court’s Bancec analysis would be any
different than in the normal course, where we render
our decision based on the record before the district
court and “do[ ] not purport to deal with possible later
events.” Standard Oil Co. v. United States, 429 U.S.
17, 18, 97 S.Ct. 31, 50 L.Ed.2d 21 (1976) (per curiam);
Rubin, 12 F.3d at 1284; Fassett v. Delta Kappa
Epsilon (New York), 807 F.2d 1150, 1165 (3d Cir.
1986). We follow the standard practice. On remand,
Venezuela may direct to the District Court credible
arguments to expand the record with later events.
v. The burden of proof is
preponderance of the evidence.
PDVSA contends that the District Court erred by
reviewing
the
parties’
evidence
under
a
“preponderance of the evidence” rather than a “clear
and convincing” burden of proof. We disagree, but
also note that our decision as to the burden of proof
has no effect on the outcome of our Bancec analysis;
indeed, the implications of this question matter little
to this appeal. PDVSA conceded as much at oral
argument that our decision as to burden of proof has

29a
no effect on the outcome of our Bancec analysis. Oral
Arg. Tr. at 95–96: 20–14 (Apr. 15, 2019).
PDVSA points to our ruling in Trustees of Nat.
Elevator Indus. Pension, Health Benefit & Educ.
Funds v. Lutyk, 332 F.3d 188, 194 (3d Cir. 2003), an
ERISA veil-piercing case, where at summary
judgment we re-affirmed that “evidence justifying
piercing the corporate veil must be ‘clear and
convincing.’ ” Id. (quoting Kaplan v. First Options of
Chicago, Inc., 19 F.3d 1503, 1522 (3d Cir. 1994), aff’d,
514 U.S. 938, 115 S.Ct. 1920, 131 L.Ed.2d 985
(1995)). Should this federal common law be applied
here? We think not.
The Sovereign Immunities Act is the exclusive
basis for finding jurisdiction in suits involving foreign
sovereigns and instrumentalities, and Bancec is
binding federal common law for disputes under the
Act. Neither indicates that plaintiffs must show clear
and convincing evidence, while many courts have
applied a preponderance-of-the evidence standard to
inquiries under it. See, e.g., Owens v. Republic of
Sudan, 864 F.3d 751, 784 (D.C. Cir. 2017); Sachs v.
Republic of Austria, 737 F.3d 584, 589 (9th Cir. 2013),
rev’d
on
other
grounds
sub
nom.
OBB
Personenverkehr AG v. Sachs, ––– U.S. ––––, 136 S.
Ct. 390, 193 L.Ed.2d 269 (2015); S & Davis Int’l, Inc.
v. The Republic of Yemen, 218 F.3d 1292, 1300 (11th
Cir. 2000); Kirschenbaum v. 650 Fifth Ave., 257 F.
Supp. 3d 463, 472 (S.D.N.Y. 2017) (requiring
preponderance of the evidence for Bancec inquiries);
First Inv. Corp. of the Marshall Islands v. Fujian
Mawei Shipbuilding, Ltd. of People’s Republic of
China, 858 F. Supp. 2d 658, 668 n.54 (E.D. La. 2012)
(also conducting a Bancec extensive control inquiry),
aff’d 703 F.3d 742 (5th Cir. 2012); In re 650 Fifth Ave.

30a
& Related Properties, 881 F. Supp. 2d 533, 544
(S.D.N.Y. 2012) (same); Kensington Int’l Ltd. v.
Republic of Congo, No. 03 CIV. 4578 LAP, 2007 WL
1032269, at *5 (S.D.N.Y. Mar. 30, 2007) (same).
Further, no case cited by the parties suggests that
the Bancec extensive-control inquiry requires clear
and convincing evidence.
Lutyk drew from our Court’s existing precedent
holding that, where a plaintiff relies on a fraud
theory for alter ego, it must be shown by clear and
convincing evidence. See Kaplan, 19 F.3d at 1522.
But here Crystallex does not attempt, nor need, to
satisfy an element of fraud. 11 Further distinguishing
Lutyk or Kaplan, it here seeks to survive a factual
challenge under Rule 12(b)(1), which generally
requires the plaintiff to establish jurisdiction by a
preponderance of the evidence. See, e.g., Makarova v.
United States, 201 F.3d 110, 113 (2d Cir. 2000).
We also see scant policy reason to depart from
existing caselaw and require plaintiffs to make a
clear and convincing showing. The difficulties of
marshaling evidence sufficient to show a Bancec
relationship present “a substantial obstacle to
[Sovereign Immunities Act] plaintiffs’ attempts to
satisfy judgment.” Estate of Heiser v. Islamic
Republic of Iran, 885 F. Supp. 2d 429, 435 (D.D.C.
2012), aff’d 735 F.3d 934 (D.C. Cir. 2013). In addition
to the initial information imbalance between the
Even if it did, as the Supreme Court has observed, the
traditional state-law presumption in favor of clear and
convincing evidence for fraud claims has not always extended to
Congress, which frequently has required preponderance of the
evidence for federal fraud claims. See Grogan v. Garner, 498
U.S. 279, 288–89, 111 S.Ct. 654, 112 L.Ed.2d 755 (1991).
11

31a
judgment creditor and the foreign sovereign, the
creditor must gather evidence related to events,
witnesses, and relationships between a foreign
sovereign and its own instrumentality, the bulk of
which is often within the territorial control of the
sovereign itself, making discovery a particularly
onerous task. Given the difficulties inherent in this
evidence gathering, 12 the preponderance standard is
“the measure of respect due foreign sovereigns.” Bank
of New York v. Yugoimport, 745 F.3d 599, 614 (2d Cir.
2014). A more onerous requirement would tip the
balance too far in favor of the foreign sovereign at the
expense of Bancec’s other core concern—ensuring
that foreign states not dodge their obligations under
international law. Thus we conclude that
preponderance of the evidence is the appropriate
burden of proof under Bancec.
vi. Is there an equitable component to
the “extensive control” prong of
Bancec?
PDVSA proposes that an “equitable basis” is
required “to rebut the presumption of separateness”
under Bancec’s extensive-control prong. The District
Court observed that even though Bancec’s two prongs
are disjunctive, the extensive-control inquiry
“inherently assumes that some element of unfairness
would result if the Court fails to treat one entity as
the alter ego of the other.” Del. Crystallex, 333 F.
Supp. 3d at 397 n.15. We need not determine whether
this is an independent or necessary factor in an
extensive-control inquiry. The test discussed in Rubin
The parties here rely chiefly on expert affidavits, publicly
available corporate documents, and news articles.
12

32a
appears to treat it as such, and, as discussed below, it
is easily satisfied here.
C. Extensive control determination under
Bancec
Having clarified the contours of the Bancec
extensive-control inquiry, our applying that analysis
here is straightforward. Though the factors the
District Court applied differ slightly from those in
Rubin, they are similar enough that its factual
findings, which we review for clear error, direct the
same result under either approach to the Bancec
inquiry. While PDVSA effectively conceded that
Crystallex satisfied each factor under Rubin at oral
argument, we summarize the evidence for the sake of
clarity, as the facts are paramount in determining
when control is so extensive that entity separateness
fades away as a legal distinction.
1. Factor 1: the level of economic control
by the government
Venezuela wields extensive economic control over
PDVSA. Venezuela’s bondholder disclosures in 2011
and 2016 stated: “[G]iven that we are controlled by
the Venezuelan government, we cannot assure you
that [it] will not, in the future, impose further
material commitments upon us or intervene in our
commercial affairs in a manner that will adversely
affect our operations, cash flow and financial results.”
JA-645; 1921. They leave no doubt Venezuela has the
power to intervene and mandate PDVSA’s economic
policies. In 2011 PDVSA disclosed that “the
Venezuelan government required us to acquire
several electricity generation and distribution
companies, as well as certain food companies ... [,]
and required ... us to acquire the assets of [another

33a
Venezuelan company] at a price to be determined in
the future.” JA-608–09. The District Court found that
Venezuela requires PDVSA to fund
Venezuelan
programs
that
have
nothing to do with its business, causing
PDVSA to take on additional debt. Such
programs include PDVSA Agricola S.A.,
which
subsidizes
Venezuela’s
agriculture, industrial infrastructure,
and produce sectors, and PDVSA
Desarrollos Urbanos S.A., which
subsidizes Venezuela’s housing projects.
... PDVSA’s total contributions to the
Venezuelan budget between 2010 and
2016 were in excess of $119 billion.
Del. Crystallex, 333 F. Supp. 3d at 409. In 2014 and
2015, PDVSA was required to contribute U.S. $974
million and U.S. $3.3 billion, respectively, to social
programs and projects. Id.
As its 2011 offering circular to prospective
bondholders explains, PDVSA’s legal obligations stem
in part from the Venezuelan constitution, which
endows the State with significant control over
PDVSA and the oil industry in the country. Article 12
provides hydrocarbon deposits within the territory of
the state are the property of the Republic, JA-1722,
and Article 302 reiterates “the State reserves to itself,
through the pertinent organic law, and for reasons of
national convenience, petroleum activity,” id. at 1558.
Article 303 addresses the state’s control over PDVSA
specifically: “For reasons of economic and political
sovereignty and national strategy, the State shall
retain all shares in Petroleos de Venezeula, S.A.”
E.g., JA-350; 386. In addition, as PDVSA disclosed to

34a
bondholders, under Article 5 of the Organic
Hydrocarbons Law, its revenues “are required to be
used to finance health and education, to create funds
for macroeconomic stabilization and to make
productive investments, all in favor of the
Venezuelan people. Those social commitments may
affect our ability to place additional funds in reserve
for future uses and, indirectly, our commercial
affairs.” Id. at 608.
The District Court also found that Venezuela
exercises its economic control over PDVSA by
dictating to whom PDVSA must sell oil to and at
what price. The 2011 circular explains that “[t]he
Venezuelan
government,
rather
than
the
international market, determines the price of
products ... sold by us through our affiliates in the
domestic market.” Id. at 643. Thus Venezuela
“dictates the severely discounted price at which
PDVSA must sell its product to Venezuelan citizens”
and “forces PDVSA to ‘sell’ oil to third parties for no,
or de minimis, consideration.” Del. Crystallex, 333 F.
Supp. 3d at 408 (internal quotation marks and
citations omitted). Per Venezuela’s “Petrocaribe”
agreements with its allies, PDVSA must provide oil to
member states at a steep discount on price, along
with a two-year grace period for payments, on a
payment schedule up to 25 years in length with
interest rates as low as 1% (with the option, on
Venezuela’s part, to accept deferred payments
directly in the form of goods and services). JA-928.
Under the agreement, Venezuela “may acquire at
preferential prices ... sugar, bananas, or other goods
or services to be determined, which are adversely
affected by trade policies of rich countries.” Id. In
other words, as the District Court found, PDVSA

35a
provides oil while Venezuela maintains the right to
accept payment. PDVSA’s financial reports show
that, from 2010 to 2016, it contributed approximately
USD $ 77 billion under the Petrocaribe agreements.
Id. at 1178.
The District Court wasn’t finished: “Venezuela
manipulates PDVSA’s conversion of U.S. Dollars to
Venezuelan Bolivars to leverage PDVSA’s revenues.
... PDVSA is required to convert foreign currency into
Venezuelan Bolivars at an artificially low U.S. Dollar
to Bolivar exchange rate (which is approximately
1/500th of the market rate).” Del. Crystallex, 333 F.
Supp. 3d at 410 (internal quotation marks omitted).
Finally, Venezuela controls PDVSA’s debt
structure. Dr. Roberto Rigobon’s supplemental
declaration states that in November 2017 President
Maduro decreed that Venezuela would restructure
the external debt of both Venezuela and PDVSA. JA2013. He also provided evidence that Venezuela made
a $1.2 billion payment on a 2017 PDVSA bond. Id. at
2014.
2. Factor 2: whether the entity’s profits
go to the government
As PDVSA’s lone shareholder, all profit ultimately
runs to the Venezuelan government. In addition,
PDVSA pays Venezuela taxes and royalties on the oil
it produces. The Rigobon Declaration contends that
PDVSA pays “extraordinary taxes,” i.e., taxes at an
artificial rate designed to collect more of PDVSA’s
revenues. Id. at 1172.

36a
3. Factor 3: the degree to which
government officials manage the entity
or otherwise have a hand in its daily
affairs
The Venezuelan government exercises direct and
extensive control over PDVSA. President Maduro
appoints PDVSA’s president, directors, vicepresidents, and members of its shareholder council.
Del. Crystallex, 333 F. Supp. 3d at 407–08. Crystallex
introduced a declaration from Jose Ignacio
Hernandez, a Venezuelan legal academic, which
notes that it has been “commonplace” since 2002 for
PDVSA’s president also to serve as Venezuela’s oil
minister. JA-1195. “This arrangement allowed the
Government to control the daily operations of
PDVSA.” Id. PDVSA and Venezuela’s Ministry of
Petroleum and Mining share physical office space for
its headquarters. Id. at 1196 & n.51. In a 2014 speech
discussing the state of Venezuelan control over
PDVSA since this reorganization, then-PDVSA
President Rafael Ramirez Carreño, and the country’s
Vice Minister for Petroleum, stated that “we are one
of the few oil producing countries in the world that
has a strict and tight control over the sovereign
management of its natural resources.” Id. at 594.
The military increasingly exercises control over
PDVSA. In November 2017, President Maduro
appointed Major General Manuel Quevedo as
Petroleum Minister and PDVSA president. Id. at
2018. Earlier that year, he also created a new post—
Executive Vice-President of PDVSA—and appointed
Vice-Admiral Maribel del Carmen Parra de Mestre to
the position. Id. at 1198.
Venezuela has also wielded substantial influence

37a
over PDVSA’s employees through a series of
politically motivated firings. The highest profile of
these occurred in 2002, when President Chávez fired
roughly 40% of the PDVSA workforce in response to a
strike protesting his regime. Id. at 1054. Employees
continue to face pressure from the state today. The
District Court found that, “[a]s recently as July 2017,
Venezuela continued to threaten to terminate PDVSA
employees who were opposed to the governing
regime.” Del. Crystallex, 333 F. Supp. 3d at 407.
Employees face pressure to attend Socialist Party
rallies and have been threatened with termination
unless they voted in elections. Id. at 408.
4. Factor 4: whether the government is
the real beneficiary of the entity’s
conduct
The District Court found that PDVSA’s cheap oil
to Venezuela’s strategic allies also creates a
mechanism whereby Venezuela extracts value from
PDVSA’s oil without paying the company. “Venezuela
also uses PDVSA to achieve its foreign policy goals by
committing PDVSA to sell oil to certain Caribbean
and Latin American nations at substantial discounts,
without PDVSA’s consent. ... Even when those oil
debts are repaid, the money is given to Venezuela,
not PDVSA....” Id. at 410.
PDVSA’s actions with respect to this litigation
also show how Venezuela is the real beneficiary of
PDVSA’s conduct. For example, “it is undisputed that
PDVSA paid the administrative fees Venezuela
incurred in connection with the arbitration with
Crystallex, which amounted to around $249,000.” Id.
And, when Venezuela expropriated the La Cristinas
mines, it gave to PDVSA for no consideration a

38a
number of mining rights, including rights in Las
Cristinas that it had expropriated from Crystallex.
JA-1194. This seamless transfer of value between
PDVSA and Venezuela also suggests an alter ego
relationship.
5. Factor 5: whether adherence to
separate identities would entitle the
foreign state to benefits in United
States courts while avoiding its
obligations
Venezuela owes Crystallex from a judgment that
has been affirmed in our courts. Any outcome where
Crystallex is not paid means that Venezuela has
avoided its obligations. It is likewise clear from the
record that PDVSA, and by extension Venezuela,
derives significant benefits from the U.S. judicial
system. Its 2020 bonds are backed by the common
stock and underlying assets of U.S.-based
corporations, and hence disputes stemming from
default will be subject to U.S. laws and presumably
be resolved through the U.S. legal system. 13 See, e.g.,
Crystallex has not identified any Venezuelan commercial
assets in Delaware or the District of Columbia and may be
unable to find satisfaction if attachment of PDVSA property is
impermissible. See Crystallex Int’l Corp. v. Bolivarian Republic
of Venezuela, No. CV 16-0661 (RC), 2017 WL 6349729, at *2
(D.D.C. June 9, 2017) (“Petitioner has been unable to identify
any commercial assets belonging to [Respondent] in the District
of Columbia but believes that Respondent possesses assets
elsewhere in the United States, including in Delaware. ... The
assets Petitioner identifies are connected to Respondent through
a variety of corporate structures ...[,] in particular
[Respondent’s] indirect subsidiaries, PDVH, CITGO Holding,
and CITGO Petroleum ....”) (citations and internal quotations
omitted).

13

39a
Bayrock Exhibit 6 at 131–32, Crystallex Int’l Corp. v.
Bolivarian Republic of Venezuela, F. Supp. 3d 380 (D.
Del. 2018), ECF No. 99-1. Indeed, it is probable the
U.S. legal system is the backstop that gives
substantial assurance to investors who buy PDVSA’s
debt.
Nor does ignoring separate identities run against
the equities here. PDVSA profited directly from
Crystallex’s injury: Venezuela transferred the rights
to the expropriated mines to PDVSA for no
consideration. Hence this factor too is satisfied.
D. PDVSA’s Shares of PDVH are attachable
under the Sovereign Immunities Act.
Crystallex must also show that the particular
property at issue in the attachment action—the
PDVH stock—is not immune from attachment under
the Sovereign Immunities Act. It provides that “the
property in the United States of a foreign state shall
be immune from attachment arrest and execution”
unless one of the Act’s statutory exceptions is met. 28
U.S.C. § 1609. The exception Crystallex invokes
states that the “property in the United States of a
foreign state ..., used for a commercial activity in the
United States, shall not be immune from attachment
in aid of execution, or from execution, upon a
judgment entered by a court of the United States”
based on an order confirming an arbitral award
rendered against the foreign state. 28 U.S.C. §
1610(a)(6) (emphasis added). 14

Section 1610(b) governs execution of a foreign
instrumentality’s property, but only section 1610(a) is relevant
because the jurisdictional immunity is overcome for Venezuela,

14

40a
The Act defines “commercial activity” as “either a
regular course of commercial conduct or a particular
commercial transaction or act. The commercial
character of an activity shall be determined by
reference to the nature of the course of conduct or
particular transaction or act, rather than by
reference to its purpose.” 28 U.S.C. § 1603(d). The
Supreme Court in Republic of Argentina v. Weltover,
Inc., 504 U.S. 607, 613, 112 S.Ct. 2160, 119 L.Ed.2d
394 (1992), stated that the phrase “commercial
activity” captures the “distinction between state
sovereign acts, on the one hand, and state commercial
and private acts, on the other.” Id. “[W]hen a foreign
government acts, not as a regulator of a market, but
in the manner of a private player within it, the
foreign sovereign’s actions are ‘commercial’ within
the meaning of the [Sovereign Immunities Act].” Id.
at 614, 112 S.Ct. 2160. Commercial actions include
those that “(whatever the motive behind them) are
the type of actions by which a private party engages
in ‘trade and traffic or commerce.’ ” Id. (quoting
Black’s Law Dictionary) (emphasis in original). 15
PDVSA contends that the commercial activity
exception requires current commercial use (i.e., at the
moment the writ is executed), which PDVSA
contends is impeded by the current U.S. sanctions
regime. There is some support for PDVSA’s
interpretation. See Aurelius Capital Partners v.
not PDVSA, who only enters the picture as Venezuela’s alter
ego.
Weltover involved the commercial-activity exception to
jurisdictional immunity, 28 U.S.C. § 1605(a), but its
interpretation of “commercial” would apply equally here.
15

41a
Republic of Argentina, 584 F.3d 120, 130 (2d Cir.
2009) (“[T]he property that is subject to attachment
and execution must ... have been ‘used for a
commercial activity’ at the time the writ of
attachment or execution is issued.”) (emphasis in
original). But narrowing the temporal inquiry to the
day the writ is executed unnecessarily leaves room
for manipulation, as any jurisdictional determination
under the Sovereign Immunities Act is immediately
appealable for interlocutory review, and courts (like
the District Court here) may elect not to issue the
writ alongside analysis of the jurisdictional and
execution immunity. A strict day-of-writ inquiry
could allow parties to avoid execution by freezing
assets or otherwise ceasing commercial use when the
appeal decision is handed down. Instead, a totality-ofthe-circumstances inquiry seems more appropriate,
as the Fifth Circuit aptly described: “This analysis
should include an examination of the uses of the
property in the past as well as all facts related to its
present use, with an eye toward determining whether
the commercial use of the property, if any, is so
exceptional that it is ‘an out of character’ use for that
particular property.” Af-Cap Inc. v. Republic of
Congo, 383 F.3d 361, 369 (5th Cir. 2004). And “it
would be appropriate for a court to consider whether
the use of the property in question was being
manipulated by a sovereign nation to avoid being
subject to garnishment under [the Sovereign
Immunities Act].” Id. at 369 n.8.
But whether we apply the date the writ was
issued—August 23, 2018—or the date of the August 9
opinion, PDVH shares are not immune from
attachment. PDVSA argues that the shares cannot be
used in commerce because they are subject of

42a
sanctions contained in two Executive Orders. See
Exec. Order. No. 13835, 83 Fed. Reg. 24,001 (May 21,
2018) (“E.O. 13835”); Exec. Order No. 13808, 82 Fed.
Reg. 41, 155 (Aug. 24, 2017) (“E.O. 13808”).
This argument fails because the sanctions regime
prohibits only some commercial uses of the shares;
other commercial uses continue to be exercised by
Venezuela. Section 1(a)(iv) of E.O. 13808 bars PDVH
from paying dividends or other distribution of profits
to the Government of Venezuela, 16 and section 1(b)
prohibits the “purchase, directly or indirectly, by a
United States person or within the United States, of
securities from the Government of Venezuela.” In
addition, Section 1(a)(iii) of E.O. 13835 precludes
United States persons or those within the United
States from engaging in any transactions, provisions
of financing, and other dealings related to “the sale,
transfer, assignment, or pledging as collateral by the
Government of Venezuela of any equity interest in
any entity in which [it] has a 50 percent or greater
ownership interest.”
However, the shares can still be used by PDVSA
to run its business as an owner, to appoint directors,
approve contracts, and to pledge PDVH’s debts for its
own short-term debt. Venezuela illustrates its
continued use of this power, noting that President
Guaidó in February 2019 appointed an ad hoc
administrative board to represent PDVSA in its
The Executive Orders of our Government define “the
Government of Venezuela” as specifically including PDVSA.
E.O. 13808, 82 Fed. Reg. 41156 (“[T]he term ... means the
Government of Venezuela, any political subdivision, agency or
instrumentality thereof, including ... [PDVSA] ...”); E.O. 13835,
83 Fed. Reg. 24001–02 (same).
16

43a
capacity as sole shareholder of PDVH for appointing
a new board of directors of that entity. These actions
are available to the sole shareholder of a company,
and so the shares continue to be used in commerce.
This is not to say that the sanctions of PDVSA
assets play no role in whether Crystallex ultimately
recovers. According to a Treasury Department
Frequently Asked Question, any attachment and
execution against PDVSA’s shares of PDVH would
likely need to be authorized by the Treasury
Department. See Del. Crystallex, 333 F. Supp. 3d at
420–21. In a case like this, “[Treasury’s Office of
Foreign Asset Control, called by its acronym OFAC]
would consider license applications seeking to attach
and execute against such equity interests on a caseby-case basis.” Id. at 421. Whether that FAQ is
legally binding, Crystallex has committed that it “will
seek clarification of the current license ... and/or the
issuance of an additional license to cover the eventual
execution sale of the shares of PDVH once the
[attachment w]rit has issued.” Id. at 421 n.40
(internal quotation marks omitted) (ellipsis in
original).
Though the U.S. State Department has not sought
to provide a statement of interest, it is nonetheless
conceivable that short- or long-term U.S. foreign
policy interests may be affected by attachment and
execution of PDVSA’s assets. The Treasury sanctions
provide an explicit mechanism to account for these.
Whether the Treasury Department permits execution
in this case, it is clear that the sanctions do not make
the PDVH shares immune from attachment under
the Sovereign Immunities Act.

44a
IV. Conclusion
Under the Foreign Sovereign Immunities Act,
there is a strong presumption that a foreign
sovereign and its instrumentalities are separate legal
entities. But the Supreme Court made clear in
Bancec
and
Rubin
that
in
extraordinary
circumstances—including where a foreign sovereign
exerts dominion over the instrumentality so extensive
as to be beyond normal supervisory control—equity
requires that we ignore the formal separateness of
the two entities. This clears that bar easily. Indeed, if
the relationship between Venezuela and PDVSA
cannot satisfy the Supreme Court’s extensive-control
requirement, we know nothing that can.
The District Court acted within its jurisdiction
when it issued a writ of attachment on PDVSA’s
shares of PDVH to satisfy Crystallex’s judgment
against Venezuela, and the PDVH shares are not
immune from attachment. Thus we affirm.

45a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
Civil Action No. 17-mc-151-LPS
CRYSTALLEX INTERNATIONAL
CORPORATION,
Plaintiff,
v.
BOLIVARIAN REPUBLIC OF VENEZUELA,
Defendant.
[Filed August 9, 2018]
LEONARD P. STARK, UNITED STATES DISTRICT
JUDGE
OPINION
Plaintiff/Judgment
Creditor
Crystallex
International Corporation (“Crystallex”) holds a $1.2
billion judgment against the Bolivarian Republic of
Venezuela (“Venezuela” or “the Republic”). (D.I. 1)
Crystallex has registered the judgment in Delaware.
(Id.) Venezuela has not appeared in the litigation.
However, Petróleos de Venezuela, S.A. (“PDVSA”), an
oil company, has intervened. (D.I. 14) This is because
Crystallex seeks to collect on its judgment against
Venezuela by executing on property nominally owned
by PDVSA, specifically shares of common stock
PDVSA owns in PDV Holding Inc. (“PDVH”), a
Delaware corporation. Crystallex’s theory is that
PDVSA is the alter ego of Venezuela, making
PDVSA’s property subject to execution for payment of
Venezuela’s debt.
Crystallex and PDVSA have each filed a motion.

46a
Crystallex moves for a writ of attachment fieri facias
(“fi. fa.”) pursuant to the Foreign Sovereign
Immunities Act, 28 U.S.C. § 1601(c). (D.I. 2) In turn,
PDVSA has filed a motion to dismiss for lack of
subject matter jurisdiction. (D.I. 25) Together, the
parties’ 1 motions present numerous complex
questions, some of which have been addressed by no
previous court, and others on which different courts
have reached competing conclusions. The Court’s
careful consideration of the issues before it has
included reviewing numerous briefs (D.I. 3-1, 26, 33),
letter briefs (D.I. 51-54, 70-71), submissions of
supplemental authority (D.I. 41, 46, 59-60, 63-65), six
substantive declarations (D.I. 7-8, 28-29, 35-36), and
hundreds of exhibits (see, e.g., D.I. 4-6, 11, 27, 34, 37,
47). The Court also heard oral argument on two
separate occasions. (See Transcript of Dec. 21, 2017
Hr’g (D.I. 49) (“Tr.”); Transcript of Aug. 3, 2018 Hr’g
(D.I. 74) (“Aug. Tr.”))
Having undertaken the required analysis, the
Court will grant Crystallex’s motion and deny
PDVSA’s motion.
BACKGROUND
In 2002, the Government of Venezuela awarded
Crystallex, a Canadian corporation, a Mine
Operating Contract (“Contract”) by which Crystallex
was granted the opportunity to develop the Las
Cristinas gold mines. (D.I. 3-1 at 1; D.I. 26 at 4-5)
Completion of the mining project was dependent on
Crystallex obtaining certain permits from Venezuela.
The Court will refer to Crystallex and PDVSA as “the parties,”
as they are the only entities who have appeared and have
provided briefing and evidence to the Court.
1

47a
(D.I. 26 at 5) Crystallex never obtained such permits.
(Id.) Instead, in 2011, Venezuela seized the Las
Cristinas mines. (D.I. 3-1 at 5)
“In accordance with a bilateral investment treaty
(BIT) between Canada and Venezuela, Crystallex
pursued its grievances against Venezuela before an
international arbitration tribunal ....” Crystallex Int’l
Corp. v. Bolivarian Republic of Venezuela, 244 F.
Supp. 3d 100, 105 (D.D.C. 2017) (“Crystallex”).
Specifically, in 2011, Crystallex initiated arbitration
proceedings
against
Venezuela
before
the
International Centre for Settlement of Investment
Disputes (“ICSID”) in Washington, D.C. (D.I. 3-1 at 1,
5) On April 4, 2016, an arbitration panel found that
Venezuela’s
actions
constituted
an
indirect
expropriation of Crystallex’s rights under the
Contract. (D.I. 26 at 5) The ICSID awarded
Crystallex $1.2 billion plus interest. (Id.; D.I. 3-1 at 5)
Crystallex then filed suit in the United States
District Court for the District of Columbia (the “D.C.
Court”) seeking to confirm the arbitral award. See
Crystallex Int’l Corp. v. Bolivarian Republic of
Venezuela, C.A. No. 16-0661 (RC) D.I. 1 (D.D.C. Apr.
7, 2016). On March 25, 2017, Judge Rudolph
Contreras issued an opinion and order confirming the
award. (See D.I. 1; D.I. 26 at 6; D.I. 4-1 Exs. 6, 7) On
April 7, 2017, the D.C. Court entered judgment
against Venezuela. (D.I. 1; D.I. 26 at 6) Just over two
months later, on June 9, 2017, Judge Contreras found
that a “reasonable period” had elapsed since entry of
judgment but Venezuela had not paid its debt.
Crystallex Int’l Corp. v. Bolivarian Republic of
Venezuela, C.A. No. 16-0661 (RC) D.I. 36 (D.D.C.
June 9, 2017) (see D.I. 4-1 Ex. 8) (“Crystallex II”).
Hence, pursuant to Section 1610(c) of the FSIA, the

48a
D.C. Court ruled that Crystallex could commence
proceedings in aid of execution of the judgment. Id. 2
Accordingly, on June 19, 2017, Crystallex
registered the D.C. Court’s judgment in this Court.
(D.I. 1; see also 28 U.S.C. § 1963 (providing district
court in which judgment is registered with same
power to enforce it that is possessed by district court
which issued judgment)) 3 Crystallex filed its pending
motion for a writ of attachment on August 14, 2017,
seeking to attach shares of PDVH, which are owned
by PDVSA, which Crystallex alleges is an alter ego of
Venezuela. (D.I. 3-1 at 1; see also Tr. at 36 (PDVSA
stating “the PDV Holding shares they want to attach
belong to PDVSA”)) Thereafter, PDVSA moved to
intervene for the purpose of opposing the attachment
motion (D.I. 14), a request the Court granted on
August 28, 2017 (D.I. 17), without objection from
When advised that Crystallex viewed PDVSA’s holdings in
Delaware as attachable to satisfy Crystallex’s judgment against
Venezuela, and that Venezuela challenged whether PDVSA’s
assets would be subject to the judgment against Venezuela,
Judge Contreras “decline[d] the invitation to adjudicate whether
or not those assets will ultimately be attachable by Petitioner
[Crystallex] because such a determination is unnecessary at this
stage.” (Crystallex II at 4) As the instant motions make plain,
such a determination is necessary now.
2

Venezuela’s appeal of the D.C. Court’s orders is pending before
the Court of Appeals for the D.C. Circuit. See C.A. No. 16-0661
(RC) D.I. 34.
Crystallex has also filed the judgment in other courts,
including the United States District Court for the Southern
District of New York. (See D.I. 3-1 at 2; Crystallex Int’l Corp. v.
Bolivarian Republic of Venezuela, C.A. No. 17-mc-205-VEC)
According to the parties, there has been no litigation in S.D.N.Y.
that is of any relevance to any of the issues before this Court.
(See Tr. at 66; Aug. Tr. at 13)
3

49a
Crystallex (D.I. 16). Subsequently, on November 3,
2017, PDVSA filed its pending cross-motion to
dismiss for lack of subject matter jurisdiction. (D.I.
25)
The parties initially completed briefing on the
motions on November 22, 2017 (D.I. 3-1, 26, 33) and
were scheduled for oral argument on December 5,
2017 (D.I. 23). When they appeared on December 5,
Crystallex requested a continuance in light of a
recent settlement reached between it and Venezuela.
(See D.I. 40; see also Transcript of Dec. 5, 2017
Chambers Conference) The Court continued the
argument until December 21, at which point the
parties again appeared, indicated that Venezuela had
not met a condition precedent to the settlement, and
proceeded to present argument. (See D.I. 43; Aug. Tr.
at 12-13)
Over the ensuing months, the parties have
advised the Court of subsequent authorities and
developments (see, e.g., D.I. 59-60, 63-65) and
responded to the Court’s orders for supplemental
briefing (see D.I. 51-54, 70-71). On July 30, 2018, the
Court provided the parties with a list of additional
questions on which it sought their input. (See D.I. 68)
Then, on August 3, the Court heard additional oral
argument. (See Aug. Tr.)
APPLICABLE LAW
A. Writ Of Attachment
Pursuant to Federal Rule of Civil Procedure
69(a)(1), “[a] money judgment is enforced by a writ of
execution, unless the court directs otherwise. The
procedure on execution – and in proceedings
supplementary to and in aid of judgment or execution

50a
– must accord with the procedure of the state where
the court is located, but a federal statute governs to
the extent it applies.” Under Rule 69, “a district court
has the authority to enforce a judgment by attaching
property in accordance with the law of the state in
which the district court sits.” Peterson v. Islamic
Republic of Iran, 876 F.3d 63, 89 (2d Cir. 2017)
(internal quotation marks omitted).
Delaware law permits a judgment creditor to
obtain a writ of attachment fi. fa., as set out in 10
Del. C. § 5031:
The plaintiff in any judgment in a court
of record, or any person for such
plaintiff lawfully authorized, may cause
an attachment, as well as any other
execution, to be issued thereon,
containing an order for the summoning
of garnishees, to be proceeded upon and
returned as in cases of foreign
attachment.[ 4]
The
attachment,
condemnation, or judgment thereon,
shall be pleadable in bar by the
garnishee in any action against the
garnishee at the suit of the defendant in
the attachment.
As expressly provided by statute, the types of
property a judgment creditor may attach include a
debtor’s shares in a Delaware corporation:
“By its reference to cases of foreign judgment, § 5031
incorporates Chapter 35 of Title 10 of the Delaware Code. Under
those provisions, ‘[g]oods, chattels, rights credits, moneys,
effects, lands and tenements’ may be attached.” LNC Invests.,
Inc. v. Democratic Republic of Congo, 69 F.Supp.2d 607, 611 (D.
Del. 1999) (citing 10 Del. C. § 3508).

4

51a
The shares of any person in any
corporation with all the rights thereto
belonging ... may be attached under this
section for debt, or other demands, if
such person appears on the books of the
corporation to hold or own such shares,
option, right or interest.
8 Del. C. § 324(a). 5 Delaware law further provides
that judgment creditors may execute on their
judgments by “the attachment of a defendant’s
property in the hands of a third party.” UMS
Partners, Ltd. v. Jackson, 1995 WL 413395, at *5
(Del. Super. Ct. June 15, 1995).
B. Subject Matter Jurisdiction
Federal Rule of Civil Procedure 12(b)(1)
“authorizes dismissal of a complaint for lack of
jurisdiction over the subject matter, or if the plaintiff
lacks standing to bring his claim.” Samsung Elecs.
Co., Ltd. v. ON Semiconductor Corp., 541 F.Supp.2d
645, 648 (D. Del. 2008). “At issue in a Rule 12(b)(1)
motion is the court’s very power to hear the case.”
Petruska v. Gannon Univ., 462 F.3d 294, 302 (3d Cir.
2006) (internal quotation marks omitted).
Usually, a motion to dismiss for lack of subject
matter jurisdiction presents either a facial or factual
challenge. See CNA v. United States, 535 F.3d 132,
139 (3d Cir. 2008). A facial attack “concerns an
alleged pleading deficiency,” while a factual attack
concerns the “failure of a plaintiff’s claim to comport
factually with the jurisdictional prerequisites.” Id.
The statute sets out specific procedural requirements for,
among other things, a “public sale to the highest bidder.” 8 Del.
C. § 324(a).

5

52a
(internal quotation marks and brackets omitted).
Where the motion presents a facial challenge to
the Court’s jurisdiction, or one based purely on the
sufficiency of the plaintiff’s allegations, the Court
must accept well-pled factual allegations as true and
generally may consider only the complaint and any
documents referenced in or attached to it. See Lincoln
Benefit Life Co. v. AEI Life, LLC, 800 F.3d 99, 105 (3d
Cir. 2015); see also Mortensen v. First Fed. Sav. &
Loan Ass’n, 549 F.2d 884, 891 (3d Cir. 1977) (“[T]he
court must consider the allegations of the complaint
as true.”). “Affidavits and briefs in opposition do not
fall in this category.” Lincoln Benefit, 800 F.3d at 110.
“The factual attack, however, differs greatly ....”
Mortensen, 549 F.2d at 891.
Because at issue in a factual 12(b)(1)
motion is the trial court’s jurisdiction ...
there is substantial authority that the
trial court is free to weigh the evidence
and satisfy itself as to the existence of
its power to hear the case. In short, no
presumptive truthfulness attaches to
plaintiff’s allegations, and the existence
of disputed material facts will not
preclude the trial court from evaluating
for itself the merits of jurisdictional
claims. Moreover, the plaintiff will have
the burden of proof that jurisdiction
does in fact exist.
Id.
Occasionally, the Court must consider both facial
and factual challenges to its subject matter
jurisdiction. See Carrier Corp. v. Outokumpu Oyj, 673

53a
F.3d 430, 440 (6th Cir. 2012) (“Outokumpu has
presented arguments for both a facial and factual
challenge to subject-matter jurisdiction, and we
address each in turn.”); Hopewell Valley Reg’l. Bd. of
Ednc. v. J.R., 2018 WL 2411616 (D.N.J. May 29,
2018) (addressing motion to dismiss presenting both
types of challenges); In re PennySaver USA Publ’g,
LLC, 587 B.R. 43, 48 (Bankr. D. Del. 2018)
(“Defendant has made both factual and facial
challenges in its Rule 12(b)(1) Motion.... [T]he Court
will review the factual and then facial challenges, in
that order.”). When a motion presents both types of
attacks, the plaintiff must overcome both in order for
its claims to proceed.
Here, PDVSA presents both a facial and factual
attack to subject matter jurisdiction. (See, e.g., D.I. 26
at 20 (discussing facial attack); id. at 22-27
(discussing factual attack); see also infra n.16)
DISCUSSION
A. Foreign Sovereign Immunity
1. The Parties’ Disputes Are Governed By
The FSIA
The Foreign Sovereign Immunities Act (“FSIA” or
“Act”), 28 U.S.C. § 1602 et seq., “establishes a
comprehensive framework for determining whether a
court in this country, state or federal, may exercise
jurisdiction over a foreign state.” Republic of
Argentina v. Weltover, Inc., 504 U.S. 607, 610, 112
S.Ct. 2160, 119 L.Ed.2d 394 (1992). The FSIA is the
“sole basis for obtaining jurisdiction over a foreign
state in our courts.” Argentine Republic v. Amerada
Hess Shipping Corp., 488 U.S. 428, 434, 109 S.Ct.
683, 102 L.Ed.2d 818 (1989). “[F]oreign sovereign

54a
immunity is a matter of grace and comity on the part
of the United States, and not a restriction imposed by
the Constitution.” Verlinden B.V. v. Centr. Bank of
Nigeria, 461 U.S. 480, 486, 103 S.Ct. 1962, 76
L.Ed.2d 81 (1983).
“Under the Act, a ‘foreign state shall be immune
from the jurisdiction of the courts of the United
States and of the States’ unless one of several
statutorily defined exceptions applies.” Weltover, 504
U.S. at 610-11, 112 S.Ct. 2160 (quoting 28 U.S.C. §
1604). Hence, “a district court has subject matter
jurisdiction over a suit against a foreign state if – and
only if – the plaintiff’s claim falls within a statutorily
enumerated exception.” Odhiambo v. Republic of
Kenya, 764 F.3d 31, 34 (D.C. Cir. 2014). Accordingly,
the FSIA
must be applied by the District Courts
in every action against a foreign
sovereign
since
subject
matter
jurisdiction in any such action depends
on the existence of one of the specified
exceptions
to
foreign
sovereign
immunity, 28 U.S.C. § 1330(a).[6] At the
threshold of every action in a District
Court against a foreign state, therefore,
the court must satisfy itself that one of
the exceptions applies – and in doing so
Section 1330(a) provides: “district courts shall have original
jurisdiction without regard to amount in controversy of any
nonjury civil action against a foreign state as defined in section
1603(a) of this title as to any claim for relief in personam with
respect to which the foreign state is not entitled to immunity
either under sections 1605-1607 of this title or under any
international agreement.”
6

55a
it must apply the detailed federal law
standards set forth in the Act.
Verlinden, 461 U.S. at 493-94, 103 S.Ct. 1962
(internal footnote omitted). “[T]he FSIA exceptions
are exhaustive; if no exception applies, the district
court has no jurisdiction.” Odhiambo, 764 F.3d at 34;
see also Verlinden, 461 U.S. at 497, 103 S.Ct. 1962
(“[I]f a court determines that none of the exceptions
to sovereign immunity applies, the plaintiff will be
barred from raising his claim in any court in the
United States ....”).
Therefore, the disputes among Crystallex,
Venezuela, and PDVSA are governed by the FSIA.
Unless Crystallex can meet its burden to establish
the applicability of exceptions to sovereign immunity,
the Court is required to dismiss this case. 7
2. Crystallex Must Establish An Exception to
Jurisdictional Immunity, Although It
Need Not Show An Independent Basis For
Subject Matter Jurisdiction With Respect
to PDVSA
Venezuela, as a foreign sovereign state, is
presumptively immune from suit in all courts in the
United States. See 28 U.S.C. § 1604 (“Subject to
existing international agreements to which the
United States is a party at the time of enactment of
The FSIA also imposes procedural requirements that must be
met before a party may execute on property held by a foreign
sovereign state or its agency or instrumentality, including (i)
that a “reasonable period of time has elapsed following the entry
of judgment” and (ii) “the giving of ... notice.” 28 U.S.C. §
1610(c). It is undisputed that these procedural conditions have
been satisfied here.
7

56a
this Act a foreign state shall be immune from the
jurisdiction of the courts of the United States and of
the States except as provided in sections 1605 to 1607
of this chapter.”). Crystallex contends, and PDVSA
does not dispute, that Venezuela is subject to the
Court’s jurisdiction under § 1605(a)(6), the
arbitration exception. Section 1605(a)(6) states, in
relevant part:
(a) A foreign state shall not be immune
from the jurisdiction of courts of the
United States or of the States in any
case
...
(6) in which the action is brought, ...
to confirm an award made pursuant
to ... an agreement to arbitrate, if (A)
the arbitration takes place or is
intended to take place in the United
States ....
The Act defines a “foreign state” to include “a
political subdivision of a foreign state or an agency or
instrumentality of a foreign state.” 28 U.S.C. §
1603(a). In turn, an “agency or instrumentality of a
foreign state” is defined as any entity:
(1) which is a separate legal person,
corporate or otherwise, and
(2) which is an organ of a foreign state
or political subdivision thereof, or a
majority of whose shares or other
ownership interest is owned by a foreign
state or political subdivision thereof,
and

57a
(3) which is neither a citizen of a State
of the United States as defined in
section 1332(c) and (e) of this title, nor
created under the laws of any third
country.
28 U.S.C. § 1603(b). It is undisputed that PDVSA is
an “agency or instrumentality” of Venezuela within
the meaning of the FSIA. (See D.I. 26 at 12 (“PDVSA
indisputably is an ‘agency or instrumentality of a
foreign state’ as defined in the FSIA ....”); Tr. at 36
(“Where the plaintiffs and PDVSA agree is that
PDVSA is an agency or instrumentality of Venezuela
....”))
Where the parties’ views first diverge is on the
question of whether the Court must have an
independent basis for subject matter jurisdiction with
respect to PDVSA. PDVSA contends that because
Crystallex’s motion seeks to impose liability on
PDVSA for Venezuela’s debt, Crystallex is in effect
suing PDVSA, and the Court cannot adjudicate such
a suit without having a basis to exercise subject
matter jurisdiction over PDVSA. (See, e.g., D.I. 26 at
10-11; see also Tr. at 36-37) To PDVSA, the effect of
Crystallex prevailing on its motion would be the same
as if PDVSA were added to the judgment Crystallex
holds against Venezuela, rendering PDVSA – a third
party, which had no involvement in the events that
harmed Crystallex and no involvement in the
arbitration giving rise to the judgment against
Venezuela – potentially liable for all of Venezuela’s
debts. Crystallex counters that once it establishes the
Court has subject matter jurisdiction with respect to
its dispute with Venezuela, and further establishes
that PDVSA is the alter ego of Venezuela, it will have
met its burden to show that the Court has subject

58a
matter jurisdiction with respect to PDVSA as well. To
Crystallex, the crucial facts are that Crystallex has
not sued PDVSA and does not seek to add PDVSA as
a liable party on its judgment against Venezuela.
(See, e.g., D.I. 70 at 8) (“Crystallex does not seek to
hold PDVSA liable for its judgment but rather seeks
a more limited finding, namely that the specific
property at issue on this motion – the shares of
PDVH – though nominally held in the name of
PDVSA, are, at this time, really the property of
Venezuela.”) Alternatively, if an independent basis
for subject matter jurisdiction is necessary with
respect to PDVSA, Crystallex argues that it, too, is
present. (See id. at 4-5) (“[T]his Court has an
independent basis for jurisdiction against PDVSA
under 28 U.S.C. § 1330 and Section 1605(a)(6) of the
FSIA.”) On these points, the Court agrees with
Crystallex.
PDVSA’s position is based on the Supreme Court’s
decision in Peacock v. Thomas, 516 U.S. 349, 357, 116
S.Ct. 862, 133 L.Ed.2d 817 (1996), which stated, “We
have never authorized the exercise of ancillary
jurisdiction in a subsequent lawsuit to impose an
obligation to pay an existing federal judgment on a
person not already liable for that judgment.” See also
Butler v. Sukhoi Co., 579 F.3d 1307, 1313 (11th Cir.
2009) (“Because the Butlers sought to invoke the
jurisdiction of the United States courts to enter a new
judgment in a separate cause of action against
appellants, they bore the burden of presenting a
prima facie case that jurisdiction [against the third
party] existed.”) (footnote omitted).
However, as Crystallex emphasizes, the Third
Circuit has had occasion to consider the applicability
of Peacock in the context of garnishment actions.

59a
(See, e.g., Tr. at 10) (arguing “Peacock has no
application to proper Rule 69 motions”) In IFC
Interconsult, AG v. Safeguard International Partners,
LLC, 438 F.3d 298, 310 (3d Cir. 2006), the Third
Circuit held that Rule 69 authorizes a garnishment
action against an indemnitor of a judgment debtor
even when there is no independent basis for federal
subject matter jurisdiction – such as diversity – for a
new action by the judgment creditor directly against
that indemnitor. 8 As the IFC Court stated: “Peacock
itself made clear that it does not apply to Rule 69
actions.” Id. at 311. IFC adds: “Although garnishment
actions are new actions in the sense that there is a
new party and a new theory for that party’s liability,
they are not new actions in the sense of a new direct
claim.” Id. at 314.
Crystallex brings its motion for a writ of
attachment fi. fa. pursuant to, inter alia, Rule 69,
contending that it, as the garnishor, “is seeking to
collect its judgment against Venezuela (the judgment
debtor) by stepping into Venezuela’s shoes and
demanding Venezuela’s alter ego’s shares from PDVH
(the garnishee).” (D.I. 70 at 7; see also D.I. 3 at 1; Tr.
at 82-83 (“Rule 69 actions are to be treated as part of
the original suit. Therefore, if the original suit was a
suit against Venezuela, and there was jurisdiction
under [Section] 1330, there is jurisdiction to
adjudicate rights in the property.”)) According to
Crystallex, “[t]he fact that this garnishment
proceeding involves an alter ego theory does not
In reaching this conclusion, the Third Circuit reaffirmed its
prior en banc holding in Skevofilax v. Quigley, 810 F.2d 378, 385
(3d Cir. 1987), finding that Skevofilax was not abrogated by
Peacock. See IFC, 438 F.3d at 310.
8

60a
change the nature of the proceeding.” (D.I. 70 at 7;
Tr. at 11 (“[T]he fact that you could have a broader
alter-ego theory does not mean that all alter-ego
theories fall under Peacock.”))
Again, the Court agrees. Unlike the situation
presented in Peacock, 516 U.S. at 350, 116 S.Ct. 862,
this case is not “a subsequent lawsuit” to “impose an
obligation to pay” an “existing federal judgment on a
person not already liable for that judgment.” To the
contrary, it is part of the “same lawsuit” – that is, the
action giving rise to the judgment against Venezuela,
which has been registered in this District – and does
not seek to impose any obligation on PDVSA to pay
Venezuela’s existing judgment, but, instead, seeks to
attach property nominally belonging to PDVSA as
truly belonging to Venezuela. (See D.I. 70 at 7-8)
Rather than attempting to hold PDVSA primarily
liable or shifting the judgment to PDVSA, Crystallex
seeks to enforce its judgement against debtor
Venezuela, “whose immunity has already been
defeated on the FSIA and the arbitra[tion] exception,”
by attaching PDVSA property because it is “property
of the debtor” under an alter ego theory. (Aug. Tr. at
31) (emphasis added) 9
As Crystallex acknowledges, because its theory is not based on
establishing primary liability or adding PDVSA to the judgment,
if the Republic were to sell PDVSA before the Court rendered its
judgment, Crystallex would have no redress against PDVSA.
(See Aug. Tr. at 33 (“If you were to rule for us and PDVSA were
sold, PDVSA would not be liable in personam if sold to [e.g.]
Exxon.”); id. at 35-36 (“It’s very different to get a Writ of Fi Fa
against a particular asset than it is to get a judgment. If we
were to get a judgment against PDVSA, ... [w]e could then go
and attach any asset of PDVSA. We could take that judgment
and go to other courts.... What we’re asking here ... is [for] an
order [that] applies only to [a] particular asset.”))
9

61a
Such a theory, seeking only to collect a judgment
but not to establish liability, does not require an
independent basis for jurisdiction. See EM Ltd. v.
Banco Cent. de la Republica Argentina, 800 F.3d 78,
91 n.56 (2d Cir. 2015) (“EM Ltd. II”) (“Our precedent
supports the view ... that once an instrumentality of a
sovereign state has been deemed to be the alter ego of
that state ... the instrumentality and the state are to
be treated as one and the same for all purposes.”);
Transfield ER Cape Ltd. v. Lndus. Carriers, Inc., 571
F.3d 221, 224 (2d Cir. 2009) (stating alter egos “are
treated as one entity for jurisdictional purposes”)
(internal quotation marks omitted); Patin v.
Thoroughbred Power Boats, Inc., 294 F.3d 640, 654
(5th Cir. 2002) (alter egos “are considered to be one
and the same under the law”); Epperson v. Entm’t
Express, Inc., 242 F.3d 100, 106 (2d Cir. 2001)
(“Where the post-judgment proceeding is an effort to
collect a federal court judgment, the courts have
permitted judgment creditors to pursue, under the
ancillary enforcement jurisdiction of the court, the
assets of the judgment debtor even though the assets
are found in the hands of a third party.”); U.S.I
Props. Corp. v. M.D. Constr. Co., 230 F.3d 489, 496
(1st Cir. 2000) (“Where the postjudgment claim is
simply a mode of execution designed to reach
property of the judgment debtor in the hands of a
third party, federal courts have often exercised
enforcement
jurisdiction....
Where
the
state
procedural enforcement mechanisms incorporated by
Rule 69(a) allow the court to reach assets of the
judgment debtor in the hands of third parties in a
continuation of the same action, such as garnishment
or attachment, federal enforcement jurisdiction is
clear.”); Thomas, Head & Greisen Emps. Tr. v.

62a
Buster, 95 F.3d 1449, 1454 & n.7 (9th Cir. 1996)
(stating that where judgment creditor “is not
attempting to establish the [third party’s] liability for
the original judgment,... Peacock [is] inapposite....
Peacock suggested that whether a judgment creditor’s
post-judgment action is within a federal district
court’s ancillary enforcement jurisdiction hinges on
whether it seeks not merely ‘to collect a judgment’
but also ‘to establish liability’ on the part of the
third party.”).
The Court acknowledges that the proper
resolution of this issue is not free from doubt. This
case is certainly not an “ordinary” Rule 69
garnishment action. Moreover, PDVSA directs the
Court’s attention to Gambone v. Lite Rock Drywall,
288 Fed. App’x 9, 12 (3d Cir. 2008), in which the
Third Circuit described Peacock as holding “that
ancillary jurisdiction was not intended for use as a
tool for establishing personal liability on the part of a
new defendant, for instance by designating that third
party as an alter ego of the indebted party or by
piercing the corporate veil” (emphasis added).
Gambone, then, suggests that seeking to attach a
third-party’s property on the basis that the thirdparty is the alter ego of a judgment-debtor is an effort
to impose primary liability on the third-party, an
outcome requiring an independent jurisdictional
basis with respect to the third party. However, the
Gambone Court elaborated that “[n]othing in Peacock
... precludes ancillary jurisdiction over suits involving
assets already subject to the judgment; it only bars
the exercise of ancillary jurisdiction over attempts to
impose personal liability for an existing
judgment on a new party.” Id. (emphasis added).

63a
Just as the creditor in Gambone was not seeking
to impose personal liability on the third party
transferees, and thus, the Third Circuit concluded
that the district court there had ancillary jurisdiction
(see id. at 13), here, too, Crystallex does not attempt
to impose personal liability on PDVSA, but instead
seeks to attach assets that it alleges belong to
Venezuela – assets which belong only nominally to
Venezuela’s alter ego, PDVSA. Where, as here, a
plaintiff “does not seek to impose personal liability
on” a third party, but rather “the relief [it] seek[s] is
solely to corral [the debtor’s] assets in an effort to
preserve [its] access to them,” id., an independent
basis for subject matter jurisdiction is not required.
Moreover, while the Gambone Court explained that
“Peacock holds that ancillary jurisdiction does not
extend to suits demanding that a third party use its
legitimately held assets to satisfy a previously
rendered judgment,” id., the Court finds it is
appropriate – if it finds PDVSA is Venezuela’s alter
ego – to view the instant case as not involving a
demand that PDVSA use its “legitimately held
assets” to satisfy Venezuela’s judgment. Rather, the
issue here is whether PDVSA’s assets are, in effect,
Venezuela’s assets; for if they are, then this case is
not correctly characterized as one in which Crystallex
is attaching a third-party’s property.
PDVSA also directs the Court to IFC, 438 F.3d at
312, in which the Third Circuit described veilpiercing as a mechanism for imposing “primary
liability” on a third party. Id. The IFC Court
explained, “[v]eil-piercing does not make a party
secondarily liable. Rather, it collapses corporate
distinctions to make for joint primary liability. This
contrasts with garnishment, in which there is a new

64a
party and a new theory of liability, but not a new
direct claim.” Id. Like Gambone, then, IFC seems to
suggest that the Third Circuit would hold that alter
ego liability is a form of “primary liability,” which,
pursuant to Peacock, requires an independent basis
to exercise subject matter jurisdiction as to the third
party. See Epperson, 242 F.3d at 106 (“Since Peacock,
most courts have continued to draw a distinction
between post-judgment proceedings to collect an
existing judgment and proceedings, such as claims of
alter ego liability and veil-piercing, that raise an
independent controversy with a new party in an
effort to shift liability.”).
But the Court finds persuasive Crystallex’s notion
of “two different contexts” of alter ego liability. (D.I.
70 at 7-8 & n.8) (citing, for example, First Horizon
Bank v. Moriarty-Gentile, 2015 WL 8490982, at *4
n.4 (E.D.N.Y. Dec. 10, 2015) (finding independent
jurisdiction, but also noting “alternate basis for
jurisdiction” based on finding that third party was
alter ego of debtor); Aioi Seiki, Inc. v. JIT
Automation, Inc., 11 F.Supp.2d 950, 952-54 (E.D.
Mich. 1998) (“An action to pierce the corporate veil is
not a new cause of action, but merely a determination
of whether multiple entities exist as separate entities
or as mere alter egos of each other.... Accordingly,
[such actions are] brought supplementary to and in
an effort to enforce a previous judgment of this court
and should therefore be brought pursuant to Fed. R.
Civ. P. 69(a).”) An alter ego (or veil piercing) theory
may be raised either as a basis for primary liability,
in which “the judgment creditor seeks to establish
that the alleged alter ego is liable for the original
judgment, and thus obtain a new judgment against
the alter ego,” or alternatively as a basis for

65a
secondary liability, in which the judgment creditor
“seeks a more limited finding, namely that the
specific property at issue ... though nominally held in
the name of [a third party, is], at this time, really the
property of the [judgment debtor].” (D.I. 70 at 7-8)
For the reasons already discussed in relation to
Gambone, the Court views the present case as
involving garnishment, seeking only to establish
secondary liability (by attaching certain specified
property), rather than an action seeking to impose
primary liability on PDVSA.
Therefore, the Court concludes that if Crystallex
meets its burden to show that the Court has subject
matter jurisdiction with respect to Venezuela under
Section 1605(a)(6), and if Crystallex further
demonstrates that PDVSA is the alter ego of
Venezuela, then Crystallex will also necessarily have
established that the Court may exercise subject
matter jurisdiction with respect to PDVSA as well.
Crystallex does not need to additionally prove that
some other independent basis of subject matter
jurisdiction exists with respect to PDVSA. See
Kensington Int’l Ltd. v. Republic of Congo, 2007 WL
1032269, at *13 (S.D.N.Y. Mar. 30, 2007) (“[I]f the
facts alleged in the Complaint claiming that SNPC is
an alter ego of Congo are accepted as true, then
SNPC is Congo, and the only immunity at issue is
Congo’s immunity.”). 10
Even if an independent basis for jurisdiction were required, it
is present, based on § 1330 and FSIA § 1605(a)(6). (See D.I. 70 at
4-5) (Crystallex: “[T]his Court has an independent basis for
jurisdiction against PDVSA under 28 U.S.C. § 1330 and Section
1605(a)(6) of the FSIA.”) The Court further concludes that
whether an independent basis for jurisdiction is required is a
question that does not necessarily need to be answered in this
10

66a
3. Crystallex Must Establish An Exception to
Attachment and Execution Immunity
In addition to showing that Venezuela and
PDVSA are not immune from exercise of this Court’s
subject matter jurisdiction, Crystallex must also
establish an exception to attachment and execution
immunity. See Rubin v. Islamic Republic of Iran, 637
F.3d 783, 793 (7th Cir. 2011) (“The Act contains two
primary forms of immunity[:] ... Section 1604
provides jurisdictional immunity from suit ... [while]
Section 1609 ... codifies the related common-law
principle that a foreign state’s property in the United
States is immune from attachment and execution
....”). In order for the Court to issue the requested
writ of attachment, the Court must be satisfied that
the specific property on which Crystallex seeks to
execute – PDVSA’s shares of stock in Delaware
corporation PDVH – are not immune from
attachment and execution under the FSIA. See
generally Rubin v. Islamic Republic of Iran, ––– U.S.
––––, 138 S. Ct. 816, 823-25, ––– L.Ed.2d –––– (2018)
(discussing “attachment and execution immunity” in
relation to FSIA terrorism exception, 28 U.S.C. §
1605A).
“[T]he FSIA’s provisions governing jurisdictional
immunity, on the one hand, and execution immunity,
on the other, operate independently.” Walters v.
Indus. & Commercial Bank of China, Ltd., 651 F.3d
280, 288 (2d Cir. 2011). 11 “[T]his means that ‘a waiver
case. Subject matter jurisdiction here is so intertwined with the
merits of the alter ego issue that the Court must address
Crystallex’s alter ego contentions, one way or the other.
Because the FSIA does not specify the “circumstances and
manner of attachment and execution proceedings,” courts apply
11

67a
of immunity from suit does not imply a waiver of
immunity from attachment of property, and a waiver
of immunity from attachment of property does not
imply a waiver of immunity from suit.’” Id. (quoting
Restatement (Third) of Foreign Relations Law of the
United States § 456(1)(b)(1987)). 12
Notably, “the exceptions to attachment immunity
are narrower than the exceptions to jurisdictional
immunity. Although there is some overlap between
the exceptions to jurisdictional immunity and those
for immunity from execution and attachment, there is
no escaping the fact that the latter are more narrowly
drawn.” Rubin, 637 F.3d at 796 (internal quotation
marks omitted). That is, all else being equal, it is
easier to establish subject matter jurisdiction over a
foreign sovereign entity than it is to attach and
execute on the property in the United States of such
an entity.
In the instant case, it is also important to
Rule 69(a) in attachment actions involving foreign states. EM
Ltd. v. Republic of Argentina, 473 F.3d 463, 474 n.10 (2d Cir.
2007) (“EM Ltd. I”).
Several circuits have expressly held that “[f]ederal sovereign
immunity from execution does not defeat a court’s jurisdiction.”
Peterson v. Islamic Republic of Iran, 627 F.3d 1117, 1125 (9th
Cir. 2010); see also Weinstein v. Islamic Republic of Iran, 831
F.3d 470, 479, 484 (D.C. Cir. 2016) (subject matter jurisdiction
can exist even where plaintiff did not establish exception to
attachment immunity under FSIA); Rubin, 637 F.3d at 799-800
(finding FSIA § 1609 attachment and execution immunity is
“not jurisdictional”). Regardless of whether this would be a
correct statement of the law in the Third Circuit, the Court has
decided that it must address both jurisdictional immunity and
attachment/execution immunity and, accordingly, does so in this
Opinion.
12

68a
understand that the scope of the exceptions to
attachment and execution immunity vary depending
on whether the property targeted by the plaintiff is
property of the foreign sovereign itself or, instead, is
property of an agency or instrumentality of the
foreign sovereign. Consequently, “property owned by
a foreign state’s instrumentalities is generally more
amenable to attachment than property owned by the
foreign state itself.” Id. at 794. As applied here,
however, because of the Court’s alter ego finding,
Crystallex’s burden is the greater of the two: as the
Court is treating PDVSA as Venezuela, and therefore
treating the property of PDVSA as the property of
Venezuela, Crystallex must satisfy the narrower
exception to execution immunity applicable to
property of foreign states.
4. PDVSA Is Presumptively Separate from
Venezuela
It is undisputed that PDVSA is an agency or
instrumentality of Venezuela, having been separately
formed by Venezuela in the 1970s. (See, e.g., Tr. at
13, 36) “[D]uly created instrumentalities of a foreign
state are to be accorded a presumption of
independent status.” First Nat’l City Bank v. Banco
Para El Comercio Exterior de Cuba, 462 U.S. 611,
627, 103 S.Ct. 2591, 77 L.Ed.2d 46 (1983) (“Bancec”).
This is a strong presumption. See Arch Trading Corp.
v. Republic of Ecuador, 839 F.3d 193, 201 (2d Cir.
2016). “Both Bancec and the FSIA legislative history
caution against too easily overcoming the
presumption of separateness.” De Letelier v. Republic
of Chile, 748 F.2d 790, 795 (2d Cir. 1984); see also EM
Ltd. II, 800 F.3d at 99 (“[Bancec] sets a high bar for
when an instrumentality will be deemed an alter ego

69a
of its sovereign state.”).
Indeed, in Bancec – the leading case on how the
presumption of separateness between a foreign state
and its agency or instrumentality may be overcome –
the
Supreme
Court
explained
that
“the
instrumentality’s assets and liabilities must be
treated as distinct from those of its sovereign in order
to facilitate credit transactions with third parties.”
462 U.S. at 626, 103 S.Ct. 2591. “Freely ignoring the
separate status of government instrumentalities
would result in substantial uncertainty over whether
an instrumentality’s assets would be diverted to
satisfy a claim against the sovereign, and might
thereby cause third parties to hesitate before
extending credit to a government instrumentality
without the government’s guarantee.” Id. “Due
respect for the actions taken by foreign sovereigns
and for principles of comity between nations leads us
to conclude ... that government instrumentalities
established as juridical entities distinct and
independent from their sovereign should normally be
treated as such.” Id. at 626-27, 103 S.Ct. 2591
(citation omitted).
Therefore, the Court must presume that PDVSA
retains its status as separate and distinct from the
nation of Venezuela. Unless Crystallex can overcome
this strong presumption, the Court must dismiss this
case.
5. Federal Common Law Provides The
Applicable Disjunctive Test For
Rebutting Presumption of Separateness
The FSIA does not address the circumstances
under which an agency or instrumentality of a
foreign state may be treated as the sovereign state

70a
itself for purposes of either jurisdiction or attachment
and execution. Thus, to determine whether Crystallex
has rebutted the strong presumption of separateness
between PDVSA and Venezuela, the Court applies
standards developed pursuant to federal common
law. See Bancec, 462 U.S. at 623, 103 S.Ct. 2591.
“The controlling case for when an instrumentality of
a foreign sovereign state becomes the ‘alter ego’ of
that state” is, once again, Bancec. EM Ltd. II, 800
F.3d at 89; see also Doe v. Holy See, 557 F.3d 1066,
1080 (9th Cir. 2009) (“The Bancec standard is in fact
most similar to the ‘alter ego’ or ‘piercing the
corporate veil’ standards applied in many state courts
to determine whether the actions of a corporation are
attributable to its owners.”). 13
In Bancec, the Supreme Court explained that the
“presumption may be overcome in certain
circumstances:” (1) “where a corporate entity is so
extensively controlled by its owner that a relationship
of principal and agent is created, we have held that
one may be held liable for the actions of the other,”
and “[i]n addition,” (2) where adhering to “the
broader equitable principle” of corporate separateness
“would work fraud or injustice.” Id. at 628-29, 103
S.Ct. 2591 (emphasis added; internal quotation
marks omitted). The test, then, is disjunctive. A party
such as Crystallex may rebut the presumption of
13
Importantly, it is federal law, not state law, that applies.
PDVSA’s reliance on Canfield v. Statoil USA Onshore Props.
Inc., 2017 WL 1078184, at *10-11 (M.D. Pa. Mar. 22, 2017), a
case applying Delaware state law, is unpersuasive. Canfield
involved an alter ego relationship between a Delaware
corporation and its foreign-sovereign-owned parent corporation.
Here, the pertinent relationship is that between Venezuela and
PDVSA, neither of which is a Delaware corporation.

71a
separateness by establishing either of the foregoing
and need not establish both. See Fed. Ins. Co. v.
Richard I. Rubin & Co., 12 F.3d 1270, 1287 (3d Cir.
1993) (“We recognize that there are two major
exceptions to the Bancec rule, namely, the
independent corporate status of government-owned
entities should be disregarded (1) ‘where a corporate
entity is so extensively controlled by its owner that a
relationship of principal and agent is created;’ or (2)
where to give effect to the separate instrumentalities
‘would work fraud or injustice.’”) (emphasis added);
see also Arch Trading, 839 F.3d at 201 (stating alter
ego may be shown by either extensive control “or ...
fraud or injustice”); EM Ltd. II, 800 F.3d at 90-91
(same); Holy See, 557 F.3d at 1077-80 (same). 14
PDVSA has been somewhat inconsistent on this point. After
agreeing at the hearing that the applicable standard is
disjunctive (see, e.g., Tr. at 50-52), it asserted in a post-hearing
letter that “control alone” is not enough, as “it is well
established that an alter ego theory, under Bancec or otherwise,
requires evidence of both extensive control and an abuse of the
corporate form resulting in an injury to the plaintiff.” (D.I. 51 at
3 n.2) (emphasis in original; citing D.I. 26 at 16-18) PDVSA
likewise argued in its letter that “[a]n alter ego relationship
exists ‘only if (1) the owner exercised complete control over the
corporation with respect to the transaction at issue and (2) such
control was used to commit a fraud or wrong that injured the
party seeking to pierce the veil.’” (D.I. 51 at 1-2 (quoting
BRIDAS S.A.P.I.C. v. Gov’t of Turkmenistan, 447 F.3d 411, 416
(5th Cir. 2006) (emphasis added)); see also id. at 3 (“[A]n abuse
of PDVSA’s corporate form ... is required to establish an alter
ego relationship under Bancec.”) (emphasis added); D.I. 54 at 2
(PDVSA reiterating view that “abuse of PDVSA’s corporate form
resulting in harm to Crystallex [i]s required under Bancec”)
(emphasis added)) As Crystallex observes, BRIDAS did not hold
that the applicable test is conjunctive; it only held that under
the facts presented there, both portions of the test were
satisfied. (See D.I. 53 at 1 n.1) The Court concludes – consistent
14

72a
The Court will refer to the Bancec disjunctive test
for whether the presumption of separateness has
been rebutted as the “extensive control” and “fraud or
injustice” tests (or prongs), respectively. 15
In “examin[ing] ... the nature of government
instrumentalities,” the Bancec Court noted these
entities “vary considerably, but many possess a
number of common features.” 462 U.S. at 623-24, 103
S.Ct. 2591.
A typical government instrumentality,
if one can be said to exist, is created by
an enabling statute that prescribes the
powers
and
duties
of
the
instrumentality, and specifies that it is
with the authorities cited in the text and Crystallex’s consistent
position – that the applicable test is disjunctive.
While the applicable federal common law test is disjunctive,
even its excessive control prong inherently assumes that some
element of unfairness would result if the Court fails to treat one
entity as the alter ego of the other. In this regard, the Canfield
decision (noted at footnote 13, supra ), is instructive (though not
controlling). It observed, in discussing Bancec’s excessive control
test, “[t]here are several alter ego tests within this circuit ... but
all seek the same purpose of holding a parent liable for the
actions of a subsidiary or a corporation responsible for the
actions of its shareholders.... In addition, there must be some
overall element of injustice or unfairness present” (internal
quotation marks and citations omitted). Canfield, 2017 WL
1078184, at *11. These generalized equitable considerations,
while far from sufficient to overcome the strong immunities set
out in the FSIA, have some relevance to any full and fair
attempt to apply Bancec and distinguish the vast majority of
“normal[ ]” cases – in which separate entities must be treated as
separate – from those rare exceptional cases where the
presumptions are overcome. See 462 U.S. at 627, 103 S. Ct.
2591.
15

73a
to be managed by a board selected by
the government in a manner consistent
with
the
enabling
law.
The
instrumentality is typically established
as a separate juridical entity, with the
powers to hold and sell property and to
sue and be sued. Except for
appropriations to provide capital or to
cover losses, the instrumentality is
primarily responsible for its own
finances. The instrumentality is run as
a distinct economic enterprise; often it
is not subject to the same budgetary
and personnel requirements with which
government agencies must comply.
Id. at 624, 103 S.Ct. 2591. A typical government
instrumentality would, normally, retain its separate
juridical status. See id. at 633, 103 S.Ct. 2591.
Still, “[d]etermination of who is and is not an
agent of whom will be in great part factual, and the
fact-finding should be explicit.” Foremost-McKesson,
Inc. v. Islamic Republic of Iran, 905 F.2d 438, 448
(D.C. Cir. 1990) (internal citation and quotation
marks omitted). In Bancec, the Supreme Court
emphasized that it was not “announc[ing] [a]
mechanical
formula
for
determining
the
circumstances under which the normally separate
juridical status of a government instrumentality is to
be disregarded.” Bancec, 462 U.S. at 633, 103 S.Ct.
2591; see also Hester Int’l Corp. v. Federal Republic of
Nigeria, 879 F.2d 170, 179 (5th Cir. 1989) (describing
how “determination of whether a government
instrumentality is a separate juridical entity involves
the application of the law to fact-specific situations”).

74a
The burden of making the appropriate showing
rests on the party seeking to rebut the presumption
of separateness, which here is Crystallex. See Hester,
879 F.2d at 179; see also Foremost-McKesson, 905
F.2d at 447 (“It is further clear that the plaintiff
bears the burden of asserting facts sufficient to
withstand a motion to dismiss regarding the agency
relationship.”) (emphasis omitted). The Supreme
Court has held that a plaintiff must “make out a
legally valid claim” and ultimately prove the facts
supporting the court’s jurisdiction under the FSIA; it
is insufficient simply to state a “non-frivolous” claim
to that effect. See Bolivarian Republic of Venezuela v.
Helmerich & Payne Int’l Drilling Co., ––– U.S. ––––,
137 S. Ct. 1312, 1316, 1318-19, 197 L.Ed.2d 663
(2017) (considering jurisdictional standard under
FSIA expropriation exception); see also Owens v.
Republic of Sudan, 864 F.3d 751, 779 (D.C. Cir.
2017).
B. Crystallex Has Met Its Burden with Respect
to Jurisdictional Immunity
It is undisputed that the Court has subject matter
jurisdiction with respect to Crystallex’s claim against
Venezuela, given the FSIA’s arbitration exception.
Nonetheless, PDVSA has moved to dismiss
Crystallex’s efforts to collect on its judgment against
Venezuela by attaching the property in the United
States of PDVSA, on the theory that PDVSA is
Venezuela’s alter ego. In the Court’s view, PDVSA’s
motion presents both a facial and factual attack on
the Court’s subject matter jurisdiction. 16
Among the questions the Court recently directed the parties to
address were: “Is PDVSA’s motion to dismiss a facial or factual
challenge, or both? Is the answer the same for jurisdictional
16

75a
Below, after setting out the statutory basis for the
Court’s undisputed jurisdiction with respect to
Venezuela, the Court addresses PDVSA’s facial and
factual challenges. As to the facial challenge to the
sufficiency of Crystallex’s allegations, the Court
determines that Crystallex’s burden is to rebut the
presumption of separateness between Venezuela and
PDVSA by showing probable cause. The Court then
explains that, taking Crystallex’s allegations as true,
Crystallex has met this burden by adequately
alleging that Venezuela exerts extensive control over
PDVSA, including its day-to-day operations,
rendering PDVSA the alter ego of Venezuela.
However, Crystallex has not shown probable cause to
find that recognizing the separateness of PDVSA and
Venezuela would work a fraud or injustice.
Turning next to PDVSA’s factual challenge, the
Court concludes that Crystallex’s burden is to prove
its allegations by a preponderance of the evidence –
not, as PDVSA contends, by clear and convincing
evidence. The Court then summarizes the evidence
presented by both sides and finds that Crystallex has
proven, by a preponderance of the evidence, that
Venezuela extensively controls PDVSA, and has,
thus, proven that PDVSA is Venezuela’s alter ego.
With respect to the fraud or injustice prong, however,
Crystallex has not met its burden.
immunity and for execution immunity?” (D.I. 68 at 1) The
parties’ responses to these seemingly straightforward questions
collectively amount to approximately three pages of singlespaced text. (See D.I. 70 at 1-2; D.I. 71 at 1-2) The Court’s best
assessment is that it is presented with both facial and factual
challenges. To the extent this is unclear, in an abundance of
caution the Court treats PDVSA’s motion as if it presents both
types of challenges.

76a
1. The Court Has Undisputed Jurisdiction
With Respect to Venezuela
PDVSA does not challenge the Court’s subject
matter jurisdiction with respect to Venezuela. It is
undisputed that Crystallex has gone beyond probable
cause and fully proven that Venezuela is not immune
from suit due to registration of the confirmed
arbitration award against Venezuela. (See D.I. 3-1 at
5-7)
As noted previously, § 1604 of the FSIA renders
foreign states like Venezuela “immune from the
jurisdiction of the courts of the United States and of
the States except as provided in sections 1605 to
1607” of the Act. 28 U.S.C. § 1604. The exception
Crystallex relies on to establish subject matter
jurisdiction with respect to Venezuela is § 1605(a)(6),
relating to arbitration:
(a) A foreign state shall not be immune
from the jurisdiction of courts of the
United States or of the States in any
case ...
(6) in which the action is brought ...
to confirm an award made pursuant
to ... an agreement to arbitrate, if
(A) the arbitration takes place or
is intended to take place in the
United States ....
It is undisputed that the Court has subject matter
jurisdiction over Venezuela under § 1605(a)(6)(A) due
to Crystallex’s $1.2 billion arbitral award against
Venezuela, which was confirmed by the United States
District Court for the District of Columbia, and is
now registered in the District of Delaware.

77a
2. PDVSA’s Facial Attack
There is no dispute that this litigation can go
forward against Venezuela. But Venezuela has not
appeared and Crystallex has not identified any
specific property directly owned by Venezuela that
can be found in the District of Delaware. Instead, as
noted throughout this Opinion, Crystallex seeks to
execute its judgment against Venezuela by attaching
and executing on property owned by PDVSA and
found in Delaware; specifically, the shares of
Delaware corporation PDVH, which are indisputably
directly owned by PDVSA. Hence, the Court now
addresses PDVSA’s facial attack on the Court’s
subject matter jurisdiction.
a. Crystallex’s burden is probable cause
As previously noted, when considering PDVSA’s
facial attack on the sufficiency of Crystallex’s
allegation that PDVSA is Venezuela’s alter ego, the
Court takes as true all of Crystallex’s well-pled
factual allegations. See, e.g., Rong v. Liaoning
Province Government, 452 F.3d 883, 888 (D.C. Cir.
2006) (“If the defendant challenges only the legal
sufficiency of the plaintiff’s jurisdictional allegations,
then the district court should take the plaintiff’s
factual allegations as true and determine whether
they bring the case within any of the exceptions to
immunity invoked by the plaintiff. If a foreign state
argues that even if taken as true, the plaintiff’s
allegations are insufficient to come within the
commercial activity exception, this amounts to a
challenge to the legal sufficiency of the allegations.”)
(internal quotation marks and citations omitted); see
also Holy See, 557 F.3d at 1073 (“[A] motion to
dismiss for lack of jurisdiction under the FSIA is no

78a
different from any other motion to dismiss on the
pleadings for lack of jurisdiction, and we apply the
same standards in evaluating its merit.”). 17
The burden is on Crystallex to show that these
allegations support a finding of at least probable
cause that the Bancec presumption of separateness
has been rebutted. See Strick Corp. v. Thai Teak
Prods. Co., 493 F.Supp. 1210, 1217 (E.D. Pa. 1980)
(“The writ should issue only if on its face probable
cause exists for accepting its conclusion.”); Local
Union No. 626 United Bhd. of Carpenters & Joiners
Because this miscellaneous action was initiated not by a
complaint but instead by a motion, there is some uncertainty as
to what materials the Court should look to for purposes of the
facial challenge. The Court concludes it is appropriate to take as
true all “well-pled” factual allegations contained in Crystallex’s
motion, briefs, letters, declarations, expert reports, exhibits, or
during any hearing or teleconference with the Court. (See D.I.
70 at 3) There is no doubt PDVSA has had fair notice of each of
these allegations and a full opportunity to rebut them. In any
event, even were the Court to take a more restrictive approach –
for instance, limiting its consideration to only those factual
allegations contained in Crystallex’s opening brief in support of
its motion – the Court would still find that Crystallex had met
its burden to show probable cause.
17

Relatedly, both sides fault the other for purportedly fatal
procedural failings. PDVSA complains that “Crystallex should
have commenced a plenary action against PDVSA by filing a
complaint and serving PDVSA in accordance with the
procedures set forth in the FSIA.” (D.I. 71 at 2) Crystallex
counters that PDVSA should have “move[d] to quash the writ
after issuance, as is the ordinary course,” rather than
intervening and “preemptively” moving to dismiss. (D.I. 70 at 3
n.5) In the Court’s view, both parties had options as to how to
proceed, and there is nothing deficient in how they chose to do
so. Certainly, neither party can credibly contend that it has been
denied due process or had an inadequate opportunity to be
heard.

79a
of Am. Pension Fund v. Delmarva Concrete Corp.,
2004 WL 350452, at *2-3 (E.D. Pa. Feb. 24, 2004)
(requiring “factual basis for satisfying” alter ego
standard); see also 10 Del. C. § 3507 (“A writ of
foreign attachment may be issued against any
corporation, aggregate or sole, not created by or
existing under the laws of this State upon proof
satisfactory to the court that the defendant is a
corporation not created by, or existing under the laws
of this State, and that the plaintiff has a good cause
of action against the defendant in an amount
exceeding $50.”); Del. Super. Ct. Civ. R. 49(b)(1) (“The
proof required for the issuance of a mesne writ of
attachment under Chapter 35, Title 10, Delaware
Code, will be satisfied by filing with the complaint an
affidavit of plaintiff or some credible person setting
forth the facts required by the applicable statute.”).
Undertaking this analysis, the Court concludes
that Crystallex has met its burden to overcome
PDVSA’s facial attack. Specifically, Crystallex has
met this burden with respect to the extensive control
prong of Bancec, but not with respect to the fraud or
injustice prong.
b. Extensive control
Taking Crystallex’s allegations as true, Crystallex
has shown at least probable cause for a finding that
PDVSA is not immune from suit. This is because
Crystallex has stated sufficient allegations that, if
proven, would rebut the presumption of separateness
and establish that PDVSA is the alter ego of
Venezuela.
In determining whether a corporate entity is “so
extensively controlled” by a sovereign state, the Court
considers “whether the sovereign state exercises

80a
significant
and
repeated
control
over
the
instrumentality’s day-to-day operations.” EM Ltd. II,
800 F.3d at 91; see also Walter Fuller Aircraft Sales,
Inc. v. Republic of Philippines, 965 F.2d 1375, 1382
(5th Cir. 1992) (“[W]e look to the ownership and
management structure of the instrumentality, paying
particularly close attention to whether the
government is involved in day-to-day operations, as
well as the extent to which the agent holds itself out
to be acting on behalf of the government.”); Holy See,
557 F.3d at 1079-80 (requiring “day-to-day, routine
involvement” to overcome Bancec presumption).
Considerations relevant to the fact-intensive
inquiry of whether a sovereign state exercises control
over an instrumentality’s day-to-day operations
include:
whether the sovereign nation: (1) uses
the instrumentality’s property as its
own; (2) ignores the instrumentality’s
separate status or ordinary corporate
formalities;
(3)
deprives
the
instrumentality of the independence
from close political control that is
generally enjoyed by government
agencies;
(4)
requires
the
instrumentality to obtain approvals for
ordinary business decisions from a
political actor; and (5) issues policies or
directives
that
cause
the
instrumentality to act directly on behalf
of the sovereign state. These factors are
relevant to answering the touchstone
inquiry for “extensive control”: namely,
whether the sovereign state exercises
significant and repeated control over

81a
the
instrumentality’s
operations.

day-to-day

EM Ltd. II, 800 F.3d at 91.
Crystallex makes sufficient allegations which,
taken as true, establish probable cause that the
presumption of separateness is rebutted. As
summarized in Crystallex’s briefing on the motions,
Crystallex has alleged each of the factors identified
above, as well as other bases for finding Venezuela
exercised significant and repeated control over
PDVSA’s day-to-day operations. Borrowing from
Crystallex’s briefing, the Court sets out below the
well-pled allegations that, collectively, demonstrate
probable cause that Venezuela extensively controls
PDVSA, rebutting the Bancec presumption of
separateness. 18
Venezuela Using PDVSA’s Property As Its Own
• Venezuela uses PDVSA’s property,
including aircraft and tanker trucks, for its
own political purposes
Ignoring PDVSA’s Separate Status
• PDVSA discloses Venezuela’s control and
willingness to direct the company to act against
its interests as risk factors in its bond offering
18
See, e.g., D.I. 3-1 at 7-23; D.I. 33 at 10-12 (internal quotation
marks, citations, and footnotes omitted). Crystallex’s allegations
as set out in its briefing are rearranged here in order to track
more closely the recitation of factors as contained in EM Ltd. II.
The pertinent factors are not exhaustive – the Court can (and
does) consider other factors, and not every factor need be
present – nor are they mutually exclusive, as many of them
overlap. Reasonable minds will differ as to the category into
which to place any specific allegation or evidence.

82a
documents
• At least for marketing purposes, including on
Twitter, PDVSA regularly boasts “PDVSA es
Venezuela,” which translates to “PDVSA is
Venezuela”
Depriving PDVSA of Independence from Close
Political Control
• Venezuela appoints PDVSA’s Board of
Directors, and several Government Ministers are
also members of PDVSA’s Board of Directors
• Venezuela’s Oil Minister has almost always also
been PDVSA’s President and Director
• Venezuela’s Oil Ministry and PDVSA share
physical office space
• Venezuela – including its President – hires and
fires, and exerts political pressure on, both highand low-level PDVSA employees, including by
requiring that PDVSA managers be trained
according to the Government’s social policies
• PDVSA’s Articles of Incorporation confirm that
it is required to adhere to the guidelines and
policies established or agreed upon by the
National Executive
Requiring PDVSA to Obtain Approvals for Ordinary
Business Decisions
• Venezuela’s National Executive regulates and
supervises PDVSA’s operations
• Venezuela instructs PDVSA to whom it must
sell oil internationally and at what price
• Venezuela dictates the price at which oil is sold
domestically (forcing PDVSA to subsidize gas

83a
prices)
Issuing Policies Causing PDVSA to Act Directly on
Behalf of Venezuela
• PDVSA was created by presidential decree not
to generate profits but as a national company to
implement national policy on hydrocarbons
• From 2010 through 2016, Venezuela required
PDVSA to contribute to the State directly
(through taxes, royalties, and dividends in the
amount of approximately $119 billion) and
indirectly (through off-budget social programs and
other public expenditures that have nothing to do
with the hydrocarbons industry in the amount of
approximately $82 billion)
• Venezuela uses PDVSA to achieve its social and
political goals, both domestically (e.g., through
Fondo Nacional para el Desarrollo Nacional
(“FONDEN”), a social development fund) and
abroad (e.g., through Petrocaribe)
• Venezuela forces PDVSA to provide oil to China
and Russia as repayment for loans those
countries made to Venezuela
• Venezuela directs PDVSA to sell oil to other
friendly nations on non-economic terms to
advance Venezuela’s foreign policy objectives
Additional Indications
Control Over PDVSA

of

Venezuela’s

Extensive

• Venezuela manipulates PDVSA’s conversion of
U.S. Dollars to Venezuelan Bolivars to leverage
PDVSA’s revenues for the sole benefit of
Venezuela and to the detriment of PDVSA
• Venezuela uses PDVSA to expropriate private

84a
investment
• PDVSA paid Venezuela’s fees to the ICSID
tribunal in the underlying arbitration between
Venezuela and Crystallex
PDVSA’s facial challenge can be summarized as
follows:
[T]he facts asserted in [Crystallex’s
motion] and supporting memorandum
of law demonstrate nothing more than
ordinary shareholder control and
government regulation that cannot, as a
matter of law, satisfy the required
showing that the shareholder exercise
complete domination and control over
the corporation’s day-to-day operations.
(D.I. 71 at 4) The Court is not persuaded. Crystallex
has shown probable cause to rebut the presumption
of separateness between the Republic of Venezuela
and PDVSA. PDVSA’s arguments are weightier
(though ultimately unsuccessful) in connection with
its factual challenge, where the Court can (and does)
consider PDVSA’s evidence, and not just Crystallex’s
allegations.
c. Fraud or injustice
Crystallex contends that it has satisfied both
prongs of the disjunctive Bancec test: extensive
control as well as fraud or injustice. While, as already
explained, the Court agrees with the former
assertion, it rejects the latter. Even taking
Crystallex’s well-pled allegations as true, there is not
probable cause that giving effect to the separateness
of Venezuela and PDVSA would “work a fraud or
injustice” as that term is used in Bancec (i.e., as a

85a
stand-alone test that may be satisfied independent of
whether there is extensive control). 19 Instead, as
PDVSA contends, Crystallex has not “show[n] that
the Republic abused PDVSA’s corporate form to
perpetrate a fraud or injustice resulting in harm to
Crystallex.” (D.I. 71 at 5)
Crystallex alleges that the expropriation of its
interest in the Las Cristinas mines “resulted in a
multibillion dollar benefit to state-owned and
controlled PDVSA.” (D.I. 3-1 at 32) Further,
Crystallex contends that “Venezuela reaps enormous
benefits from owning and operating an oil refining
company under the protection of Delaware law ... in
an attempt to protect Venezuela’s Delaware assets
from execution.” (Id.) From these premises,
Crystallex asks the Court to “deem PDVSA to be
Venezuela’s alter ego to avoid the obvious injustice
that would result if Venezuela were permitted to
violate international law by taking Crystallex’s
assets, transfer those assets [to] a state-owned and
controlled company, PDVSA, for no consideration,
and then use U.S. law to avoid paying its lawful
obligations in the face of PDVSA’s receipt of billions
for those stolen assets.” (Id.; see also D.I. 33 at 17
(“Venezuela uses PDVSA to generate billions of
dollars in revenue in the United States through its
commercial refining and oil industry subsidiaries,
while simultaneously using PDVSA to shield those
same assets from creditors in the United States.”))
Crystallex’s allegations fail because they do not
It follows that neither has Crystallex met its higher burden of
proving fraud or injustice by a preponderance of the evidence.
Therefore, Crystallex’s motion with respect to the fraud or
injustice prong also fails to survive PDVSA’s factual challenge.
19

86a
sufficiently allege that Venezuela used PDVSA as an
instrument to defraud Crystallex. Everything
Crystallex alleges that Venezuela did to harm
Crystallex could have been done – and, indeed, was
alleged to have been done – by Venezuela itself,
regardless of whether PDVSA even existed. It was
Venezuela, not PDVSA, which expropriated
Crystallex’s interests in the mines. While Venezuela
may have subsequently transferred those interests to
PDVSA, it did not need to do so as part of its scheme
to defraud Crystallex or to engineer an unjust
outcome. Crystallex does not even allege that PDVSA
participated in or facilitated the expropriation. Nor
does Crystallex allege in anything other than an
insufficient, conclusory manner that PDVSA was
created and/or is being maintained by Venezuela for
the purpose of defrauding Crystallex and other
creditors.
As PDVSA persuasively explains:
PDVSA had nothing to do with the
underlying dispute between the parties
to the arbitration. And PDVSA is not a
newly
created
sham
corporation
designed to insulate the Republic from
liability. PDVSA was established over
40 years ago and is one of the largest oil
companies in the world.... [T]he mere
fact that a government instrumentality
benefits from the actions of the
government does not demonstrate an
abuse of the corporate form required to
overcome
the
presumption
of
separateness under Bancec.
(D.I. 26 at 19-20)

87a
Therefore, the Court concludes that Crystallex
cannot meet its burden under Bancec’s fraud or
injustice prong.
2. PDVSA’s Factual Attack
As previously noted, PDVSA’s motion presents
both a facial and factual attack on Crystallex’s efforts
to establish subject matter jurisdiction. In evaluating
the factual challenge, the Court does not assume the
truth of Crystallex’s allegations. Instead, the Court
must consider the evidence presented by Crystallex,
as well as any competing evidence presented by
PDVSA, and determine, under the appropriate
burden of proof, whether Crystallex’s evidence meets
that burden.
For the reasons set out below, the Court concludes
that (1) Crystallex’s burden is to prove, by a
preponderance of the evidence, that Venezuela
extensively controls PDVSA, and (2) Crystallex has
met this burden.
a. Crystallex’s burden is preponderance
of the evidence
While the parties agree that Crystallex bears
some burden in order to obtain its requested writ,
they disagree as to the nature of that burden.
Crystallex argues for the “‘usual ... rule generally
applicable to civil actions in federal courts’”: that the
plaintiff must prove its case by a preponderance of
the evidence. (D.I. 52 at 1) (quoting Ramsey v. United
Mine Workers of Am., 401 U.S. 302, 308, 91 S.Ct. 658,
28 L.Ed.2d 64 (1971)) PDVSA contends that
Crystallex, as “a party seeking to rebut the strong
presumption of separateness under Bancec, bears the
heavy burden of proving an alter ego relationship by

88a
clear and convincing evidence.” (D.I. 51 at 1) The
Court agrees with Crystallex.
As Crystallex correctly points out, Bancec held
there is “no mechanical formula” for assessing
whether the presumption of separateness has been
rebutted. 462 U.S. at 633, 103 S.Ct. 2591. Nor does
Bancec speak of a heightened burden. Neither does
the FSIA address the standard of proof or suggest it
is a heightened one. (See D.I. 52 at 1) In this
situation, the Court discerns no basis to depart from
the ordinarily prevailing standard in a civil case,
which is the preponderance of the evidence standard.
See generally McNutt v. Gen. Motors Acceptance Corp.
of Indiana, 298 U.S. 178, 189, 56 S.Ct. 780, 80 L.Ed.
1135 (1936) (“[T]he court may demand that the party
alleging jurisdiction justify his allegations by a
preponderance of evidence.”).
The sparse caselaw on the subject further
supports this conclusion. 20 While many cases in this
area fail to state the standard of proof being applied,
Crystallex cites a handful of cases that expressly
apply a preponderance of the evidence standard. See,
e.g., Kirschenbaum v. 650 Fifth Ave., 257 F. Supp. 3d
463, 472 (S.D.N.Y. 2017) (issuing findings of fact
based on “assessment of the preponderance of the
credible evidence,” while also finding “massive
amount of evidence” that left Court “firmly convinced
20
As the District Court for the District of Columbia has
recognized, “[w]hile the D.C. Circuit has explained that the
court must look beyond the pleadings and even conduct limited
jurisdictional discovery when a foreign-sovereign defendant
challenges the factual basis for subject-matter jurisdiction under
the FSIA, there is no authority to direct this court as to the
appropriate burden of proof.” Kilburn v. Republic of Iran, 277
F.Supp.2d 24, 33 n.5 (D.D.C. 2003).

89a
... by far more than a preponderance of the
evidence”); Kensington, 2007 WL 1032269, at *5
(applying preponderance of evidence standard). As
Crystallex further notes, other courts have
undertaken a “totality of the circumstances” analysis,
Bridas, 447 F.3d at 417, or assessed whether claims
were “well-supported” or supported by “sufficient
[evidence of] control,” McKesson Corp. v. Islamic
Republic of Iran, 52 F.3d 346, 351-52 (D.C. Cir. 1995)
– approaches which do not suggest that these courts
were applying any heightened evidentiary standard.
In a case involving alter ego allegations outside the
sovereign immunity context, the Third Circuit
(applying state law) has applied a preponderance of
the evidence standard. See Plastipak Packaging, Inc.
v. DePasquale, 75 Fed. App’x 86, 90 (3d Cir. 2003).
PDVSA has not cited a single case that applied a
clear and convincing evidence standard to an alter
ego inquiry in the context of Bancec and the FSIA.
PDVSA’s cases applying state-law alter ego standards
(like state-law cases cited by Crystallex) are
unhelpful, as the Court is (by the parties’ agreement)
applying a federal law standard. 21 PDVSA broadly
asserts that “the clear and convincing evidence
As Crystallex acknowledges, “[t]he Third Circuit has also
stated, without citation, that alter-ego claims that ‘rely on a
fraud theory’ require proof by clear and convincing evidence.”
(D.I, 52 at 2 n.1) (quoting Kaplan v. First Options of Chi, Inc., 19
F.3d 1503, 1522 (3d Cir. 1994)) Since the Court has already
concluded that Crystallex failed to establish even probable cause
to support application of the fraud or injustice prong of Bancec,
and cannot prove fraud or injustice by a preponderance of the
evidence, it follows that Crystallex also could not meet the clear
and convincing evidence standard. Thus, there is no need for the
Court to resolve which of the evidentiary standards applies to
the fraud or injustice test.
21

90a
standard applies any time a party seeks to overcome
a legal presumption.” (D.I. 51 at 2) But this is
incorrect, as Crystallex demonstrates. (See D.I. 53 at
2) (“That ignores decades of decisions holding that a
wide range of presumptions across different subjectmatter areas could be rebutted by a preponderance of
the evidence.”) (citing cases)
The Court does not agree with PDVSA that “a
preponderance of the evidence standard is
inconsistent with” Bancec’s “strong presumption” of
separateness. (D.I. 54 at 1-2) PDVSA does not cite
authority to support the view that the strength of the
presumption necessarily alters the standard of proof
necessary to rebut it. The “strong” characterization of
the presumption helps explain the justification for it
and the importance of the Court enforcing it, unless
and until it is overcome by the required amount of
evidence. It does not, however, dictate a clear and
convincing burden of proof.
Hence, the Court will now turn to evaluating
whether Crystallex has met its burden of proof by a
preponderance of the evidence.
b. Extensive control
Based on the evidence presented by both parties, 22
the Court finds that Crystallex has proven by a
preponderance of the evidence that PDVSA is not
immune from suit. The record contains sufficient
Crystallex requests that the Court take judicial notice of many
of the exhibits included in its appendix, particularly those which
are acts and statements of various branches of the Venezuela
Government as well as orders issued by or public filings made in
U.S. Courts. (See D.I. 9) No opposition to this request has been
filed. (See generally Tr. at 67-68) The Court will take judicial
notice as requested.
22

91a
evidence to enable the Court to find – including by
resolving disputed issues of fact 23 – that PDVSA is
the alter ego of Venezuela. In particular, Crystallex
has met its burden to show that Venezuela
extensively controls PDVSA.
As noted above, while there is no mechanical
formula that applies to this inquiry, the Court finds it
helpful to organize its discussion based initially on
factors that are commonly looked to, in the same
order that the Court identified these same factors in
connection with PDVSA’s facial challenge. The Court
then considers some additional evidence further
supporting its findings.
i. Venezuela’s use of PDVSA’s property
as its own
Crystallex has proven by a preponderance of the
evidence that Venezuela regularly uses PDVSA’s
assets as its own. (See D.I. 3-1 at 16-17, 31) (citing
evidence)
Venezuela uses PDVSA aircraft for travel by
Venezuelan officials and to escort other countries’
politicians who are “friendly to Venezuela,” even
when they are not traveling to or from Venezuela.
(See D.I. 3-1 at 16-17; see also, e.g., D.I. 5-1 Ex. 54 at
1 (LaPatilla reporting, “They don’t try to hide it any
more. It is an official policy to use the large fleet of
VIP ... airplanes of Pdvsa and the government itself
not only for the private use of public officials ... but
See generally Bolivarian Republic of Venezuela, 137 S. Ct. at
1324 (“If a decision about the matter requires resolution of
factual disputes, the court will have to resolve those disputes,
but it should do so as near to the outset of the case as is
reasonably possible.”).

23

92a
also to make use of the Venezuelan people’s money
....”); id. Ex. 55 (BBC reporting, “The President of
Venezuela, Nicolas Maduro, stated ... that Colombian
guerilla leader Rodrigo Londoño Echeverri, alias
‘Timochenko’, the senior commander of the
[Revolutionary Armed Forces of Columbia]...,
traveled in an official Venezuelan airplane [owned by
PDVSA] to Havana.”); id. Ex. 56 (Noticias24
reporting “Venezuelan Foreign Minister Nicolas
Madura ... stated ... that the deposed president of
Honduras Manuel Zelaya has left the United States
bound for his country in an airplane bearing
Venezuelan registration number ... and flown by ‘a
Venezuelan captain’”); id. Ex. 57 (Reportero24
reporting, “Pdvsa allocates 3 luxury airplanes for the
use of the Cuban regime,” airplanes which “were
previously utilized to serve executives of the stateowned Petróleos de Venezuela (PDVSA) company”
and which “only visit Venezuela when they require
maintenance”)) Venezuela also uses PDVSA trucks as
physical barriers to prevent anti-government
demonstrators from gathering. (See id. Ex. 58)
(LaPAtilla reporting PDVSA trucks were blocking
central highway and being guarded by Bolivarian
National Police and Bolivarian National Guard)
ii. Ignoring PDVSA’s separate status
Crystallex has proven by a preponderance of the
evidence that Venezuela regularly ignores PDVSA’s
separate status. This is evidenced in numerous
statements PDVSA has made in filings associated
with efforts to raise money, including bond offering
documents.
For example, in a November 11, 2011 offering
document, PDVSA disclosed:

93a
[T]he
Venezuelan
government
required us to acquire several
electricity generation and distribution
companies, as well as certain food
companies
....
The
Venezuelan
government has also nationalized and
continues
to
nationalize
other
companies in Venezuela.. .. [T]he
Venezuelan government announced the
nationalization of Venoco ... and
required ... us to acquire the assets of
Venoco at a price to be determined in
the future.
(D.I. 4-3 Ex. 40 at 16-17) (emphasis added) In
September 2016, PDVSA advised its bondholders it
could provide no assurances that Venezuela would
not “impose further material commitments upon us
or intervene in our commercial affairs in a manner
that will adversely affect our operations, cash flow
and financial results.” (Id. Ex. 44 at 28) (emphasis
added)
In the context of the full record developed here,
the Court finds that these acknowledgments by
PDVSA of actions Venezuela has “required” it to take,
and
material
commitments
Venezuela
has
“impose[d]” on it, are indicative of Venezuela, its sole
shareholder, ignoring the separate legal status of
PDVSA.
This finding is bolstered by PDVSA’s repeated
identification of itself, including on Twitter, as
Venezuela. PDVSA has used the hashtag
“#PDVSAesVenezuela,”
which
literally
means
“PDVSA is Venezuela.” (D.I. 4-1 Ex. 3) The Court
disagrees with PDVSA that Crystallex’s arguments

94a
relating to the Twitter hashtag are “frivolous.” (D.I.
26 at 37 n.13) PDVSA also disseminates Venezuelan
propaganda through its social media presence by
regularly tweeting messages in support of the
Government and portraying a photograph of former
President Hugo Chavez as its banner heading. (D.I.
5-1 Exs. 67-69)
In connection with other evidence in the record,
these facts constitute additional evidence that
Venezuela and PDVSA regularly ignore their
separate legal status.
iii. Depriving PDVSA of independence
from close political control
Crystallex has proven by a preponderance of the
evidence that Venezuela has deprived PDVSA of
independence from close political control.
This is illustrated by the fact that Venezuela’s
President, Nicolas Maduro, appoints PDVSA’s
directors, vice-presidents, and members of its
shareholder council. (See D.I. 4-1 Ex. 13; see also D.I.
4-3 Ex. 40 at 16 (PDVSA Nov. 11, 2011 Notes
Offering Circular) (“The President of Venezuela
appoints our president and the members of our Board
of Directors by executive decree.”)) In January 2017,
President Maduro also appointed Nelson Martinez,
former President of Citgo (a corporate subsidiary
several steps below the Government of Venezuela), as
Minister of the People’s Power for Oil and Mining
(“Oil Minister”) and President of PDVSA. (See D.I. 42 Exs. 23-24) In November, 2017, a newspaper
headline announced, “President Maduro Appoints
Asdrúbal Chávez As New President of Citgo.” (D.I.
42-1 Ex. 110; see also Tr. at 30)

95a
In 2002, then-President of Venezuela, Hugo
Chavez, fired two PDVSA employees on national
television, fired seven PDVSA executives, and forcibly
retired 12 other PDVSA employees. (D.I. 8 at ¶ 21) In
2003, “the Government fired nearly 40% of the
PDVSA’s workforce at the time (approximately
18,000 PDVSA employees) because of their role in
opposing the Government.” (Id.; see also D.I. 7 at ¶
11) As recently as July 2017, Venezuela continued to
threaten to terminate PDVSA employees who were
opposed to the governing regime. (See D.I. 4-2 Ex. 35
at 2 (“Political appointees are gaining clout at the
expense of veteran oil executives, while employees
are under mounting pressure to attend government
rallies and vote for the ruling Socialists. The
increasing focus on politics over performance is
contributing to a rapid deterioration of Venezuela’s
oil industry ....”); id. at 3 (“Managers told workers
they would be fired unless they voted in Maduro’s
controversial election ....”); see also D.I. 4-3 Ex. 66
(President Maduro reported as stating, “If there are
15,000 workers, all 15,000 workers must vote without
any excuses”))
There is also a great deal of overlap between the
leadership of Venezuela and that of PDVSA. In
November 2017, President Maduro appointed a
military general as Oil Minister and also as President
of PDVSA. (See Tr. at 29-30) That individual’s
predecessors, Nelson Martinez, Eulogio del Pino, and
Rafael
Ramirez
Carreño,
similarly
served
simultaneously as both Venezuela’s Oil Minister and
PDVSA’s President. (See D.I. 4-2 Exs. 23-24) In a
speech to the International Assembly in 2014, former
Oil Minister and PDVSA President, Rafael Ramirez,
said; “today we can say with clarity that we have the

96a
lull and sovereign management of our oil industry.”
(D.I. 4-3 Ex. 38 at 17; see also Tr. at 19) Given the
evidence recited throughout this Opinion, the Court
considers it reasonable to infer that when individuals
who simultaneously hold office in the Government of
Venezuela and in PDVSA confront situations in
which the interests of their two “bosses” conflict, they
make decisions based on what they view to be the
best interests of Venezuela, even if that comes at the
expense of PDVSA’s interests. 24
While hiring and firing board members may also
be “an exercise of power incidental to ownership, and
ownership of an instrumentality by the parent state
is not synonymous with control over the
instrumentality’s day-to-day operations,” EM Ltd. II,
800 F.3d at 92-93, given the totality of the
circumstances here the Court finds these facts to be
evidence that Venezuela “interfere[d] in and
dictate[d] [PDVSA’s] daily business decisions,” id.
Additionally, PDVSA’s Articles of Incorporation
require that it adhere to policies established by the
National Executive. (See D.I. 4-1 Ex. 13; see also D.I.
8 at ¶ 20) Venezuela’s National Executive, through
the Oil Ministry, also “regulates and supervises
PDVSA’s operations, exercises control of PDVSA’s
production and export of oil, and grants the rights
24
Among other evidence supporting this inference is, as will be
described further below, how PDVSA in its own public filings
warns investors that the Republic of Venezuela may force
PDVSA to take actions that are not in PDVSA’s own interests as
a corporation, when, in the Republic’s view, those actions will
further policies and goals of the nation itself. (See, e.g., D.I. 4-3
Ex. 40 at 16) (“As a result, we may engage in activities that give
preference to the objectives of the Venezuelan government
rather than our economic and business objectives.”)

97a
and mining areas as established under Venezuelan
law.” (D.I. 8 at ¶ 20) (internal quotation marks
omitted)
iv. Requiring PDVSA to obtain
approvals for ordinary business
decisions
Crystallex has proven by a preponderance of the
evidence that in addition to designating oil
production levels by official decree, Venezuela also
“dictates the severely discounted price at which
PDVSA must sell its product to Venezuelan citizens”
and “forces PDVSA to ‘sell’ oil to third parties for no,
or de minimis, consideration.” (D.I. 3-1 at 12) (citing
evidence) In a 2011 debt offering, PDVSA explained:
“[t]he Venezuelan government, rather than the
international market, determines the price of
products ... sold by us through our affiliates in the
domestic market.” (D.I. 4-3 Ex. 40 at 14) The
Government sets the prices for oil sold within
Venezuela and designates oil production levels. (Id.
Ex. 39; D.I. 7 at ¶ 38)25
Venezuela’s National Executive regulates and
supervises PDVSA’s operations. (See D.I. 7 at ¶ 7;
D.I. 4-3 Ex. 40) The Government compels PDVSA to
sell oil to China, Russia, and 17 Caribbean countries
at a discount in order to support Venezuela’s foreign
policy. (See D.I. 5-1 Exs. 72-74, 77; see also D.I. 8 at
¶¶ 49-50; D.I. 7 at ¶¶ 9, 31-37) Energy Minister
Crystallex points to PDVSA’s audited financial statements,
which reveal that PDVSA received a government subsidy
“corresponding to the difference between the cost of production
and the regulated sale price of motor and diesel fuels in the
national market,” which KPMG called “an unusual transaction”
and “key audit issue.” (D.I. 3-1 at 20; D.I. 7 at ¶ 40)
25

98a
Rafael Ramirez has explained that PDVSA “is not a
company designed to generate profits;” instead, it “is
a national company.” (D.I. 7 at ¶ 39)
PDVSA observes that other oil-producing nations
similarly regulate oil policies, making PDVSA no
different from any other national oil company. (D.I.
26 at 8, 31) Just because PDVSA shares this feature
(and perhaps others) with “typical” national oil
companies does not, however, deprive this feature of
all evidentiary value in assessing whether Venezuela
exercises extensive control over PDVSA. Nor, of
course, is this the only evidence on which the Court is
relying to find an alter ego relationship.
v. Issuing policies causing PDVSA to act
directly on behalf of Venezuela
The record further establishes that Venezuela
causes PDVSA to achieve domestic social and
political goals and to advance Venezuela’s foreign
policy goals. (D.I. 3-1 at 17-21) (citing evidence)
PDVSA was created by Presidential Decree, in
1975, to implement government policy. (See D.I. 4
Exs. 11, 12; D.I. 8 at ¶ 9) The “History” section of
PDVSA’s website lists among the company’s
“Strategic guidelines” the following: “Support the
geopolitical position of the country and key objectives
of Venezuelan foreign policy, such as the promotion of
comprehensive cooperation with strategic allies ....”
(D.I. 4-2 Ex. 32 at 1)
In 2002, the National Executive reorganized
PDVSA, expanding its corporate mission beyond the
hydrocarbons industry to “take on a more political
role.” (D.I. 3-1 at 17) Under the new structure,
PDVSA funds Venezuelan programs that have

99a
nothing to do with its business, causing PDVSA to
take on additional debt. Such programs include
PDVSA Agrícola S.A., which subsidizes Venezuela’s
agriculture, industrial infrastructure, and produce
sectors, and PDVSA Desarrollos Urbanos S.A., which
subsidizes Venezuela’s housing projects. (Id. at 18;
D.I. 8 at ¶ 41) PDVSA’s total contributions to the
Venezuelan budget between 2010 and 2016 were in
excess of $119 billion. (D.I. 7 at ¶ 20)26 As PDVSA
disclosed to investors in September 2016: “[T]he
government requires us to make significant financial
contributions to social programs, including transfers
to FONDEN, as well as requiring us to fund specific
projects. In 2014 and 2015, we made total
contributions to FONDEN in the amounts of U.S.
$974 million and U.S. $3,306 million, respectively.”
(D.I. 4-3 Ex. 44 (PDVSA Offer Sept. 16, 2016) at 29)
(emphasis added); see also D.I. 4-2 Exs. 19, 30)
PDVSA asserts that “[t]hese taxes and currency
regulations, which apply to companies other than
PDVSA, are not a basis for disregarding PDVSA’s
legal separateness.” (D.I. 26 at 33 n.9) It is true that
Venezuela regulates and taxes the entire oil industry
operating in the country, not just PDVSA. (See D.I.
28 at ¶ 5; see also D.I. 26 at 7-8) But that does not
mean the taxation and regulation of PDVSA is
inconsistent with a finding of PDVSA being
Venezuela’s alter ego.
Moreover, the tax and regulatory policies are only
some of the Venezuelan policies that cause PDVSA to
act directly on behalf of Venezuela, as already noted.
PDVSA points out that in this same period PDVSA had
revenues of more than $724 billion and earned a total net profit
of over $45 billion. (D.I. 27-1 Exs. 4-6)
26

100a
Venezuela also uses PDVSA to achieve its foreign
policy goals by committing PDVSA to sell oil to
certain Caribbean and Latin American nations at
substantial discounts, without PDVSA’s consent. (D.I.
3-1 at 21) (citing evidence) Even when those oil debts
are repaid, the money is given to Venezuela, not
PDVSA. (Id.; D.I. 5-1 Ex. 77) Venezuela has entered
into agreements with China whereby PDVSA acts “on
behalf of the Bolivarian Republic of Venezuela” to
repay China. (D.I. 4-3 Ex. 49 at 3; see also id. at 5
(additional references to PDVSA taking on duties “on
behalf of the Bolivarian Republic of Venezuela” or
“acting on behalf of the Bolivarian Republic of
Venezuela”)) China has thereby paid more than $50
billion to Venezuela (for oil) yet PDVSA itself has
received nothing. (D.I. 7 at ¶ 37)
Consistent with the foregoing, PDVSA stated the
following in a November 11, 2011 Notes Offering
Circular:
We are controlled by the Venezuelan
government,
which
ultimately
determines our capital investment and
other
spending
programs....
The
Bolivarian Republic of Venezuela, as
our sole owner, has pursued, and may
pursue in the future, certain of its
macroeconomic and social objectives
through us. As a result, we may engage
in activities that give preference to the
objectives
of
the
Venezuelan
government rather than our economic
and business objectives. We may make
investments, incur costs and engage in
sales on terms that affect our results of
operations and financial condition.

101a
(D.I. 4-3 Ex. 40 at 16)
vi. Additional indications of
Venezuela’s extensive control over
PDVSA
The record contains additional evidence of
Venezuela’s extensive control over PDVSA, evidence
that does not neatly fit into one or more of the
categories above.
For instance, it is undisputed that PDVSA paid
the administrative fees Venezuela incurred in
connection with the arbitration with Crystallex,
which amounted to around $249,000. (See Tr. at 4041; D.I. 6 (Fung Decl.) at ¶¶ 3-5, Exs. 1-2)27
Also, Venezuela manipulates PDVSA’s conversion
of U.S. Dollars to Venezuelan Bolivars to leverage
PDVSA’s revenues for the sole benefit of Venezuela
and to the detriment of PDVSA. (See D.I. 7 at ¶ 26;
see also D.I. 4-3 Exs. 47-48) PDVSA is required to
convert foreign currency into Venezuelan Bolivars at
an artificially low U.S. Dollar to Bolivar exchange
rate “(which is approximately 1/500th of the market
rate).” (D.I. 7 at ¶ 26; see also D.I. 8 at ¶ 46; D.I. 4-3
Ex, 48) The Republic can then exchange that
currency at more favorable rates. (D.I. 7 at ¶ 26; see
also D.I. 4-3 Ex. 48)
27
PDVSA insists there is “nothing untoward” about an entity
paying a debt of its shareholder owner. (Tr. at 41; see also EM
Ltd. II, 800 F.3d at 93 (stating that “repayment by [a
government instrumentality] of [a foreign country’s] other debts
does not establish the existence of an alter ego relationship,” at
least where instrumentality was a national bank, as “central
banks commonly perform payment functions for their
governments”)) That this observation is true does not mean this
evidence lacks relevance or contradicts the Court’s findings.

102a
Additionally, in November 2017, PDVSA
announced: “As of today, the command of the oil
industry passes into the hands of the country’s first
worker, Nicolas Maduro.” (D.I. 42-1 Ex. 112 at 1)
PDVSA has also stated that one of its objectives is to
“guarantee control by the State over [PDVSA].” (D.I.
5-1 Ex. 60)
Finally, Venezuela has designated PDVSA as an
expropriating entity, thereby authorizing it to
exercise a sovereign power. (Id. Exs. 86-88, 99)
All of the foregoing is further evidence supporting
the Court’s conclusion.
vii. PDVSA’s contrary interpretation
wrongly fails to account for the
totality of the evidence
PDVSA recognizes the support in the record for
the Court’s findings identified above. Indeed, as
Crystallex notes, the evidence here is “largely
undisputed,” as PDVSA has instead “focus[ed] its
challenges on the inferences that may be drawn from
the undisputed facts.” (D.I. 52 at 2) PDVSA’s
arguments against concluding an alter ego
relationship exists rest largely on disputing the
relevance of Crystallex’s evidence and insisting that
none of the above-listed findings individually
transforms PDVSA into Venezuela’s alter ego.
The Court disagrees with PDVSA’s protestations
that all of Crystallex’s evidence is irrelevant. (See,
e.g., Tr. at 47 (“extensive regulation by an oil
producing state of its hydrocarbon industry” is
irrelevant); id. at 54 (characterizing as irrelevant
whether Venezuela itself benefitted from acts taken
by PDVSA); id. at 55 (contending designation of

103a
PDVSA as expropriating entity, use by Venezuela of
PDVSA property without reimbursement, and sale of
oil to other countries at reduced prices are “totally
irrelevant”)) Based on the caselaw discussed in this
Opinion, the Court concludes that all of the
considerations on which the Court has relied are
relevant to the issue of whether Venezuela so
extensively controls PDVSA, including its day-to-day
conduct, that it should be treated as Venezuela’s alter
ego for purposes of application of the FSIA. As has
been noted repeatedly in this Opinion, Bancec did not
establish a mechanical formula for courts to apply. It
is appropriate for the Court to consider the totality of
circumstances that either side wishes to present.
Much of PDVSA’s attack on Crystallex’s showing
consists of dissecting the totality of Crystallex’s
evidence and arguing that no single piece of evidence
renders PDVSA the alter ego of Venezuela. (See, e.g.,
D.I. 26 at 20 (“mere fact that a government
instrumentality benefits from the actions of the
government does not demonstrate an abuse of the
corporate form”); id. at 33-34 (“mere fact that PDVSA
may have been designated as an expropriating entity
in certain other cases is not grounds for disregarding
its separate legal personality”); id. at 35-36
(contending that Venezuela’s use of PDVSA’s planes
“would not support” veil piercing); id. at 35
(contending sale of oil to other countries on deferred
payment and other favorable terms “do[es] not
support a finding of alter ego liability”)) Of course, no
single piece of evidence in the record is sufficient on
its own to enable Crystallex to meet its burden, but of
course that also is not what the law requires. Again,
the Court must consider all of the evidence in the
record. When it does so, the Court finds that it

104a
sufficiently proves, by a preponderance of the
evidence, that PDVSA is the alter ego of Venezuela.
PDVSA also characterizes itself as merely a
“typical” national oil company, the type of creature
that Bancec compels must retain its separate
juridical status. (See Tr. at 53 (“[A]ll they have shown
is that it is the same as other national oil
corporations that are owned by petrol states.”); see
also D.I. 26 at 2 (arguing PDVSA is “nothing more
than a ‘typical government instrumentality’”)
(quoting Bancec)) While the Court agrees with
PDVSA that it possesses many of the characteristics
Bancec, 462 U.S. at 624, 103 S.Ct. 2591, ascribed to
“typical” government instrumentalities – it was
created by an enabling statute, is managed by a
board selected by the government, has powers to hold
and sell property and sue and be sued, and is
primarily responsible for its own finances – PDVSA
also has numerous other characteristics, which the
Court has described above in detail. Considering the
totality of the evidence, the Court finds that PDVSA
is not merely a “typical government instrumentality”
but is the alter ego of Venezuela.
viii. The parties’ declarations confirm
the Court’s findings
The Court’s findings described above are further
supported by the declarations the parties submitted.
Together, Crystallex and PDVSA have filed six
substantive declarations: two each from Dr. Roberto
Rigobon and Professor Jose Ignacio Hernandez, who
endorse Crystallex’s view that PDVSA is the alter ego
of Venezuela; and one each from Professor Luis A.
Garcia Montoya and Mr. Alejandro Schmilinsky,
supporting PDVSA’s view that the two entities are

105a
properly viewed as separate. (See D.I. 7, 8, 28, 29, 35,
36) 28 While there are certainly disputes among the
various declarations, to the limited extent those
disputes are material, the Court resolves them in
favor of Crystallex, for the reasons explained below.
Dr. Rigobon, a professor of management at the
Massachusetts Institute of Technology and Research
Associate of the National Bureau of Economic
Research, opines on the economic realities of the
relationship between PDVSA and Venezuela,
specifically concluding that: (1) the Venezuelan
Government exercises complete economic control over
PDVSA’s day-to-day operations; (2) Venezuela relies
on PDVSA to sustain its economy; and (3) the
Venezuelan Government uses PDVSA for political
purposes. (See D.I. 7 at ¶¶ 7-9) Dr. Rigobon also
explains that PDVSA was created by Presidential
Decree and initially behaved “like an economicallydriven company,” including by setting its own budget,
making its own decisions, and promoting, hiring, or
firing its own staff. (See id. at ¶ 11) Then, however, in
2002 and 2003, the Government began getting
involved in PDVSA’s affairs, effectively converting
the formerly commercial-minded PDVSA into the
present State-controlled “New PDVSA.” (See id. at ¶¶
11-13)
This transformation was accomplished by the
Government’s
appointment
of
then-President
Chavez’s “most trusted allies” to manage PDVSA,
creating “substantial overlap between the [PDVSA]
Board of Directors and senior members of the
Government.” (Id. at ¶¶ 13-14) In 2002, the
Other declarations in the record (see, e.g., D.I. 4-6, 27, 34, 42,
47) transmit documents and additional evidence to the Court.
28

106a
Government began requiring PDVSA to contribute
monetarily to Venezuela, directly through oil
revenues (totaling $119 billion from 2010 to 2016)
and “extraordinary taxes,” and indirectly through
social programs such as FONDEN (to which, PDVSA
contributed more than $34 billion from 2010 to 2016)
and other programs created to subsidize consumer
housing and gasoline purchases through PDVSA. (See
id. at ¶¶ 15, 21, 23-29; see also D.I. 36 at ¶ 2)
Regarding PDVSA’s day-to-day operations, Dr.
Rigobon opines that “Venezuela dictates the quantity
of oil that PDVSA must produce (partly through
OPEC [29] commitments), the parties to which PDVSA
must sell its oil, and the price at which PDVSA must
sell its oil.” (D.I. 7 at ¶ 30) The Government does this,
in part, through Petrocaribe, an agreement pursuant
to which Venezuela committed PDVSA to supply oil
to 17 Caribbean countries on favorable economic
terms, and similar agreements Venezuela entered
into with China and Russia, all to enable Venezuela
to “reap[ ] enormous political benefits.” (Id. at ¶¶ 3137) Venezuela controls PDVSA’s oil production levels
and regulates the price at which all refined products
are sold in Venezuela, often causing PDVSA to suffer
a loss in profits. (Id. at ¶ 38)
Dr. Rigobon agrees with Professor Montoya that
PDVSA is “financially autonomous” from Venezuela
(see below), but persuasively opines how “[a]ll that
means ... is that the budget of Venezuela and the
budgets of State-owned companies are governed
differently;” it does not mean that “PDVSA operates
independently from Venezuela as a practical matter
Organization of Petroleum Exporting Countries. (See D.I. 26
at 8)

29

107a
(it does not).” (D.I. 36 at ¶ 3) The Court agrees with
Dr. Rigobon that even if “PDVSA is on paper an
independent organization from the Venezuelan
Government,” PDVSA is not “a de-facto independent
organization.” (Id.)
Professor Hernandez, Crystallex’s Venezuelan law
expert, opines that “Venezuela and PDVSA are one
and the same as a matter of Venezuelan law.” (D.I. 8
at ¶ 7) He describes the Public Administration
Organic Law, which “nominally” recognizes PDVSA’s
“own legal personality,” but in fact allows PDVSA’s
“activities” to be “controlled by the National
Executive Branch by ‘control agencies or entities.’”
(Id. at ¶¶ 13-14) Professor Hernandez further
observes that the Venezuelan Supreme Court has
recognized that PDVSA has all the “privileges” of the
Republic, and “although PDVSA is a company
constituted and organized as a corporation,” as is
enshrined in the country’s Constitution, PDVSA
nonetheless “falls within the framework of the
general
structure
of
the
National
Public
Administration.” (Id. at ¶ 16)
Professor Hernandez also explains how Venezuela
has used PDVSA to assist in the Government’s
expropriation objectives. (See id. at ¶¶ 22-25) He
opines as to the Government’s formulation of
PDVSA’s pricing policies and management of
PDVSA’s employment policies (see id. at ¶¶ 19-21),
the overlap of directors and officers between PDVSA
and the Government (see id. at ¶¶ 28-33), the
Government’s
increased
control
after
the
establishment of “New PDVSA” (see id. at ¶¶ 34-38),
and the use of PDVSA to achieve Venezuela’s social
and political objectives (see id. at ¶¶ 39-50). Citing
the opinions of various “learned commentators,” all of

108a
whom have concluded that “PDVSA and its affiliates
are considered a state company of a unique nature”
(id. at ¶ 26), Professor Hernandez persuasively
concludes that whether PDVSA has its own legal
personality “has no bearing” on the reality that
Venezuela and PDVSA are not, in practice, separate
entities (D.I. 35 at ¶ 2).
On behalf of PDVSA, Professor Montoya, PDVSA’s
expert in Venezuelan law, opines that “PDVSA enjoys
a legal personality of its own as a corporation
separate and distinct from the Republic.” (D.I. 28 at ¶
4) In his view, “neither the importance of PDVSA in
the national economy nor the fact that it is highly
regulated changes the fact that PDVSA has all the
attributes in law of separate legal personality.” (Id.)
Additionally, Professor Montoya asserts that PDVSA
is “financially autonomous from the Republic,” “has
its own budget, and ... is subject to a budgetary
regime distinct from that of the Republic,” and that
various tweets and press reports cited by Crystallex
carry no legal significance under Venezuelan law.
(See id. at ¶¶ 28, 33)
Much of Professor Montoya’s declaration
emphasizes that, according to the PDVSA Bylaws,
PDVSA operates as a sociedad anónima (“SA”), a
corporate form having one or more shareholders,
which makes it clear PDVSA is not a department of
the Government. (See id. at ¶¶ 7-11, 18, 24-26) His
opinion is echoed by Mr. Schmilinsky, PDVSA’s
litigation corporate manager, who explains PDVSA’s
corporate structure – naming the various directors,
officers, and corporate managers – and points out
that PDVSA is an SA, whose only shareholder has

109a
ever been the Republic. (D.I. 29 at ¶¶ 4, 8-10) 30
Neither of Crystallex’s experts disagrees with this
conclusion: Dr. Rigobon and Professor Hernandez
acknowledge that PDVSA is an SA with its own legal
personality. (See D.I. 35 at ¶ 5; D.I. 36 at ¶ 3) But the
important point - which is the opinion of Crystallex’s
experts, as well as the finding of the Court, after
considering the totality of the evidence, including the
views of PDVSA’s experts – is that, in practice,
PDVSA operates as the alter ego of Venezuela.
Professor Montoya
further discusses the
distinction made in the Public Administration
Organic Law between Centralized Administration
departments, which do not have their own legal
personalities, and the Decentralized Administration,
which consists of entities, like PDVSA, which do have
their own legal personalities. (See D.I. 28 at ¶¶ 16-19)
Professor Montoya cites a decision by the Supreme
Tribunal of Justice (Constitutional Chamber), which
recognized “the legal nature of PDVSA as [an SA] and
confirmed that PDVSA is part of the Public
Administration, but not part of the Centralized
Administration.” (Id. at ¶ 18) Again, Crystallex’s
declarants do not challenge the facts of this
conclusion, just their significance, and again the
Court agrees with Crystallex’s view as to their
minimal importance.
ix. Conclusion as to exclusive control
test
Having

made

the

factual

findings

noted

Mr. Schmilinsky further states that “PDVSA is a stranger to
the dispute between Crystallex and the Republic.” (D.I. 29 at ¶
14)
30

110a
throughout the discussion above by a preponderance
of the evidence after considering all of the record
evidence cumulatively, the Court finds that
Crystallex has rebutted the presumption of
separateness and has shown that PDVSA may be
deemed the alter ego of Venezuela pursuant to the
exclusive control prong of Bancec and its progeny.
Therefore, Crystallex has proven the applicability of
an exception to PDVSA’s sovereign immunity. The
Court rejects PDVSA’s factual challenge to the
Court’s subject matter jurisdiction.
C. Crystallex Has Met Its Burden with Respect
to Execution Immunity
Having found that Crystallex has met its burden
to rebut the presumption of separateness between
PDVSA and Venezuela and proven that PDVSA is the
alter ego of Venezuela, and therefore no jurisdictional
immunity prevents the Court from having authority
to resolve the parties’ disputes, the Court must next
determine whether Crystallex has also overcome the
immunities embodied in the FSIA relating to
attachment and execution on property held by foreign
sovereigns in the United States. On this issue, while
again PDVSA’s motion can be read as raising both
facial and factual attacks, the analysis essentially
overlaps and, hence, can be conducted once.
Three issues are presented: (i) which statutory
provision applies, (ii) has the property Crystallex
seeks to attach – the shares of Delaware corporation
PDVH – been used for commercial activity, and (iii)
even if the shares have been so used, are they
currently being used for commercial activity, which
requires consideration of certain Executive Orders
issued by the U.S. Treasury Department’s Office of

111a
Foreign Asset Control (“OFAC”). The Court addresses
each in turn.
1. The Court Applies § 1610(a), Not § 1610(b)
“[T]he FSIA codifies the common-law rule that
property of a foreign state in the United States is
presumed immune from attachment and execution.
To overcome the presumption of immunity, the
plaintiff must identify the particular foreign-state
property he seeks to attach and then establish that it
falls within a statutory exception.” Rubin, 637 F.3d at
796. “The party in possession of the property may
raise the immunity or the court may address it sua
sponte.” Id. at 801.
While “the execution immunity afforded sovereign
property is broader than the jurisdictional immunity
afforded the sovereign itself,” Walters, 651 F.3d at
289, the statutory framework for attachment and
execution immunity mirrors that for jurisdictional
immunity. Attachment and execution immunity are
governed by FSIA § 1609, subject to specific
exceptions to that immunity recited in §§ 1610 and
1611.
Section 1609 provides:
Subject
to
existing
international
agreements to which the United States
is a party at the time of enactment of
this Act the property in the United
States of a foreign state shall be
immune from attachment arrest and
execution except as provided in sections
1610 and 1611 of this chapter.
28 U.S.C. § 1609.

112a
Section 1610 identifies exceptions to immunity
based on whether the property subject to attachment
is that of a foreign state, § 1610(a), or of an agency or
instrumentality of a foreign state, § 1610(b). “[T]he
property of an agency or instrumentality of a foreign
state is afforded narrower protection from execution
than the property of the foreign state itself.” Walters,
651 F.3d at 289-90.
For property of a foreign state to be subject to
attachment under § 1610(a), it must be “used for a
commercial activity in the United States” and, under
the subsection implicated here, § 1610(a)(6), the
attachment must be in aid of a judgment “based on
an order confirming an arbitral award rendered
against the foreign state” (emphasis added). Under
the broader exceptions to immunity under § 1610(b),
attachment is proper where the agency “engaged in
commercial activity in the United States,” regardless
of whether the particular property subject to
attachment was used for commercial activity
(emphasis added). Therefore, the Court must
determine whether to apply § 1610(a) or § 1610(b).
Although there is no dispute that PDVSA is an
agency of Venezuela (see D.I. 28 at 4-8, 12-14; D.I. 35
at 2, 4; D.I. 36 at 3) and, therefore, one might expect §
1610(b) to apply, because the Court concludes that
PDVSA is to be treated as Venezuela’s alter ego for
purposes of jurisdictional immunity, PDVSA must
also be treated as Venezuela’s alter ego for purposes
of execution immunity. Therefore, the property
subject to attachment – PDVSA’s shares in PDVH –
may properly be considered property of Venezuela,
implicating § 1610(a).
Moreover, Crystallex expressly moves only under

113a
§ 1610(a) – and PDVSA appears to agree that only §
1610(a) applies. (See Tr. at 6 (“[W]e have filed a
motion under the FSIA, Section 1610(a).”); see also
D.I. 3-1 at 25 (citing § 1610(a), (c)); D.I. 33 at 7 n.6
(same); D.I. 52 at 3 (relying on § 1610(a)); D.I. 26 at
37 (PDVSA stating, “where, as here, a judgment
creditor of a foreign state attempts to reach the
assets of an agency or instrumentality on the theory
that it is the alter ego of the state under Bancec, the
judgment creditor must satisfy the more restrictive
exceptions to execution immunity set forth in Section
1610(a)”); D.I. 51 at 4 (relying on § 1610(a)) 31 Thus,
the Court will apply § 1610(a).
2. Used For Commercial Activity
As identified above, Crystallex proceeds under §
1610(a)(6), which recites:
(a) The property in the United States of
a foreign state ... used for a commercial
activity in the United States, shall not
be immune from attachment in aid of
execution, or from execution, upon a
judgment entered by a court of the
United States or of a State after the
effective date of this Act, if ...
(6) the judgment is based on an order
confirming
an
arbitral
award
rendered against the foreign state,
In the event that § 1610(b) were held to apply, the Court
would be required to deny the requested writ, as Crystallex
cannot meet its burden to show applicability of any exception to
immunity enumerated in § 1610(b), as it has failed to prove (or
even allege) waiver of attachment immunity by PDVSA or
jurisdiction under §§ 1605(a)(2), (3), (5), (7), 1605(b), or 1605A.
Nor does Crystallex have a judgment against PDVSA.
31

114a
provided that attachment in aid of
execution, or execution, would not be
inconsistent with any provision in
the arbitral agreement.[32]
As it is undisputed that Crystallex’s judgment is
based on an order confirming an arbitral award
rendered against Venezuela, PDVSA’s shares in
PDVH are subject to post-judgment attachment and
execution if they are “used for commercial activity in
the United States.” 28 U.S.C. § 1610(a). 33
“[P]roperty is ‘used for a commercial activity in
the United States’ when the property in question is
put into action, put into service, availed or employed
for a commercial activity, not in connection with a
commercial activity or in relation to a commercial
activity.” Af-Cap Inc. v. Chevron Overseas (Congo)
Ltd., 475 F.3d 1080, 1091 (9th Cir. 2007). The FSIA
defines a “commercial activity” as “either a regular
course of commercial conduct or a particular
Section 1610(c) details the procedural requirements for an
attachment under § 1610(a) or (b), requiring the Court to first
determine that “a reasonable period of time has elapsed
following the entry of judgment” and that any required notice is
given. It is undisputed that these procedural requirements have
been met. (See D.I. 4 Ex. 8) (D.C. Court finding reasonable time
elapsed)
32

“[A] foreign sovereign’s property is subject to execution under
§ 1610(a) only when the sovereign itself uses the property for a
commercial activity.” Rubin v. Islamic Republic of Iran, 830 F.3d
470, 479 (7th Cir. 2016); see also Conn. Bank of Commerce v.
Republic of Congo, 309 F.3d 240, 256 n.5 (5th Cir. 2002)
(“[W]hat matters under the statute is how the foreign state uses
the property, not how private parties may have used the
property in the past.”). As PDVSA is the alter ego of Venezuela,
it follows that PDVSA’s use of the PDVH assets for commercial
activity can be said to be the sovereign’s use.
33

115a
commercial transaction or act. The commercial
character of an activity shall be determined by
reference to the nature of the course of conduct or
particular transaction or act, rather than by
reference to its purpose.” 28 U.S.C.A. § 1603(d).
“[B]ecause the [Foreign Sovereign Immunity] Act
provides that the commercial character of an act is to
be determined by reference to its ‘nature’ rather than
its ‘purpose,’ the question is not whether the foreign
government is acting with a profit motive or instead
with the aim of fulfilling uniquely sovereign
objectives. Rather, the issue is whether the particular
actions that the foreign state performs (whatever the
motive behind them) are the type of actions by which
a private party engages in ‘trade and traffic or
commerce.’” Weltover, Inc., 504 U.S. at 614, 112 S.Ct.
2160 (internal citation omitted). 34 In general, if the
sovereign state is using property in the same manner
as a private citizen could, then it is being used for a
commercial purpose. If, alternatively, the property is
being used in a manner that only a sovereign state
can use it, then it is not being used for a commercial
purpose and cannot be attached. See, e.g., id. at 61415, 112 S.Ct. 2160 (“[A] foreign government’s
issuance of regulations limiting foreign currency
While PDVSA takes issue with Crystallex’s reliance on
Weltover due to its discussion of “commercial activity” arising in
the context of jurisdictional immunity, not execution activity
(see D.I. 26 at 39 n.14), courts have noted that “in defining
‘commercial activity,’ [the FSIA] does not provide any different
definition for § 1605 versus § 1610. Courts have therefore
applied decisions concerning immunity under § 1605 to construe
the scope of ‘commercial activity’ under § 1610.” Aurelius
Capital Partners, LP v. Republic of Argentina, 2009 WL 755231,
at *13 (S.D.N.Y. Mar. 12, 2009), rev’d and vacated on other
grounds, 584 F.3d 120 (2d Cir. 2009).
34

116a
exchange is a sovereign activity, because such
authoritative control of commerce cannot be exercised
by a private party; whereas a contract to buy army
boots or even bullets is a ‘commercial’ activity,
because private companies can similarly use sales
contracts to acquire goods ...”).
In determining whether property is used for a
commercial purpose, the Court must “make factual
findings concerning how the property was used” and
“reach legal conclusions concerning whether that
particular use was ‘for commercial purposes.’” Af-Cap
Inc. v. Republic of Congo, 383 F.3d 361, 368 (5th Cir.),
decision clarified on reh’g, 389 F.3d 503 (5th Cir.
2004). This requires “a more holistic approach,”
requiring the Court to “examine the totality of the
circumstances surrounding the property.” Id. at 369.
Crystallex contends that PDVSA – and therefore,
Venezuela – uses the PDVH shares for commercial
activity by “exercising its rights as a shareholder”
and using the shares to name directors of PDVH and
to approve contracts. (D.I. 52 at 3) Crystallex further
contends that PDVSA uses the PDVH shares to
conduct commercial business through PDVH’s
wholly-owned subsidiary, CITGO, a Delaware
corporation. (Id. at 4) PDVSA responds that
“Crystallex cannot demonstrate that PDVSA uses the
PDVH shares for a commercial activity in the United
States” (D.I. 26 at 39) and has “presented no evidence
concerning PDVSA’s use of the PDVH shares” (D.I. 51
at 4).
The Court finds by a preponderance of the
evidence that the PDVH shares are being “used for a
commercial purpose” by PDVSA and, therefore, may
be attached (and executed on) as property of

117a
Venezuela’s alter ego. 35 The PDVH shares are used
for a commercial purpose because, through them,
PDVSA manages its ownership of PDVH and,
consequently, CITGO, 36 in the United States. See In
re 650 Fifth Ave., 2014 WL 1516328, at *17 (S.D.N.Y.
Apr. 18, 2014), vacated on other grounds and
remanded sub nom. Kirschenbaum v. 650 Fifth Ave.
& Related Props., 830 F.3d 107 (2d Cir. 2016) (stating
shares in company “were also used for commercial
activity, because they were the mechanism through
which the partners owned the Building and
determined the distribution of revenue that it
produced”).
Specifically, Venezuela – through PDVSA – uses
the shares to appoint directors, approve contracts,
and pledge assets as security for PDVSA’s debt. (See,
e.g., D.I. 42 Ex. 110 (news article announcing
Venezuelan President Nicolás Maduro appointed
Asdrúbal Chávez as new president of Citgo); D.I. 52
Ex. B at 14 (PDVSA’s “main operating segments” use
shares to conduct “[r]efining, trade and supply
activities in the United States of America
PDVSA insists that Crystallex has not met its burden to
overcome the presumption of immunity from attachment by
clear and convincing evidence. (D.I. 51 at 4) For reasons already
explained in connection with exceptions to jurisdictional
immunity, the Court agrees with Crystallex that its burden of
proof is a preponderance of the evidence, and not clear and
convincing evidence.
35

As PDVSA acknowledges: “PDVSA owns 100% of the shares of
PDVH, a Delaware corporation, which in turn owns 100% of the
shares of CITGO Holding, Inc., which in turn owns 100% of the
shares of CITGO Petroleum Corp. (“CITGO”), a multi-billion
dollar Delaware corporation headquartered in Texas and
founded in 1910.” (D.I. 26 at 9)
36

118a
compris[ing] the administration of refineries and
gasoline and refined products marketing ... under the
CITGO® brand”); D.I. 52 Ex. A at 20 (PDVH may
pledge assets, including its CITGO shares, as security
for PDVSA’s debt)) As Crystallex states, “it is difficult
to imagine property with more of a commercial use
than shares of a Delaware for-profit corporation that
itself owns, through an intermediate holding
company, a multi-billion dollar Delaware petroleum
corporation.” (D.I. 33 at 18; see also H.R. Rep. No. 941487, at 16, 1976 U.S.C.C.A.N. 6604, at 6615 (1976)
(“Activities such as a foreign government’s ...
investment in a security of an American corporation
... would be among those included within the
definition of [‘commercial activity’].”). In sum,
Venezuela is using the shares of PDVH “not as a
regulator of a market, but in the manner of a private
player within it,” rendering its actions “‘commercial’
within the meaning of the FSIA.” Weltover, 504 U.S.
at 614, 112 S.Ct. 2160.
3. Can the PDVH Shares Be Used Now For
Commercial Activity?
The property subject to attachment - here the
PDVH shares – must also be “‘used for a commercial
activity’ at the time the writ of attachment or
execution is issued.” Aurelius Capital Partners, LP v.
Republic of Argentina, 584 F.3d 120, 130 (2d Cir.
2009). It is not sufficient that a foreign state’s
property in the United States “will be used” or “could
potentially be used” for a commercial activity in the
United States. Id.; see also City of Englewood v.
Socialist People’s Libyan Arab Jamahiriya, 773 F.2d
31, 36, 37 (3d Cir. 1985) (“The determinative issue is
whether [the property] is currently being used in a

119a
‘regular course of commercial conduct’ [and not
whether] the property was acquired by [the foreign
state] in a commercial transaction.”).
PDVSA contends the PDVH shares are “effectively
frozen” and cannot be used for a commercial activity
(D.I. 51 at 4) because Executive Order 13808, entitled
“Imposing Additional Sanctions With Respect to the
Situation in Venezuela,” 82 Fed. Reg. 41,155 (Aug.
29, 2017), precludes the issuance of dividends (D.I. 26
at 40; D.I. 54 at 3), while Executive Order 13835,
“Prohibiting Certain Additional Transactions With
Respect to Venezuela,” 83 Fed. Reg. 24,001 (May 24,
2018), and related OFAC guidance, together prohibit
attachment and execution of the PDVH shares (D.I.
63 at 2). (See Tr. at 34) (PDVSA arguing, “what the
Executive Order says is you cannot purchase equity
from Venezuela in the United States” and “[t]here
can’t be a buyer in the United States”)
Crystallex responds that “selling these shares so
that a judgment of a United States Court could be
satisfied is not what these sanctions are trying to
prevent.” (Tr. at 76) According to Crystallex,
“Executive Order [13808] does not change that PDVH
is a commercial enterprise and that PDVSA’s shares
are used for commercial activity – the management of
its commercial operations in the United States....
PDVSA retains the ability to use the shares to name
directors and approve contracts submitted to
shareholders for approval.... PDVSA can still pledge
its PDVH shares to secure its own short term debt (a
commercial use).” (D.I. 52 at 5) Moreover, Crystallex
contends that the PDVH shares are equity securities,
and OFAC has specifically allowed such dealings in
equity, notwithstanding the Executive Order. (Id.)
(quoting D.I. 34 Ex. 107)

120a
The Court agrees with Crystallex. Once a foreign
state has used property in commerce, that property
continues to satisfy the commercial use requirement
unless that property becomes “cordoned off for use of
the [foreign state] in its sovereign capacity.” Af-Cap,
383 F.3d at 370. Thus, it is presumed that the use of
the property for commercial activity is continuing, in
the absence of evidence to the contrary. PDVSA has
presented no evidence to the contrary, other than
pointing to the Executive Orders, which, for reasons
now to be explained, do not preclude the possibility
that the PDVH shares are continuing to be “used for
a commercial activity.” 37
i. Executive Order 13808
Executive Order 13808 provides, in pertinent part:
Section 1. (a) All transactions related to,
provision of financing for, and other
dealings in the following by a United
States person or within the United
States are prohibited:
...
(iv) dividend payments or other
distributions of profits to the
Government of Venezuela from any
entity owned or controlled, directly
or indirectly, by the Government of
Venezuela.
Notably, both Executive Orders expressly define PDVSA as
the “Government of Venezuela.” (D.I. 34-1 Ex. 106 at 1-2; D.I. 63
at 2; see also Tr. at 71-72 (PDVSA counsel admitting as much))
While this statement does not constitute a finding of fact to
which the Court must defer, it appears that the Executive
Branch’s view is consistent with the Court’s conclusions.
37

121a
(b) The purchase, directly or indirectly,
by a United States person or within the
United States, of securities from the
Government of Venezuela, ... is
prohibited.
82 Fed. Reg. 41,155 (Aug. 29, 2017); see also D.I. 26
at 40.
This Executive Order, directed to dividend
payments and purchases of securities, has no impact
on PDVSA’s ability to carry on the commercial
activities based on exercise of shareholder rights (e.g.,
replacing board members, pledging assets). Section
1(a)(iv) does not render the PDVH shares noncommercial property because it does not prohibit
PDVSA from exercising all ownership rights. Section
1(b) also does not render the PDVH shares
noncommercial property or otherwise pose a bar to
the relief Crystallex seeks. Upon attachment, the
PDVH shares would not be paid or distributed to
Venezuela but, eventually, to Crystallex. In fact, as
Crystallex states, “PDVSA can and does continue to
engage in a wide array of commercial uses of the
shares, such as: naming directors and officers,
including, for example, the president of PDVH’s
indirect subsidiary, CITGO Petroleum, months after
sanctions were imposed; running large-scale gas
refining and marketing operations in the United
States; and directing PDVH (and its subsidiaries) to
enter into related-party transactions for PDVSA’s
benefit, including the sale of PDVSA’s (low quality)
oil to CITGO Petroleum.” (D.I. 53 at 3) (citing
evidence)
Moreover, the PDVH shares are equity securities
and the OFAC has instructed that “[e]ngaging in

122a
transactions related to, providing financing for, or
otherwise dealing in any equity issued by, on behalf
of, or for the Government of Venezuela is permissible,
if the equity was issued prior to the effective date of
[the Executive Order].” (D.I. 34-1 Ex. 107 at 2; see
also id. (“The term equity includes stocks, share
issuances, depositary receipts, or any other evidence
of title or ownership.”)) The shares of PDVH that
Crystallex seeks to attach were issued before the
Executive Order was adopted. The Court, thus,
concludes that Executive Order 13808 does not pose a
bar to the relief it has granted today. 38 The Court
further notes that nothing about its ruling today is
inconsistent with the letter or spirit of the Executive
Order, which seems intended to deprive Venezuela of
certain assets and opportunities, not to prevent
legitimate judgment creditors in United States
Courts to be made whole by Venezuela. (See Tr. at 25)
(Crystallex stating, “the idea is that this was, put
bluntly, to punish Venezuela, not to punish people
who were owed money by Venezuela”)
ii. Executive Order 13835
PDVSA contends that Executive Order 13835 and
OFAC Frequently Asked Question (“FAQ”) No. 596,
issued July 19, 2018, “confirm PDVSA’s argument
that U.S. sanctions prohibit the attachment and
execution of the shares of its wholly-owned Delaware
subsidiary, PDVH.” (D.I. 63 at 2; see also Aug. Tr. at
24 (PDVSA characterizing FAQ No. 596 as “most on
point” of FAQs parties have discussed))
It may be that this Executive Order will have some
applicability to any transaction Crystallex might seek to
undertake with the PDVH shares once they are attached, but it
does not, in the Court’s view, prevent the attachment.
38

123a
Executive Order 13835 states, in part:
Section 1. (a) All transactions related to,
provision of financing for, and other
dealings in the following by a United
States person or within the United
States are prohibited:
....
(iii) the sale, transfer, assignment, or
pledging as collateral by the
Government of Venezuela of any
equity interest in any entity in which
the Government of Venezuela has a
50 percent or greater ownership
interest.
83 Fed. Reg. 24001 (May 21, 2018); see also D.I. 63 at
1-2.
FAQ 596 provides:
596. Does E.O. 13835 prohibit me
from attaching and executing
against assets of the Government of
Venezuela,
including
vessels,
properties, or financial assets, if I
have a legal judgment against the
Government of Venezuela?
No, provided that the attachment does
not involve (i) debt owed to the
Government of Venezuela (including
accounts receivable) that was pledged as
collateral after the effective date of E.O.
13835 (per subsection 1(a)(ii) of the
E.O.), or (ii) an equity interest in any
entity in which the Government of

124a
Venezuela has a 50 percent or greater
ownership interest (per subsection
1(a)(iii)
of
the
E.O.).
OFAC
authorization would likely be required
for attachment of equity interest in any
entity in which the Government of
Venezuela has a 50 percent or greater
ownership interest, OFAC would
consider license applications seeking to
attach and execute against such equity
interests on a case-by-case basis.
OFAC FAQs: Other Sanctions Programs, Venezuela
Sanctions? 39
On the same day OFAC issued FAQ 596, it also
issued FAQ 595, which states:
595. Why is OFAC issuing General
License 5?
Subsection 1(a)(iii) of E.O. 13835
prohibits U.S. persons from being
involved in the transfer by the
Government of Venezuela (GOV) of any
equity interest in any entity owned 50
percent or more by the GOV, as well as
related transactions in the United
States. Subsequent to the issuance of
E.O. 13835, OFAC received inquiries
about how and whether subsection
1(a)(iii) of E.O. 13835 could affect the
ability to enforce bondholder rights to
the CITGO shares serving as collateral
for the PdVSA 2020 8.5 percent bond.
See https://www.treasury.gov/resource-center/faqs/Sanctions/Pages/faq_other.aspx#venezuela.
39

125a
Subsection 1(a)(iii) of E.O. 13835
hinders the Maduro regime’s ability to
dispose of interests in entities owned 50
percent or more by the GOV at terms
unfavorable to the Venezuelan people.
Authorizing bondholders to enforce
rights related to the PdVSA 2020 8.5
percent bond prevents the Maduro
regime from using the EO to default on
its
bond
obligations
without
consequence. In order to provide that
authorization, OFAC is issuing General
License 5, which removes E.O. 13835 as
an obstacle to holders of the PdVSA
2020 8.5 percent bond gaining access to
their collateral, and keeps sanctions
pressure where it belongs – on the
Maduro regime.
Id.
According to Crystallex, FAQ 596 specifically
allows attachment and execution of Venezuelan
assets and while FAQ 595 “addresses a specific class
of creditors, the same reasoning applies to other
creditors such as Crystallex.” (D.I. 64 at 2) Crystallex
further contends that while, in response to FAQ 596,
“OFAC did advise – in a non-binding FAQ response –
that a license would likely be needed before
attachment and execution could be completed, ... that
has no impact on the question of whether this Court
can or should authorize the relief sought by the Writ
Motion in the first instance.” (Id.)
The
Court
agrees
with
Crystallex.
Notwithstanding PDVSA’s assertion, it is not correct
that “OFAC’s published views confirm PDVSA’s

126a
argument that the U.S. sanctions prohibit the
attachment and execution of the shares of its whollyowned Delaware subsidiary, PDVH.” (D.I. 63 at 2)
(emphasis added) Instead, the OFAC guidance
confirms that attaching the PDVH shares “would
likely ... require[ ]” OFAC authorization, and that, if
such authorization were sought, OFAC would
evaluate it “on a case-by-case basis.” OFAC FAQs:
Other Sanctions Programs, Venezuela Sanctions.
Accordingly, the Court concludes that Executive
Order 13835 does not pose a bar to granting the relief
it has granted today. 40
D. Additional Issues Raised by PDVSA
Although most of PDVSA’s arguments against
granting Crystallex’s requested writ have been
addressed in the course of resolving the many issues
discussed to this point in this Opinion, several
additional contentions merit brief discussion. None,
however, alters the outcome.
1. Prejudgment Attachment
PDVSA warns that granting the relief sought by
Crystallex will amount to a prejudgment attachment,
which is precluded by § 1610(d). (See, e.g., D.I. 71 at 3
(“[T]his Court cannot attach or otherwise restrain
PDVSA’s shares of PDVH unless and until it enters
40
In its letter of July 24, 2018, Crystallex represented that
OFAC had issued a license to a previously undisclosed thirdparty, [Redacted] As Venezuela has not yet made such
payments, [Redacted] Crystallex “can and will seek clarification
of the current license ... and/or the issuance of an additional
license to cover the eventual execution sale of the shares of
PDVH once the Writ has issued.” (Id. at 3) The Court agrees
with PDVSA that [Redacted] But these facts do not alter the
Court’s rulings.

127a
judgment against PDVSA ....”); Tr. at 64) The Court
rejects this view and instead agrees with Crystallex
that it has a judgment: the confirmed and registered
arbitration judgment against Venezuela. (See, e.g.,
Tr. at 78; Aug. Tr. at 30 (“It’s not that we cleverly
labeled this as a Rule 69 motion. It is that we cleverly
already won our case against the Government of
Venezuela and we don’t have to file it again and
again in every court in the land.”)) Crystallex is not
seeking to add PDVSA to that judgment. Provided
that, as the Court has found, any sovereign immunity
that would otherwise protect PDVSA and its specified
property has been overcome — by the judgment
against Venezuela, the finding that PDVSA is
Venezuela’s alter ego, and the findings with respect
to the “commercial” use of the PDVH shares – then
the FSIA is no bar to the relief sought by Crystallex.
in this context, it is simply incorrect to call what the
Court is doing an improper prejudgment attachment
on PDVSA’s property. 41

Some of the weight PDVSA’s contention might otherwise carry
is countered by the Court’s finding, as a factual matter based on
the present record, that PDVSA is accurately treated as
Venezuela’s alter ego. Were the Court merely to have resolved
PDVSA’s facial challenge, and assessed only the sufficiency of
Crystallex’s allegations as opposed to having also weighed the
evidence, the argument that Crystallex is proceeding
“prejudgment” would have had more appeal (though nonetheless
still lack merit). (See, e.g., D.I. 54 at 2) (PDVSA arguing: “an
attachment of a putative alter ego’s property in advance of an
adjudication of whether the entity is an alter ego is
effectively a prejudgment attachment and would only pass
constitutional muster where the judgment creditor posts a
bond”) (emphasis added)
41

128a
2. PDVSA’s Non-Involvement with
Expropriation of Crystallex’s Property
Throughout
this
litigation,
PDVSA
has
emphasized the lack of allegations and evidence that
PDVSA had anything to do with “the facts and
circumstances that gave rise to [Crystallex’s] claim
for expropriation. It is a stranger to the entire
dispute.” (Tr. at 39; see also D.I. 51 at 3 (“[I]t is
undisputed that PDVSA was a complete stranger to
that transaction.”)) PDVSA is correct. The only
connection Crystallex even alleges between PDVSA
and the harm Crystallex Has suffered is that,
ultimately, Crystallex’s expropriated property was
given to PDVSA, which then converted part of it into
“billions of dollars.” (Aug. Tr. at 40; see also Tr. at 73
(“[B]asically we had a contract to develop this mine.
[Venezuela] took that contract away from us and they
gave the mine without the license to PDVSA which
went around and sold ... 40 percent of it for $2.4
billion.”); see also D.I. 5-1 Exs. 78-82 (showing
PDVSA ended up with rights to gold mines)) 42
It is also undisputed that PDVSA was not a party to the
arbitration and its name is not mentioned in the arbitration
award. (See D.I. 51 at 2-3) Although PDVSA has frequently
emphasized this fact, too, it does not impact the pending
motions, given the Court’s conclusions of law and findings of fact
as explained throughout this Opinion. Essentially, it is just
another way of arguing that an independent basis of subject
matter jurisdiction is required in order to impose primary
liability on PDVSA for the arbitration judgment against
Venezuela. (See, e.g., Tr. at 48) (PDVSA suggesting Court needs
to ask itself “was PDVSA, as the agency or instrumentality,
involved in the underlying arbitration to the extent that I, this
Court, can say that it should be liable on the award”) These are
contentions the Court has thoroughly considered and rejected –
elsewhere in its analysis.
42

129a
But these facts do not undermine the Court’s
conclusions. Bancec does not require that the alter
ego, whose property is being attached and executed,
have been involved in the underlying conduct that
harmed the judgment creditor. (See Tr. at 85-86)
(Crystallex noting, “there was not remotely any claim
that Bancec had been involved at all in the
expropriation of the Citibank assets”) To the
contrary, Bancec shows that alter ego status is not
limited to “state conduct in which the instrumentality
had a key role,” as there the Cuban bank - which
Citibank sought to hold liable for Cuba’s seizure of
Citibank’s assets – played no role whatsoever in
Cuba’s seizure of those assets. See Bancec, 462 U.S.
at 619, 103 S.Ct. 2591; see also Kensington, 2007 WL
1032269, at *14-16 (finding state oil company liable
for nation’s default even though company was not
involved in underlying loan). 43
Although, as already noted, there is “no
mechanical formula” for assessing whether the
extensive control prong of Bancec has been satisfied,
the factors that have been developed by courts
applying Bancec have not included a requirement
that the purportedly “separate” entity has been
involved in the conduct that harmed the creditor. To
the contrary, as reiterated earlier this year by the
Supreme Court:
Over time, the Courts of Appeals
Notably, when the case was before the Court of Appeals, the
Second Circuit did hold that instrumentality involvement in the
underlying conduct was required. See Banco Para El Comercio
Exterior de Cuba v. First Nat’l City Bank, 658 F.2d 913, 919-20
(2d Cir. 1981). The Supreme Court’s contrary holding shows
that it disagreed. (See Aug. Tr. at 39-40)

43

130a
coalesced around the following five
factors (referred to as the Bancec
factors) to aid in this analysis;
(1) the level of economic control by the
government;
(2) whether the entity’s profits go to the
government;
(3) the degree to which government
officials manage the entity or otherwise
have a hand in its daily affairs;
(4) whether the government is the real
beneficiary of the entity’s conduct; and
(5) whether adherence to separate
identities would entitle the foreign state
to benefits in United States courts while
avoiding its obligations.
Rubin, 138 S.Ct. at 822-23 (internal quotation marks
omitted). 44 None of these commonly-considered
factors 45 suggests that rebutting the presumption of
separateness requires that both entities have been
involved in the underlying conduct. 46
Notably, Rubin also reiterated the disjunctive nature of the
Bancec analysis. See 138 S.Ct. at 822 (noting “liability would be
warranted, for example,” where extensive control “or” where
fraud or injustice prong is satisfied).
44

The commonly-considered factors as described in Rubin are
consistent with those the Court has considered in its analysis of
PDVSA’s facial and factual challenges, although they are stated
somewhat differently than the Second Circuit stated them in
EM Ltd. II.

45

The dicta in BRIDAS, 447 F.3d at 414-15, on which PDVSA
relies (see D.I. 26 at 18-19, 24) cannot establish the contrary
proposition.

46

131a
3. Judicial Estoppel
PDVSA has directed the Court’s attention to a
separate action Crystallex commenced against
PDVSA in the Hague. (See D.I. 26 at 21-22) Some of
the claims being pressed by Crystallex in the Hague
evidently were premised on PDVSA’s separateness
from the Republic. (See id.) PDVSA concludes that
“Crystallex should be precluded from pursuing such
fundamentally inconsistent positions in different
fora.” (Id. at 22; see also Tr. at 69-70)
The Court disagrees. As an initial matter, it is not
clear what law governs the Hague proceedings, and
the parties have not provided the Court with evidence
of (for example) Dutch law on conspiracy. Therefore,
the Court does not have a clear understanding of the
basis on which the Hague Court dismissed certain of
Crystallex’s claims. Moreover, Crystallex explains
that it was initially pressing multiple theories in the
Hague: some of them premised on PDVSA and
Venezuela being separate entities, some premised on
a different view. (See Tr. at 26-28) The Court has no
basis to conclude that maintaining alternative
theories, particularly at the outset of a case, is
improper in the Hague Court. More importantly,
doing so is expressly permitted under the Federal
Rules of Civil Procedure. See Rule 8. As those rules
govern this Court’s procedures, it is plain that
Crystallex is not judicially estopped from advocating
inconsistent theories in this very Court (something it
is not even accused of doing). It follows that it is also
not (at this point) judicially estopped from taking
inconsistent positions in different courts. Finally, as
Crystallex observes, estoppel of the type PDVSA
urges on the Court does not apply at least until a
party is successful in persuading a tribunal of one

132a
position and then seeks to persuade another tribunal
of a contradictory position. (See Tr. at 80) (citing New
Hampshire v. Maine, 532 U.S. 742, 121 S.Ct. 1808,
149 L.Ed.2d 968 (2001)) Crystallex has not prevailed
on its position in the Hague. (See id.)
4. Overbreadth of Crystallex’s position
PDVSA also highlights what it portrays as the
vast breadth of Crystallex’s position: if Crystallex is
correct that PDVSA is the alter ego of Venezuela,
then both entities are potentially liable for all of each
other’s liabilities, even where (as PDVSA contends is
true here) one entity had absolutely nothing to do
with the facts giving rise to the liability imposed on
the other. (See generally Tr. at 86-87) (Crystallex
responding to PDVSA’s charge) The Court does not
agree that this is the necessary outcome of granting
the requested writ. The writ is directed (as it must
be) to specifically-identified property, here the shares
of PDVH. Were Crystallex (or any other judgment
creditor of Venezuela) to wish to attach other
property belonging to PDVSA, it would have to prove,
by a preponderance of the evidence, that the
sovereign immunity otherwise applicable to that
property has been overcome – just as Crystallex has
done here. That will not always be possible; for
instance, the property might not be currently “used
for a commercial activity,” as required by §
1610(a)(6). This is an important distinction between
adding PDVSA to Crystallex’s judgment against
Venezuela – which would allow Crystallex to attach
any of PDVSA’s property to satisfy the judgment,
without additional proceedings, if, for example, the
proceeds from the sale of the shares it is attaching
are less than the full amount of its judgment – and
only attaching specific property, which is the result

133a
being permitted here.
Additionally, the record which has persuaded this
Court that PDVSA and Venezuela should be treated
as alter egos of one another may not be the same
record that is created in some other action. Indeed,
even in this case, the record may be supplemented in
the next stage of the proceedings (as is further
described below), which could potentially lead to
different findings. Other factfinders might deem the
record before them to justify different findings.
Further, the state law and procedures applicable in
any other District may well vary from those being
applied here, perhaps in material ways. (See
generally Aug. Tr, at 36) And the collateral estoppel
effect of any ruling from this Court will be a matter to
be decided by whatever other court is confronted with
these issues at a later time. (See id.)
Finally, even if PDVSA is right about the
implications of the Court’s holding today (and
Crystallex insists it is not 47), the Court cannot be
deterred from reaching the right conclusion, based on
the facts before it and the applicable law, just
because it fears the impact of its rulings.
E. Next Steps
By its decision today, the Court is holding that it
will, after conferring further with the parties about
additional details, direct the Clerk of Court to issue
to Crystallex a writ, which Crystallex will then have
the opportunity to serve and attach to PDVSA’s
See, e.g., Tr. at 16 (“They’re not being added to the ...
judgment, they’re just simply being told that the property they
have needs to be turned over to satisfy the underlying
judgment.”).
47

134a
property in Delaware, i.e., its shares in PDVH. Some
aspects of the parties’ dispute, however, remain
unsettled. These include: (i) how quickly should the
Court direct the writ to be issued, how quickly should
Crystallex be directed to serve it, and how quickly
must Crystallex execute on it; (ii) what is the
appropriate commercially reasonable procedure by
which to effectuate the sale of the PDVH shares, in
order to maximize the likelihood of a fair and
reasonable recovery, and how involved (if at all) does
the Court need to be in that sale process; 48 (iii) does
Crystallex, or alternatively a purchaser of the PDVH
shares, wish to (or need to) seek a license from OFAC
to permit the sale and, if so, when will it do so; and
(iv) will Venezuela, PDVSA, and/or any other entity
appear and seek to supplement the factual record
already developed in this litigation and, if so, will
such an entity attempt to (and, if so, be permitted to)
argue that additional evidence materially alters the
Court’s findings, and thereby seek to quash the writ?
See generally Hibou, Inc. v. Ramsing, 324 A.2d 777,
783 (Del. Super. Ct. 1974) (“[O]n a motion to quash
the order the Court as required by 10 Del. C. § 3506
must look at the Prima facie case presented to
ascertain whether the plaintiff has ‘a good cause of
action’ against all the defendants whose property has
been attached.”); D.I. 3-1 at 2 (Crystallex noting, “if
any party has a claim to the shares at issue, that
party can raise the issue with the Court after the writ
is served”); Tr. at 21, 23 (Crystallex recognizing
PDVSA, as well as perhaps PDVH and Venezuela,
The parties appear to agree that Delaware law requires
execution of shares of a Delaware corporation to be completed
through a “public sale.” (See D.I. 71 at 8 (citing 8 Del. C. § 324);
see also Aug. Tr. at 9, 20-21)

48

135a
may have right to “come back in and challenge the
writ”); D.I. 70 at 2 n.4 (Crystallex noting, “PDVSA
may, of course, seek to challenge the writ on nonjurisdictional grounds by a motion to quash brought
after the writ has issued and before the Court allows
the execution process to commence”).
In a separate Order being issued today, the Court
will direct the parties to provide their views as to the
timing and nature of the next steps in this
proceeding.
CONCLUSION
As PDVSA’s counsel succinctly and correctly
stated:
PDVSA is a presumptively separate
sovereign instrumentality that is
entitled to come to this court, invoke its
own sovereign immunity, and is
presumptively immune
from
the
court[’s] subject matter jurisdiction,
presumptively
separate
from
Venezuela, and its property is
presumptively
immune
from
attachment and execution.
(Aug. Tr. at 17) However, for reasons the Court has
endeavored to explain, at length, throughout this
Opinion, Crystallex has met its burden to rebut each
of these presumptions. Therefore, the Court will
grant Crystallex’s motion for an order authorizing the
issuance of a writ of attachment fieri facias (D.I. 2)
and deny PDVSA’s cross-motion to dismiss (D.I. 25).
An appropriate Order follows.

136a
ORDER
At Wilmington this 9th day of August, 2018:
For the reasons set forth in the Opinion issued on
this date, IT IS HEREBY ORDERED that:
1. Crystallex’s motion for an order authorizing the
issuance of a writ of attachment fieri facias, pursuant
to 28 U.S.C. § 1610(c) (D.I. 2), is GRANTED.
2. PDVSA’s cross-motion to dismiss for lack of
jurisdiction over the subject matter (D.I. 25) is
DENIED.
3. Because the Opinion has been issued under seal,
Crystallex and PDVSA shall meet and confer and, no
later than August 10, 2018 at 12:00 p.m., submit a
proposed redacted version, as well as for their
proposed redactions. Should Crystallex and PDVSA
meet their burden and timely request redactions, the
Court will consider their views before issuing a public
version of its Opinion.
4. Crystallex and PDVSA shall meet and confer and,
no later than August 16, 2018, submit a joint status
report providing their position(s) as to how this case
should now proceed.
5. The Clerk of Court is directed not to issue the writ
of attachment until after the Court issues an
additional Order following its review of the
forthcoming status report.

137a
APPENDIX C
IN THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
Nos. 18-2797 & 18-3124
CRYSTALLEX INTERNATIONAL
CORPORATION
v.
BOLIVARIAN REPUBLIC OF VENEZUELA;
PETROLEOS DE VENEZUELA, S.A.
[Filed: November 21, 2019]
Before: SMITH, Chief Judge, McKEE, AMBRO,
CHAGARES,
JORDAN,
GREENAWAY,
Jr.,
SHWARTZ, KRAUSE, RESTREPO, BIBAS, MATEY,
PHIPPS, and SCIRICA * Circuit Judges
SUR PETITION FOR REHEARING
The petitions for rehearing filed by Appellant
and Intervenor-Appellant in the above-entitled
cases having been submitted to the judges who
participated in the decision of this Court and to all
the other available circuit judges of the circuit in
regular active service, and no judge who concurred
in the decision having asked for rehearing and a
majority of the judges of the circuit in regular
service not having voted for rehearing, the petitions
for rehearing by the panel and the Court en banc
are denied.
By the Court,
s/ Thomas L. Ambro
Circuit Judge
*

Senior Judge Scirica is limited to panel rehearing only.

138a
Dated: November 21, 2019

139a
APPENDIX D
IN THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
Nos. 18-2797 & 18-3124
CRYSTALLEX INTERNATIONAL
CORPORATION
v.
BOLIVARIAN REPUBLIC OF VENEZUELA;
PETROLEOS DE VENEZUELA, S.A.
No. 18-2889
In re: PETROLEOS DE VENEZUELA, S.A.,
[Filed: July 29, 2019]
Before: AMBRO, GREENAWAY, JR.,
and SCIRICA, Circuit Judges
JUDGMENT
These causes came on to be heard on the record
before the United States District Court for the
District of Delaware and were argued on April 15,
2019.
On consideration whereof, IT IS ORDERED AND
ADJUDGED by this Court that the judgments of the
District Court entered August 9, 2018, and August
23, 2018, are hereby affirmed. Appellant’s petition
for a writ of mandamus is dismissed. Costs taxed
against Appellant. All of the above in accordance
with the opinion of this Court.
ATTEST:
s/ Patricia S. Dodszuweit
Clerk

140a

Dated: July 29, 2019
[SEAL]
Certified as a true copy and issued in lieu
of a formal mandate on 11/29/19
Teste: s/ Patricia S. Dodszuweit
Clerk, U.S. Court of Appeals for the Third Circuit

141a
APPENDIX E
1. 28 U.S.C. § 1330 provides:
Actions against foreign states
(a) The district courts shall have original jurisdiction
without regard to amount in controversy of any
nonjury civil action against a foreign state as defined
in section 1603(a) of this title as to any claim for
relief in personam with respect to which the foreign
state is not entitled to immunity either under
sections 1605-1607 of this title or under any
applicable international agreement.
(b) Personal jurisdiction over a foreign state shall
exist as to every claim for relief over which the
district courts have jurisdiction under subsection (a)
where service has been made under section 1608 of
this title.
(c) For purposes of subsection (b), an appearance by a
foreign state does not confer personal jurisdiction
with respect to any claim for relief not arising out of
any transaction or occurrence enumerated in sections
1605-1607 of this title.
2. 28 U.S.C. § 1604 provides:
Immunity of a foreign state from jurisdiction
Subject to existing international agreements to which
the United States is a party at the time of enactment
of this Act a foreign state shall be immune from the
jurisdiction of the courts of the United States and of
the States except as provided in sections 1605 to 1607
of this chapter.

142a
3. 28 U.S.C. § 1605 provides, in relevant part:
General exceptions to the jurisdictional
immunity of a foreign state
(a) A foreign state shall not be immune from the
jurisdiction of courts of the United States or of the
States in any case-(1) in which the foreign state has waived its
immunity either explicitly or by implication,
notwithstanding any withdrawal of the waiver
which the foreign state may purport to effect except
in accordance with the terms of the waiver;
(2) in which the action is based upon a commercial
activity carried on in the United States by the
foreign state; or upon an act performed in the
United States in connection with a commercial
activity of the foreign state elsewhere; or upon an
act outside the territory of the United States in
connection with a commercial activity of the foreign
state elsewhere and that act causes a direct effect
in the United States;
*****
(6) in which the action is brought, either to enforce
an agreement made by the foreign state with or for
the benefit of a private party to submit to
arbitration all or any differences which have arisen
or which may arise between the parties with
respect to a defined legal relationship, whether
contractual or not, concerning a subject matter
capable of settlement by arbitration under the laws
of the United States, or to confirm an award made
pursuant to such an agreement to arbitrate, if (A)
the arbitration takes place or is intended to take
place in the United States, (B) the agreement or

143a
award is or may be governed by a treaty or other
international agreement in force for the United
States calling for the recognition and enforcement
of arbitral awards, (C) the underlying claim, save
for the agreement to arbitrate, could have been
brought in a United States court under this section
or section 1607, or (D) paragraph (1) of this
subsection is otherwise applicable.
*****
4. 28 U.S.C. § 1606 provides:
Extent of liability
As to any claim for relief with respect to which a
foreign state is not entitled to immunity under
section 1605 or 1607 of this chapter, the foreign state
shall be liable in the same manner and to the same
extent as a private individual under like
circumstances; but a foreign state except for an
agency or instrumentality thereof shall not be liable
for punitive damages; if, however, in any case
wherein death was caused, the law of the place where
the action or omission occurred provides, or has been
construed to provide, for damages only punitive in
nature, the foreign state shall be liable for actual or
compensatory damages measured by the pecuniary
injuries resulting from such death which were
incurred by the persons for whose benefit the action
was brought.

144a
5. 28 U.S.C. § 1609 provides:
Immunity from attachment and execution of
property of a foreign state
Subject to existing international agreements to which
the United States is a party at the time of enactment
of this Act the property in the United States of a
foreign state shall be immune from attachment arrest
and execution except as provided in sections 1610 and
1611 of this chapter.
6. 28 U.S.C. § 1610 provides, in relevant part:
Exceptions to the immunity from attachment
or execution
(a) The property in the United States of a foreign
state, as defined in section 1603(a) of this chapter,
used for a commercial activity in the United States,
shall not be immune from attachment in aid of
execution, or from execution, upon a judgment
entered by a court of the United States or of a State
after the effective date of this Act, if-(1) the foreign state has waived its immunity from
attachment in aid of execution or from execution
either explicitly or by implication, notwithstanding
any withdrawal of the waiver the foreign state may
purport to effect except in accordance with the
terms of the waiver, or
(2) the property is or was used for the commercial
activity upon which the claim is based, or
(3) the execution relates to a judgment establishing
rights in property which has been taken in violation
of international law or which has been exchanged

145a
for property taken in violation of international law,
or
(4) the execution relates to a judgment establishing
rights in property-(A) which is acquired by succession or gift, or
(B) which is immovable and situated in the
United States: Provided, That such property is
not used for purposes of maintaining a diplomatic
or consular mission or the residence of the Chief
of such mission, or
(5) the property consists of any contractual
obligation or any proceeds from such a contractual
obligation to indemnify or hold harmless the foreign
state or its employees under a policy of automobile
or other liability or casualty insurance covering the
claim which merged into the judgment, or
(6) the judgment is based on an order confirming an
arbitral award rendered against the foreign state,
provided that attachment in aid of execution, or
execution, would not be inconsistent with any
provision in the arbitral agreement, or
(7) the judgment relates to a claim for which the
foreign state is not immune under section 1605A or
section 1605(a)(7) (as such section was in effect on
January 27, 2008), regardless of whether the
property is or was involved with the act upon which
the claim is based.
(b) In addition to subsection (a), any property in the
United States of an agency or instrumentality of a
foreign state engaged in commercial activity in the
United States shall not be immune from attachment
in aid of execution, or from execution, upon a

146a
judgment entered by a court of the United States or
of a State after the effective date of this Act, if-(1) the agency or instrumentality has waived its
immunity from attachment in aid of execution or
from execution either explicitly or implicitly,
notwithstanding any withdrawal of the waiver the
agency or instrumentality may purport to effect
except in accordance with the terms of the waiver,
or
(2) the judgment relates to a claim for which the
agency or instrumentality is not immune by virtue
of section 1605(a)(2), (3), or (5) or 1605(b) of this
chapter, regardless of whether the property is or
was involved in the act upon which the claim is
based, or
(3) the judgment relates to a claim for which the
agency or instrumentality is not immune by virtue
of section 1605A of this chapter or section
1605(a)(7) of this chapter (as such section was in
effect on January 27, 2008), regardless of whether
the property is or was involved in the act upon
which the claim is based.
(c) No attachment or execution referred to in
subsections (a) and (b) of this section shall be
permitted until the court has ordered such
attachment and execution after having determined
that a reasonable period of time has elapsed following
the entry of judgment and the giving of any notice
required under section 1608(e) of this chapter.
(d) The property of a foreign state, as defined in
section 1603(a) of this chapter, used for a commercial
activity in the United States, shall not be immune
from attachment prior to the entry of judgment in

147a
any action brought in a court of the United States or
of a State, or prior to the elapse of the period of time
provided in subsection (c) of this section, if-(1) the foreign state has explicitly waived its
immunity from attachment prior to judgment,
notwithstanding any withdrawal of the waiver the
foreign state may purport to effect except in
accordance with the terms of the waiver, and
(2) the purpose of the attachment is to secure
satisfaction of a judgment that has been or may
ultimately be entered against the foreign state, and
not to obtain jurisdiction.
*****
(g) Property in certain actions.
(1) In general.--Subject to paragraph (3), the
property of a foreign state against which a
judgment is entered under section 1605A, and the
property of an agency or instrumentality of such a
state, including property that is a separate juridical
entity or is an interest held directly or indirectly in
a separate juridical entity, is subject to attachment
in aid of execution, and execution, upon that
judgment as provided in this section, regardless of-(A) the level of economic control over the property
by the government of the foreign state;
(B) whether the profits of the property go to that
government;
(C) the degree to which officials of that
government manage the property or otherwise
control its daily affairs;
(D)

whether

that

government

is

the

sole

148a
beneficiary in interest of the property; or
(E) whether establishing the property as a
separate entity would entitle the foreign state to
benefits in United States courts while avoiding its
obligations.
(2) United States sovereign immunity
inapplicable. Any property of a foreign state, or
agency or instrumentality of a foreign state, to
which paragraph (1) applies shall not be immune
from attachment in aid of execution, or execution,
upon a judgment entered under section 1605A
because the property is regulated by the United
States Government by reason of action taken
against that foreign state under the Trading With
the Enemy Act or the International Emergency
Economic Powers Act.
(3) Third-party joint property holders. Nothing
in this subsection shall be construed to supersede
the authority of a court to prevent appropriately the
impairment of an interest held by a person who is
not liable in the action giving rise to a judgment in
property subject to attachment in aid of execution,
or execution, upon such judgment.
7. Federal Rule of Civil Procedure 69 provides:
Execution
(a) In General.
(1) Money Judgment; Applicable Procedure. A
money judgment is enforced by a writ of execution,
unless the court directs otherwise. The procedure
on execution--and in proceedings supplementary to
and in aid of judgment or execution--must accord

149a
with the procedure of the state where the court is
located, but a federal statute governs to the extent
it applies.
(2) Obtaining Discovery. In aid of the judgment
or execution, the judgment creditor or a successor
in interest whose interest appears of record may
obtain discovery from any person--including the
judgment debtor--as provided in these rules or by
the procedure of the state where the court is
located.
(b) Against Certain Public Officers. When a
judgment has been entered against a revenue officer
in the circumstances stated in 28 U.S.C. § 2006, or
against an officer of Congress in the circumstances
stated in 2 U.S.C. § 118, 1 the judgment must be
satisfied as those statutes provide.

1

Now editorially reclassified 2 U.S.C. § 5503.

